<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2016</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





         DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2016

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FOURTEENTH CONGRESS

                              FIRST SESSION
                                 _______

                    SUBCOMMITTEE ON HOMELAND SECURITY

                     JOHN R. CARTER, Texas, Chairman

  JOHN ABNEY CULBERSON, Texas          LUCILLE ROYBAL-ALLARD, California
  RODNEY P. FRELINGHUYSEN, New Jersey  DAVID E. PRICE, North Carolina 
  CHARLES J. FLEISCHMANN, Tennessee    HENRY CUELLAR, Texas   
  ANDY HARRIS, Maryland                MARCY KAPTUR, Ohio 
  CHRIS STEWART, Utah                    
  DAVID YOUNG, Iowa

  NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

               Valerie Baldwin, Kris Mallard, Laura Cylke,
                              and Anne Wake,
                             Staff Assistants

                                  _______

                                  PART 3
                                  
                     DEPARTMENT OF HOMELAND SECURITY

                                                                   Page
  Immigration and Customs Enforcement...
                                                                      1
  Customs and Border Protection.........
                                                                     81
  Federal Emergency Management Agency...
                                                                    189

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ________

          Printed for the use of the Committee on Appropriations
                                 ________

                    U.S. GOVERNMENT PUBLISHING OFFICE

  96-904                    WASHINGTON : 2015










                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                   HAROLD ROGERS, Kentucky, Chairman


  RODNEY P. FRELINGHUYSEN, New Jersey      NITA M. LOWEY, New York    
  ROBERT B. ADERHOLT, Alabama              MARCY KAPTUR, Ohio  
  KAY GRANGER, Texas                       PETER J. VISCLOSKY, Indiana  
  MICHAEL K. SIMPSON, Idaho                JOSE E. SERRANO, New York  
  JOHN ABNEY CULBERSON, Texas              ROSA L. DeLAURO, Connecticut      
  ANDER CRENSHAW, Florida                  DAVID E. PRICE, North Carolina
  JOHN R. CARTER, Texas                    LUCILLE ROYBAL-ALLARD, California
  KEN CALVERT, California                  SAM FARR, California
  TOM COLE, Oklahoma                       CHAKA FATTAH, Pennsylvania
  MARIO DIAZ-BALART, Florida               SANFORD D. BISHOP, Jr., Georgia      
  CHARLES W. DENT, Pennsylvania            BARBARA LEE, California          
  TOM GRAVES, Georgia                      MICHAEL M. HONDA, California
  KEVIN YODER, Kansas                      BETTY McCOLLUM, Minnesota       
  STEVE WOMACK, Arkansas                   STEVE ISRAEL, New York
  JEFF FORTENBERRY, Nebraska               TIM RYAN, Ohio      
  THOMAS J. ROONEY, Florida                C. A. DUTCH RUPPERSBERGER, Maryland 
  CHARLES J. FLEISCHMANN, Tennessee        DEBBIE WASSERMAN SCHULTZ, Florida        
  JAIME HERRERA BEUTLER, Washington        HENRY CUELLAR, Texas     
  DAVID P. JOYCE, Ohio                     CHELLIE PINGREE, Maine     
  DAVID G. VALADAO, California             MIKE QUIGLEY, Illinois     
  ANDY HARRIS, Maryland                    DEREK KILMER, Washington 
  MARTHA ROBY, Alabama                  
  MARK E. AMODEI, Nevada                  
  CHRIS STEWART, Utah                   
  E. SCOTT RIGELL, Virginia                      
  DAVID W. JOLLY, Florida                           
  DAVID YOUNG, Iowa                            
  EVAN H. JENKINS, West Virginia              
  STEVEN M. PALAZZO, Mississippi        
                William E. Smith, Clerk and Staff Director

                                   (ii)

 
        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2016
                                 ________



                                         Wednesday, April 15, 2015.

                  IMMIGRATION AND CUSTOMS ENFORCEMENT

                                WITNESS

SARAH R. SALDANA, DIRECTOR, IMMIGRATION AND CUSTOMS ENFORCEMENT
    Mr. Carter. Director Saldana, welcome to the subcommittee. 
We are happy to have you here. I believe this is the first time 
we have had a chance to visit with you and we are looking 
forward to having you. Today's hearing is your first as 
director of the Immigration and Customs Enforcement, ICE.
    Director Saldana comes to this position from the great 
State of Texas. She is a fellow Texan. We will try to be nice 
to her. There she served as the U.S. Attorney for the Northern 
District of Texas. Prior to that, she served as the Assistant 
U.S. Attorney and prosecuted a variety of criminal cases 
including human trafficking, public corruption, and bank and 
mortgage fraud.
    Director, you have a challenging job. Enforcing immigration 
and customs laws and investigating and dismantling 
transnational criminal organizations is not easy, but it is 
essential. We look forward to working with you and the men and 
women at ICE and encourage you to keep us as well informed as 
you can of all operations.
    All in all, the President's budget request for ICE is 
pretty good. Overall, spending is at $6.3 billion which is $16 
million below fiscal year 2015.
    As required by law, the request includes $2.4 billion for 
34,040 detention beds of which 31,280 are for adult detention 
and 2,760 for families; $122 million is for alternatives to 
detention to monitor an estimated 53,000 aliens, and funds 
sufficient to cover the cost of 6,200 criminal investigators 
and 5,800 deportation officers and immigration enforcement 
agents.
    Though these recommendations are sound, I have a few 
concerns. First and foremost, the budget assumes funding for 
100 percent staffing, yet, according to preliminary budget 
analysis, the number of onboard investigative staff is far 
lower than budgeted. Whether they can be hired before the end 
of the fiscal year is questionable. In fact, I wonder whether 
you can spend the funds appropriated in fiscal year 2015 
appropriations package.
    Next, I am pleased that the request assumes funding for 
34,040 detention beds as mandated by law. I am surprised, 
however, that the request for 2,760 family units is 972 units 
lower than last year.
    Last September, the Administration requested funds for 
3,732 new family detention units and Congress provided 
appropriations to that level. Reduction indicates a portion of 
the funds provided in fiscal year 2015 are no longer necessary, 
and we need to get to the bottom of this.
    Before I turn to Ms. Saldana for her statement, the text of 
which will be included in the record, I would like to recognize 
the distinguished ranking member, Ms. Royal-Allard, for any 
remarks that she may wish to make.
    [The information follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    And good morning, Director Saldana, and congratulations on 
your confirmation as director. And welcome to your first 
appearance before this subcommittee.
    Of the fiscal year 2016 discretionary budget request for 
U.S. Immigration and Customs Enforcement, $5.97 billion which 
is a slight increase of $6.3 million above the fiscal year 2015 
level, the total includes $345 million for 2,760 family 
detention beds which is nearly 20 percent of the overall 
detention budget. And this extremely costly proposition is one 
of the issues which I will be asking you about this morning.
    Also when the secretary testified before the subcommittee a 
few weeks ago, I mentioned to him that the toughest mission for 
the department is the enforcement of our immigration laws 
because it exposes a tension among values we as Americans hold 
dear such as obeying the law, protecting children, and keep 
families together.
    While I realize we cannot open our borders to everyone who 
wants to come here for a better life, I do believe that it is 
important to keep those values in mind. And this will help to 
ensure that as we discuss your agency's immigration enforcement 
mission, we do so in the context of ensuring individuals are 
treated humanely and afforded due process under our laws.
    ICE has many areas of responsibility where it deserves 
credit for its performance. And I would just to like to 
highlight a few of those.
    Last year, ICE dismantled eight alien smuggling 
organizations involving the arrest of 37 smugglers. ICE also 
identified and provided assistance to 446 human trafficking 
victims and more than 1,000 child exploitation victims. And 
just last week, among other things, ICE announced the arrest of 
19 individuals wanted for murder and 15 for rape.
    As I mentioned earlier, however, there are areas where I 
have significant concerns such as the exorbitant cost of family 
detention beds. Other areas I would like to discuss have to do 
with how ICE is making use of alternatives to detention and the 
status of implementing and adhering to the agency's revised 
enforcement priorities.
    I also hope we will have time this morning to focus on your 
important investigative missions, most of which are not 
directly related to immigration enforcement, including human 
trafficking and child exploitation.
    So thank you again for being here and I look forward to our 
discussion this morning.
    [The information follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Mr. Carter. All right, Director. We now will recognize you 
for a summation of what you have submitted to the committee in 
approximately five minutes, if you can.
    Ms. Saldana. Thank you, sir.
    And I do not seem to have a working thing, but that is not 
unusual, I guess. Somebody will hit me with a hammer or 
something if----
    Mr. Carter. Are you pushing the button? It should light up 
green when you are ready to talk. Does it not work?
    Ms. Saldana. Can you hear me? I mean, I do not think it is 
going to be hard to hear me.
    Mr. Carter. I think your mike is on.
    Ms. Saldana. Okay. Thank you, sir.
    You are right. This is my first appearance before this 
committee. I was just with Judiciary Committee yesterday and we 
had some lively conversation. I think I am prepared for you all 
today. I will thank the Judiciary Committee later.
    From my early days as an Assistant United States Attorney 
just cutting my teeth on the immigration docket to the time 
that I have spent here, a little bit short of four months as 
the director of ICE, I have seen firsthand over these several 
years the commitment, dedication, and hard work shown by the 
agents, the international staff, the lawyers, mission support 
staff, all our folks at ICE and am very, very proud to be 
serving as the director.
    I get kidded a lot about that, but I will tell you that 
this is the place I should be right now in this critical moment 
in our history.
    As you all know, ICE has about 400 laws we have to enforce. 
As a U.S. Attorney, I had about 3,000 plus that I had to 
enforce in the North Texas area. I appreciate the importance of 
the mission of ICE, Homeland Security, National Security, 
enforcement of customs laws, smuggling activities, 
transnational crime, and I know that you all do as well.
    And I am really looking forward to a productive 
relationship because that is why I am here is because I would 
like to attempt in the short time I have to do the best I can 
for the country and for this agency which I am very proud to 
lead.
    I am pleased with our 2016 budget submission of $6.28 
billion. It is very much in line with the 2015 enacted budget 
for which we are very, very grateful. Following years of 
sustained and painful budget cuts as well as the threat of 
sequestration and shutdowns, you all can imagine how difficult 
it has been to manage our finances.
    But now with this budget, I think it will strengthen our 
financial footing to enable ICE to expand efforts that are core 
to its mission including immigration, the transnational crime 
and investigations you spoke about, Ranking Member Roybal-
Allard, and investment in information technology needed to meet 
the security challenges of this 21st century.
    These areas along with the improvement of morale at our 
agency actually parallel my own goals for the agency. And I am 
very much focused on cyber security and homeland investigations 
and counter-terrorism work and focusing our efforts on those 
people who are immigrants, undocumented immigrants in the 
country who pose a threat to our communities.
    So as the principal investigative arm of the department, 
the Office of Homeland Security Investigations, we refer to it 
as HSI, does criminal investigations to protect the United 
States against terrorism and other criminals and to bring to 
justice those seeking to exploit our customs and immigration 
laws worldwide.
    Notably in 2014, ICE investigations led to the disruption 
or dismantlement of 520 transnational criminal organizations. 
And I cannot tell you how impressed I am. I have now visited 
one, two, three, four, five, six countries in the less than 
four months that I have been onboard including going around the 
world. I did go around the world on one trip and lived to tell 
about it.
    And I am just so impressed with our international people, 
our attaches, our deputy attaches, and the tremendous support 
they bring to our investigations. It is critical to have those 
folks out there obviously as well as our domestic agents.
    In connection with those investigations, we made more than 
32,000 criminal arrests and seized more than 2.3 million pounds 
of narcotics, 23,000 weapons, and $722 million in currency 
aligned with our financial investigations.
    The President's budget requests $1.99 billion for ICE to 
continue these investigative efforts. Specifically the budget 
increases domestic investigative capacity to hire special 
agents and investigative support staff, an area that is very 
critical.
    And I do understand your concerns, Mr. Chairman, with 
respect to the hiring and that is an area that is of utmost 
importance to me. We are up and running and have interviews and 
other things already in effect and I will be happy to fill you 
in more detail.
    The budget also requests $26 million, additional dollars 
for human smuggling and human trafficking which is an area that 
I prosecuted substantially when I was an Assistant United 
States Attorney.
    To prioritize the removal of those living unlawfully in the 
United States, ICE devotes its resources to areas that hold the 
highest risk to our communities.
    In 2014, I think you have seen the numbers, we removed 
316,000 individuals unlawfully present in the United States. 
More than 213,000 of these were apprehended while or shortly 
after attempting to cross our borders and 102,000 were 
apprehended in the interior of the United States.
    I should point out that 85 percent of those interior 
removals were of immigrants previously convicted of criminal 
offenses. That is an 18 percent increase over prior years, 2011 
in particular, and it reflects the agency's renewed focus on 
aggressively targeting and removing the worst criminal 
immigrants, security threats, felons, gang members, and the 
like.
    This budget for 2016 requests $3.3 billion to deter illegal 
entry into the United States with full funding for the 34,040 
beds you mentioned, Mr. Chairman, including family units, 129 
fugitive operation teams, a very important part of what we do, 
and increased use of alternatives to detention that effectively 
manage risk while also reducing the detention costs the ranking 
member mentioned earlier.
    Of course, the other side of this coin is the work of our 
attorneys whose work is vital to moving cases along so that we 
can remove people, so we can get a final order and a 
disposition with respect to those people we want to see 
removed. And the attorneys are vital in that.
    With the new attorneys that we are requesting, we think we 
can address their very heavy workloads and decrease the average 
length of stay of detainees which, as you all know, can get 
very expensive very quickly.
    The 2016 President's budget also requests $73.5 million to 
improve ICE's information technology infrastructure and 
applications. It is old. In order to manage, I have to review 
data all the time. In order to oversee our operations, you all 
need to review data all the time. And this $73.5 million is 
critical.
    Due to reduced budgets and sequestration, ICE's capital 
investment budget has decreased by 71 percent from a high of 
$90 million in 2010 to $26 million this year.
    Some of the systems are reaching the end of their life 
while others need to be modernized to improve interoperability, 
data sharing, and reporting capabilities to you and to the 
American people. I cannot emphasize enough how critical 
investing in our information technology is for our 
investigative and enforcement capabilities.
    I just want to conclude by thanking you for your continued 
support and I am ready to answer any questions you may have.
    [The information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Mr. Carter. Well, thank you, Ms. Saldana, for that 
summation. We appreciate it very much.
    And I am going to start out by jumping off into a subject 
that is weighing upon my heart pretty heavily and I would hope 
most of the members, if not all the members of this 
subcommittee.
    It has been reported in the press to this committee that 
30,558 individuals with criminal convictions were released into 
the public arena in the United States of America. This is a 
2014 release which follows a 2013 release which was a 
discussion of this subcommittee last year of 36,000 criminal 
aliens released, at which time we asked why did you not tell us 
about this and why do you not tell us now about the nature of 
these people.
    We got that some months later after we requested it. We 
wrote into our bill report language requiring the ICE to give 
us that information prior to release. And, by the way, this has 
been a policy, it is my understanding talking to prior staff 
people, that has been around and we have asked for for a long 
time.
    If you are going to release known criminal offenders into 
the public arena and into the neighborhoods of American 
citizens, we think that this committee, who pays the bills, 
should get that information prior to release. And we treat 
report language as a direction from this committee for the 
performance of the agency we direct.
    This is not hard stuff. You read law books. If it is there 
in print, you know what it says. I know you are new to the 
game, but let me just tell you a pet peeve I have about the 
entire Homeland Security Department.
    I no longer have any sympathy for the excuse that, the 
acting director was taking care of that before I got here. Half 
the people in DHS are acting. It is a fatal flaw of this 
department.
    I have addressed this with Jeh Johnson and he agrees it is 
fatal flaw. And I will have to give him some credit about 
putting it in the fast track to get people to be the actual 
people responsible for these agencies in place.
    I am no longer going to accept the excuse that the acting 
director should have taken care of this. No. You take all the 
faults of the guy that was running ICE before you got there. We 
expect to know this information.
    Now, you are a Texan. You know that the NAFTA corridor is 
the outlet for the entire eastern part of the United States, 
and it runs right through our back yard. You went to school in 
Kingsville. It runs right through your back yard.
    The Texas people can see that we just put 30,000 criminals 
that they know nothing about on that highway headed north. Now, 
in reality, they are not all on that highway, but there is a 
good number of them that are. They run right through my 
hometown of Round Rock. And that corridor affects every Texan 
in the whole State.
    When people hear criminals are released, they get fearful 
and they ask us to answer for that because we are their 
representatives. And if the subcommittee that provides the 
funding does not have the information, then none of the rest of 
the Members of Congress have any source to go to to get the 
information.
    This is a critical error and I have a whole series of 
questions I want to discuss with you about that. Let me start 
here. You just kind of make a little note of this and I will go 
by sections.
    Are there national security concerns or law enforcement 
sensitivities that prevent you or the department from giving us 
this information? Why does the press get it before Congress 
gets it?
    As directed in the fiscal year 2015 House report, do you 
intend to publish the information on your website as directed 
by Congress and when? Let's start with those three questions.
    Ms. Saldana. Okay. And, sir, when I took the oath for this 
office, it was never my intention and it will not be my pattern 
to blame others for the situation at ICE. I am here voluntarily 
of my own free will and I intend to answer for the agency.
    With respect to the information and the reporting, my boss, 
Jeh Johnson, as you well know, is very demanding with respect 
to our cooperation and providing of information to our 
committees and Members of Congress. He has a very clear 
directive to all of us that we should do that.
    I will tell you that right now we are working on the very 
report. I think maybe late last month, I issued a memorandum 
and directive that would give me greater comfort because I have 
the same concern. I do not want criminals who are threats to 
our communities out there either.
    But what I have asked for is I want more supervision of the 
decisions that are made with respect to criminal releases just 
so that we can rest assured that we are going about our process 
and following it faithfully and consistently across the 
country.
    And one of the things that I addressed in there was the 
communication with state and local government, obviously with 
the Congress, but with state and local governments in 
particular before we release a person with a serious criminal 
history into the community. We are working on that.
    I mentioned the technology money. So I know little about 
IT. I just do not have that kind of brain. I am a lawyer after 
all. But I do understand old and outdated information systems. 
And as you can well imagine, we are getting lots and lots of 
inquiries from, I do not know, the 92 or so committees that 
oversee our operations and many of them have different aspects.
    What we are trying to do is to create a system that can be 
more responsive and we are on the task of the local and state 
communications of releases. We are already in the test pilot 
stage trying to make sure that we can communicate with the 
state systems which in turn will provide information to the 
local jurisdictions. And I believe those early tests are coming 
back very successful.
    In terms of expanding it nationally, it is going to take a 
few more months in order for us to get that in a way that we 
can push a button, provide that information to the state, and 
bring it back so that people have an idea of who is going into 
their communities that have a record of criminal history.
    The estimate I have seen is at least through probably the 
end of this calendar year before we can get that up and going, 
but I know we are talking to particularly state information 
system which we have in Texas and obviously the other states 
have so that we can make our systems compatible so they can 
speak to each other.
    I am sorry. I do not know the technical jargon, but I do 
understand systems speaking to each other and that is what we 
are trying to accomplish. That is a big deal to me. That is a 
big deal to me. I know it is a big deal to you, sir, and to the 
other members of this committee. And I am going to be on it. I 
am going to be on it from here until we get to the end of 
actually making this a working system.
    With respect to reporting to this committee, the people 
behind me have very clear direction that this is a top priority 
is communicating with congressional staff and with Members of 
Congress and we have pedaled as fast as we can. I have seen it 
when there is a response and a request and I think we have made 
very good progress.
    I think we have cut down the numbers, the turnaround time 
on inquiries. And that is another thing I have my finger on the 
pulse of. So that is where we are and I commit to you that we 
will continue to do that. And I will stay on it until we get 
good----
    Mr. Carter. Well, Ms. Saldana, when I heard what you were 
asked when you commented about--in fact, I made a little note 
at the top of my page that I expected to hear, and I did, about 
data. It is wonderful the new tools we have, but as far as we 
are concerned, you can sit down with a pencil and a big chief 
tablet and write us out a list of the people that are being 
released from prison, because you cannot release them without 
being able to inform somebody to turn them loose.
    Somebody knows this information that works for ICE and they 
have been directed by us, prior to the release and prior to 
anything going to the press, that we get that information. I do 
not care whether this comes on a computer. You can write it on 
a big chief tablet and send it over here, but I expect it to be 
here.
    I think it is only fair that those of us who have to take 
the major amount of heat that will come down, and it is coming 
down right now in our communities across the United States. I 
was a judge for 20 years. We did not have all these fancy 
things. We used IBM Selectric typewriters and carbon paper at 
one time in the courthouse. It is still available.
    There is no excuse to just ignore this because our computer 
does not work as fast as it needs to or does not accumulate the 
information. You have human beings that are accumulating that 
information, and they can send it to us.
    Ms. Saldana. Let me be clear, Chairman. We are not ignoring 
it. We are on this.
    Mr. Carter. We do not have it.
    Ms. Saldana. These are files. These are files with a bunch 
of paper in them. They are stored centrally in archives in a 
central location. We have to get them. Somebody, as you said, 
has to get with a pencil and a tablet and go through and 
respond to the different facts that you are asking for. So we 
are on that.
    Mr. Carter. Are you telling me that these people are 
released without them informing you or the top echelon? Is this 
field work that is done by individuals and they are just making 
these releases without any central authority at all?
    Ms. Saldana. That is part of that same directive I told you 
about earlier. They are making decisions locally, but I have 
asked for additional levels of review and that is the field 
office director. The person who runs the enforcement and 
removal operation locally has been told you need to sign off, 
you or an assistant needs to sign off on this, that extra level 
of supervision.
    I have created a five or six-person panel of senior 
managers who will look at the release and make sure we are 
exercising to the extent we are exercising our discretion, and 
this is not a court ordered release, that they review it as 
well.
    So, no, it is not happening in a vacuum, but we will get 
that information to you.
    Mr. Carter. Any people in that chain of command you just 
mentioned should be able to give us the information. If it 
comes in piecemeal that in the Rio Grande Valley we are turning 
loose 10,000 and in Laredo we are turning loose 20,000. I do 
not care how it comes down.
    Ms. Saldana. Okay.
    Mr. Carter. But we need to know it and know what the 
criminal activity they were convicted of. You know, I was a 
district judge. We tried felony DWIs and, one of the things 
that kept you up at night is that drunks kill people in cars.
    And you get a guy that has a felony DWI in Texas, he has 
had probably five misdemeanors before he ever gets to see you, 
even though he could have less to get there, but most of them 
have about five or more. When you put them out on some kind of 
release, you think you know who is going to get blamed when a 
little kid gets run over by this drunk? It is going to be the 
judge that turned him loose.
    Well, we get blamed on this situation because we are the 
guys that pay the bills. I just cannot impress upon you that I 
am furious about the fact that we ask politely, then we put it 
in writing and say you will do this, and it is not being done. 
That encourages us to not be very kind to the agency.
    I told Jeh Johnson and the former director that I think ICE 
is one of the best law enforcement agencies in the country, and 
they do not get any credit for it. But you are not going to get 
credit if this committee gets down on you, I can promise you. 
This subcommittee pays the bills, and we are responsible for 
it.
    What mechanisms does ICE use to ensure sexual predators 
released from ICE custody meet the legal requirements to 
register with local officials? If these releases are being made 
like you described, really my concern doubles.
    Has ICE determined whether sexual predators in ICE custody 
are properly registered before releasing them to the public? It 
is a requirement of the law of every State in the country, and 
there is a federal register for sexual predators that I happen 
to have written the legislation to put that in place. All that 
is required because it is the way we keep track of a lot of 
people who do a lot of harm to a lot of little kids.
    Does ICE have an official process to inform local officials 
that sexual predators are being released? If not, should a 
formal process be instituted immediately? Should the law be 
amended to require this formal process? If you will not do it 
with any other, we will do that.
    Ms. Saldana. That is the system I mentioned earlier that I 
believe we can get off and running with the state databases 
before the end of the year. I am very hopeful for that. Again, 
this takes tuning up not only our machines but having them link 
and work with the state machines as well. We are very much on 
that and that includes all these criminals that are released, 
not just the sexual predators.
    Mr. Carter. But the sexual predators, in all 50 states, we 
have specific requirements for registration of sexual 
predators. And we have a national register.
    Ms. Saldana. Right.
    Mr. Carter. And if we are releasing people that should be 
on those registers, then do not. You know, a lot of people in 
this modern day and age, when they get ready to buy a house, 
they check that list to see who their neighbors are. This is 
important.
    You have stated that you are concerned that releasing 
criminal aliens could cause public safety concerns. I believe 
the law enforcement officials should be notified when criminal 
aliens convicted of violent offenses are released in local 
communities.
    Does ICE inform local law enforcement about violent 
criminal aliens released in their communities? Are there 
effective methods for getting this information to local law 
enforcement? And you are telling me there are none? Is what you 
are saying?
    Ms. Saldana. No. Well, there is not a system----
    Mr. Carter. You are trying to put it in place?
    Ms. Saldana. We are trying to institutionalize it, but let 
me not fail to mention that obviously we are in the field. Our 
people are talking to state and locals all the time, sheriffs 
to local officials. There is an informal communication with 
respect to that. I want to see it institutionalized and that is 
what we are trying to do is actually set up a system where it 
happens every time we release somebody.
    Mr. Carter. Well, you are a lawyer. There should at least 
be something in writing to notify local law enforcement. If the 
informal is running into a sheriff's deputy at the cafe and 
say, oh, by the way, we turned loose a violent criminal, a 
sexual predator over in your neighborhood, that is not the kind 
of notice that should be available. You should be at least 
giving them something in writing informing them, as we do 
between counties and states these days, every day.
    Finally, one of the reasons for the release we hear is the 
Zadvydas Davis decision. How many serious criminal offenders 
were released under a ruling of Zadvydas v. Davis decision 
which prohibits ICE from detaining criminal aliens longer than 
six months unless there is a reasonable assurance the 
individuals will be expatriated to his or her country of origin 
in the foreseeable future? How many of the criminal aliens 
released in 2013 to 2014 were released under Zadvydas? What 
countries are they from and why would the countries not take 
them back?
    That is very important, because if we have countries that 
are not honoring bringing their people back, then as we deal 
with the State Department budget and we deal with Foreign 
Affairs' budgets, we have methods whereby we can get their 
attention that, you know, if you think that we are going to 
continue to provide foreign aid to your country when you will 
not take back these people that are a burden upon our society 
and they are and have been. By being incarcerated, they are a 
burden on our society.
    Ms. Saldana. And we provided that information for 2013. We 
are in the process of gathering that for 2014, the breakdown by 
countries. I can tell you that China is pretty much at the top 
of the list.
    Mr. Carter. We know China is at the top of the list, but we 
have other questions. You know, Honduras and Guatemala and San 
Salvador, that has been a big issue. We do not know whether 
they are taking them back or not.
    Ms. Saldana. They are, sir.
    Mr. Carter. Well, that is good. But that is exactly the 
kind of information that should be a current event for this 
committee, not a after-the-fact report. The current event is 
important to the communities that we represent.
    Are there steps DHS and the State Department can take with 
any of the nations to get them to encourage repatriation? You 
got ideas, we are willing to do them. We are in this together, 
but you have to share information with us.
    Ms. Saldana. It is gratifying to hear that. I mean, that is 
what I want.
    Mr. Carter. Jeh Johnson knows that and I want you to know 
it. But you have no idea how mad people get when they hear 
about these releases. The reality is most of these releases are 
totally appropriate. They would fit into any criminal justice 
system that we operate under in the country, but that is not 
what it sounds like. It sounds like ICE turned them loose. That 
is what it sounds like.
    Ms. Saldana. And I appreciate the fact that you are, I 
presume, out there telling them that information and that is 
why this information obviously is important.
    Mr. Carter. You have dealt with locals. The local chief of 
police gets a call. Hey, ICE turned people loose. How many of 
them are coming our way? How many are coming to our town? The 
sheriff gets that call. Local law enforcement, immediately as 
it hits the paper, they want to know where these people are.
    I will tell you, Texans think 95 percent of them are in our 
State, and it could be that a lot of them are.
    Ms. Saldana. It will be a good number. I do not know about 
95 percent.
    Mr. Carter. Yeah.
    Ms. Saldana. Between California and Texas.
    Mr. Carter. This is a crisis as far as this committee is 
concerned in my opinion.
    I will recognize Ms. Roybal-Allard.
    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    Director Saldana, in addition to last year's influx of 
unaccompanied children, there was a rapid growth in the number 
of families crossing the border, usually mothers with one or 
more children. And ICE responded by establishing a significant 
number of new family detention beds.
    In fact, the number of family beds will have gone from 
around 85 at this time last year to what is expected to be more 
than 3,100 by June. For fiscal year 2016, the budget proposes 
$345 million for 2,760 family detention beds and that is 
$125,000 per bed including care.
    In addition to the high cost, many of us are concerned 
about the prospect of so many families, especially children, 
living in detention settings. Since there are less expensive 
and more humane options such as alternatives to detention which 
have proven to be successful in having people show up for their 
court hearings, it seems that the real issue to be addressed is 
the speed at which someone is able to have their case 
adjudicated before an immigration judge.
    So given that the $345 million proposed for family 
detention next year is almost three-fourths of the entire 
budget proposed for the immigration courts at DOJ, would it not 
make more sense to use that money to address the immigration 
backlog at DOJ?
    Ms. Saldana. Well, you noticed, I am sure, Representative, 
that we also asked for an increase in alternative detention 
programming because we have found some success in that. I think 
we have had a request before, but this is about the highest we 
have asked for. So we are definitely looking at that and think 
that is particularly appropriate for families.
    As you know, there is a District Court decision that talks 
about the fact that we should not use deterrents as a factor in 
making decisions with respect to the families. And so we have 
gone back and scrubbed prior cases and every person, adult or 
family member, the decisions are being made on the basis of the 
due process you talked about earlier.
    Is a bond more appropriate for this individual? Do we need 
to detain them? If there is a bond that is appropriate, what is 
the appropriate amount to make sure that they appear in future 
court proceedings?
    So we are very sensitive to that. I agree with you. I made 
it a point in month two to go to the Dilly family facility and 
see for myself, because I am one of these trust but verify 
people, that that facility--I do not know if you have had an 
opportunity to visit it, but that is one of the three and the 
largest of the three family facilities--is in my opinion top 
notch.
    It provides child care, infant care, child care, education, 
medical facilities. I think the response time is within 12 
hours someone has had a medical examination to see what their 
needs are and the like. And I am very much satisfied that that 
is appropriate.
    I plan to go to Karnes because I have heard a lot about 
Karnes. And I want again to see for myself. I think I have 
planned a trip for that actually tomorrow or the day after. I 
am going somewhere.
    Ms. Roybal-Allard. Okay. Director Saldana, I think that my 
question has to do more with the issue of if we need these 
family detention beds and one of the primary reasons is that 
the length of time it takes for a case to be adjudicated and we 
are spending $125,000 per bed, you know, plus care, if it would 
make more sense then given that the cost of the detention is 
three-fourths that of the entire budget proposed for DOJ, would 
it not make more sense then to use that money to help expedite 
the adjudication of these cases? That is my----
    Ms. Saldana. I cannot urge you more that we need both in my 
view. We need more judges because that is actually the 
underlying problem. I think the chairman mentioned that 
earlier. We have got to move the process faster. We do not 
detain because we get a kick out of it or it is something that 
is good to do. We detain based on any decision that a federal 
judge makes, for example, with respect to releasing someone 
pending proceedings. And that is flight risk and safety issues.
    So, yes, it could be a simplistic answer, but my view is 
that we need those additional attorneys that I talked about. 
DOJ, I do not know why I am speaking for DOJ other than it was 
my prior department. DOJ needs those additional judges that 
they are going to be requesting, I am sure, for 2016 so that we 
can get those decisions that the families are asserting, their 
request for relief made sooner rather than later. That will 
save us on costs.
    Right now we do not know how many families are going to be 
coming or whether we will have anything close to what happened 
last time. We have got the beds ready. That was our promise is 
to have those beds ready if that happens again this year. We 
will see.
    I think we are just coming upon that part of the season 
that there tends to be more migration towards this area. So I 
would strongly suggest that both things need to be done.
    Ms. Roybal-Allard. Okay. Let me go back. You mentioned the 
bonds and I understand that the District Court has imposed a 
preliminary injunction on the ICE policy of detaining families 
seeking asylum without consideration of releasing them on bond.
    Can you explain what the rationale was behind this policy 
given that the bond is an incentive for ensuring that families 
appear at immigration hearings?
    Ms. Saldana. If we are talking about the District Court, 
Washington, D.C. Court, that is not the ruling of the court. 
The ruling of the court, as I understand it, it has been a 
little while since I have looked at it, is that we cannot take 
deterrents which is the reason we specified for detaining 
families as one of the factors we were looking at is deterring 
other families from coming through was not appropriate and we 
are prohibited from doing that.
    Ms. Roybal-Allard. This was the U.S. District Court?
    Ms. Saldana. Right, in D.C.
    Ms. Roybal-Allard. Right.
    Ms. Saldana. And so, no. Bonds are afforded to families 
just like any other adult that we look at. If we make the 
decision that we do not need to detain them, we give them that 
opportunity for a bond, again, to ensure their presence in the 
future.
    Ms. Roybal-Allard. Currently that is true based on the 
decision. But prior to that, it is my understanding that 
families that were seeking asylum were not given the 
consideration of bond. And that leads me to the next part of my 
question that there has been some complaints that, well, ICE 
has begun to offer bond to some families, that the amount is 
often set too high for families to afford.
    So what is ICE's process in setting bond amounts and is the 
affordability of the bond taken into account on a case-by-case 
basis?
    Ms. Saldana. It is definitely a case-by-case analysis of 
the factors. The minimum bond that can be set is $1,500. I 
would think even $1,500 for some families would be impossible 
to meet, but that is a bottom-line figure. My understanding is 
that we look at, again, it is a decision that is made on a 
case-by-case basis, what bond amount will ensure this person 
actually shows up.
    You know, I do not have an example right now I can give you 
and I would not talk about individual cases anyway, but 
generally that is the approach. It is not let's set the bond so 
they cannot make bond. It is let's set the bond based on a 
number that will ensure they will appear in the future.
    Ms. Roybal-Allard. Is there an appeal process?
    Ms. Saldana. Absolutely.
    Ms. Roybal-Allard. There is.
    Ms. Saldana. It is on our Web site lower right-hand corner. 
And also everybody has the right to appeal to an immigration 
judge on the amount of bond that is imposed on an individual. 
And many, many do, one of the reasons we have a half a million 
person backlog in the immigration courts.
    Ms. Roybal-Allard. You mentioned Karnes and some detainees 
at the Karnes family residential center engaged in a hunger 
strike to protest their detention while seeking asylum.
    Do you know if the participants have been offered release 
on bond and, if so, has the bond amount been set at a level 
that they could afford and they are using it?
    Ms. Saldana. All of the persons who come into our custody 
are given a bond determination very quickly. And, yes, all of 
them are.
    One thing I strongly suggest, Congresswoman, is if you are 
relying on the New York Times story that came out this weekend, 
it is chock full of errors, not the least of which is that we 
have barbed wires in our family detention center. And there are 
about 16 or 18 other facts that are wrong there.
    I have asked when I meet with nongovernmental 
organizations, I have asked if you have a complaint, there is a 
process on our Web site, but more importantly please get the 
facts, information that we can look at, the names of people, 
the dates events apparently occurred or are alleged to occur, 
because facts are more important to me than assertions that are 
just thrown out there willy-nilly.
    We will look at anything that looks wrong and, as I say, I 
personally am going to Karnes tomorrow apparently or the next 
day and we will look into that. But, no, every person has an 
opportunity for a bond determination if we believe there is not 
obviously a recommendation of detention. Even our detention 
decisions are often taken on a look by the immigration courts 
are overturned.
    Ms. Roybal-Allard. Okay. Just one final thing. It is my 
understanding that there have been allegations of mistreatment 
of hunger strikers at Karnes in retaliation for their protest 
and the Office of Civil Rights and Civil Liberties has begun an 
investigation.
    Is that correct and can you provide any information on the 
status of that investigation?
    Ms. Saldana. I can do that in another setting for you.
    Ms. Roybal-Allard. Okay.
    Ms. Saldana. And we can talk about that.
    Ms. Roybal-Allard. Okay. Thank you, Mr. Chairman. You have 
been very generous with the time.
    Mr. Carter. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Madam Secretary, good morning. I have 
read that tens of thousands of people have been killed in 
Mexico which borders Texas. And some of those people who have 
been killed are U.S. law enforcement and other citizens.
    You have been a prosecutor, so you have worked for the 
Department of Justice. You have this new role which we 
congratulate you on.
    I am told, and tell me if I am wrong, that some of those 
who perpetuated these crimes, heads of cartels actually have 
domiciles in the United States, property in the United States. 
As a resident of Texas, I would assume you would know that. And 
what are we doing about it if that is the case?
    Ms. Saldana. Well, I do not know when you refer to these 
crimes and tens of thousands of law enforcement----
    Mr. Frelinghuysen. Crimes involving the killing of tens of 
thousands of people in Mexico to include some Americans.
    Ms. Saldana. There are awful and large and well-established 
drug cartels who have connections not only with homes----
    Mr. Frelinghuysen. What I am asking is I understand that 
some of the people who are involved in leadership positions are 
domiciled in the United States. What are you doing in your 
agency to prosecute or bring some of these people's behaviors 
to public account?
    Ms. Saldana. That is a big part of what Homeland Security 
Investigations----
    Mr. Frelinghuysen. So what are you doing? What is the role 
of your agency relative to such people?
    Ms. Saldana. That is gather----
    Mr. Frelinghuysen. They come here, do they not, so they 
must pass through your portals; is that right?
    Ms. Saldana. Through our portals?
    Mr. Frelinghuysen. Yes, your agency.
    Ms. Saldana. Yes. Well, Customs and Border Protection. You 
know, we have two sister agencies----
    Mr. Frelinghuysen. Yeah. Okay.
    Ms. Saldana [continuing]. Who worries about the borders and 
is apprehending the people. In fact, the people they apprehend 
constitute about 60 percent of the people ICE deals with.
    Mr. Frelinghuysen. So what is your role relative to your 
agency relative to these people?
    Ms. Saldana. It is investigations and that is gathering 
intelligence, interviewing witnesses, finding evidence. In 
fact, that is the heart of what we do.
    Mr. Frelinghuysen. So could you assure the committee that 
you are actually doing it and what would be the likely 
consequence of some of the investigations that have already 
occurred?
    Ms. Saldana. Well, I think some statistics----
    Mr. Frelinghuysen. Where do we stand? Is it accurate that 
there are people here in our country that have perpetuated 
these crimes that are domiciled here that own great ranches and 
properties here and transit back and forth on a regular basis?
    Ms. Saldana. That is the case.
    Mr. Frelinghuysen. What are we doing about it?
    Ms. Saldana. Many of them are the subjects of 
investigations not only by HSI, Homeland Security 
Investigations, our folks because that is the heart of what we 
do is transnational criminal activity, but also by other 
agencies including the FBI and DEA. All of us are out there.
    Mr. Frelinghuysen. So what product has come from those 
investigations?
    Ms. Saldana. I think I mentioned some statistics earlier.
    Mr. Frelinghuysen. But have some of these people, and there 
are not that many of them who have cached their behavior in 
Mexico through, you know, their cartel activities making a lot 
of money which the----Chairman, thank you for yielding. What 
are you doing about it?
    Ms. Saldana. Well----
    Mr. Frelinghuysen. I know there are some shared 
responsibilities, but what specifically? Would you acknowledge 
that this exists----
    Ms. Saldana. Oh, yes. I know that----
    Mr. Frelinghuysen [continuing]. A situation, a domicile 
like this?
    Ms. Saldana. Not from my three months at ICE----
    Mr. Frelinghuysen. Yeah.
    Ms. Saldana [continuing]. But as a United States Attorney.
    Mr. Frelinghuysen. So what has been done? What has been 
done on it?
    Ms. Saldana. For those who we have not captured--and we 
have captured quite a few, and I am talking about the United 
States, HSI cannot take credit for all of them.
    Mr. Frelinghuysen. Yeah.
    Ms. Saldana. But we captured quite a few. They are way up 
there on the list of people to----
    Mr. Frelinghuysen. Yeah. But, I mean, they are right here. 
They transit back and forth.
    Ms. Saldana. They go back and forth, sir.
    Mr. Frelinghuysen. So we----
    Ms. Saldana. They go back and forth.
    Mr. Frelinghuysen [continuing]. We have captured, you know, 
a dozen or----
    Ms. Saldana. The United States, I cannot speak for the 
United States. I think I mentioned earlier that we have 
actually secured 2.3 million pounds of narcotics.
    Mr. Frelinghuysen. Which is like, you know, in the overall 
trade, you know, that is maybe a significant sum, but in 
reality, this trade involves a lot more than just that amount.
    Ms. Saldana. A lot.
    Mr. Frelinghuysen. And the dollars involved are huge.
    Ms. Saldana. A lot more. And as I said, that is part of our 
request for increasing our Homeland Security Investigations 
folks is because we want to be out there looking at these cases 
and finding these people and gathering the evidence.
    Mr. Frelinghuysen. Respectfully, these people and their 
domiciles and locations generally I am told by people I hang 
out with here, you know, people on the panel, sometimes these 
people are well-known and we do not do anything to prosecute 
them.
    Ms. Saldana. Well, we get one shot at the prosecution, sir, 
and we need to have the evidence in order to prosecute. We 
cannot just assume or come to a federal jury with information 
that they are suspicions, beliefs. We got to line up the 
evidence and those cases tend to take quite a bit of 
investigation.
    Mr. Frelinghuysen. Well, with the chairman's permission, I 
would like to see what your win-loss record is either through 
your operation or the Department of Justice as to whether we 
have actually been successful in apprehending any of these 
people who bought substantial land holdings here and who 
educate their children here and do all sorts of things that----
    Ms. Saldana. Right.
    Mr. Frelinghuysen [continuing]. They undeservedly get, you 
know.
    Ms. Saldana. I no longer have any control over the 
Department of Justice information, but I can certainly provide 
you the number of drug cartels. I think someone mentioned it 
earlier----
    Mr. Frelinghuysen. Yeah.
    Ms. Saldana [continuing]. That we have actually broken----
    Mr. Frelinghuysen. Yeah.
    Ms. Saldana. If your specific question is, how many of the 
drug cartel investigations we have had that we have found 
people who have domiciles in the United States, I think we can 
probably dig down and do some findings.
    Mr. Frelinghuysen. Yeah. Well, it is sort of disturbing, I 
think, considering the number of people that have been killed 
across the border.
    Well, thank you, Mr. Chairman.
    Thank you, Madam Secretary.
    Mr. Carter. Mr. Cuellar.
    Mr. Cuellar. Mr. Chairman, thank you so much.
    First of all, I want to associate myself to the comments 
that the chairman made at the beginning about notice. I think 
we should not be working in silos. I think we ought to be 
working together and certainly that type of information to the 
local communities is going to be important. If somebody is 
going to be released in my neighborhood, I would like to know 
about it. So I do want to associate myself to the comments that 
the chairman made.
    Also, I guess Rodney left already, but I think he has a 
point and we can talk about it at another setting. To the point 
that the chairman of Defense was talking about a few minutes 
ago, that is at another setting. I would like to follow up on 
those points about some of those folks living in the U.S. 
because they know that the violence is not in the U.S., but 
they do their work and they come over. And we can talk about 
that.
    Ms. Saldana. Okay. Thank you.
    Mr. Cuellar. I do want to also mention my brother who is a 
border sheriff, and I think John knows him very well, has done 
some work with your folks on those online predators.
    Ms. Saldana. Yes.
    Mr. Cuellar. And they have done a great job working 
together, so I just want to say Janet Ziella and the other 
folks here have just done a great job on the online predators. 
So I do want to say that to start off with.
    I do want to point out something that I have been talking 
to Chairman John Culberson, in fact just yesterday, the numbers 
that we got at the end of 2014, the Executive Office of 
Immigration Review that overviews the Nation's immigration 
courts, they said they had about 429,520 cases pending.
    I think a lot of the issues that we are talking about, I 
know it is not--usually we talk about adding more officers on 
the border, but if we add some of those judges, I think it can 
move the backlog and it would really save the taxpayers a lot 
of money.
    And I have talked to the chairman there that has the power 
on the Commerce and Justice and hopefully he would look at this 
very carefully on that because we do need to have more judges. 
And hopefully they can be placed at the border also on that 
because I give you the numbers.
    Ms. Saldana. Strategically?
    Mr. Cuellar. Yes, strategically is the key, strategically.
    I do want to say I am familiar with the Karnes facility, 
familiar with the Dilley. I have not gone to Dilley. All I ask 
you and I know my office has been working with you all about 
having some nuns that wanted to go. I know the bishops were 
there, Sister Mary Welch. I know there is some media from the 
Valley that deal with a lot of this issue last summer and were 
working with you that they want to go in and work with you. We 
would appreciate it so there can be some sort of transparency 
on it.
    I know it is private contractors, but you all do the 
oversight.
    Ms. Saldana. Oh, yes. And I met with religious leaders and 
I believe she was there at the Executive Office Building last 
week. And they had already been there and their view is that we 
should not detain any families. That is what they would prefer 
to see and that is clear. They have made that clear to the 
secretary and to me and we will----
    Mr. Cuellar. And we----
    Ms. Saldana. We are aware of that.
    Mr. Cuellar [continuing]. Respectfully disagree. I think we 
need to have detentions. Otherwise, you have open borders and I 
think there has to be detention, but you need to have the 
judges also and other factors and make sure there is no abuse 
and, you know, the issues, you know, that people are treated 
with respect and you all need to look at.
    But as you go and open up more of those, assume there is 
more of those detentions, the only thing I would ask you is to 
keep the taxpayers' dollars in mind. This happened before you 
came in. I think I called you before on this issue. And I think 
it is the intergovernmental service agreement. It went to one 
company.
    The amount of dollars, I do not know if the committee is 
familiar with it, it was a lot of money. I will put it that 
way. And if you look at cost, it just went too much without 
some sort of competition. I talked to your folks beforehand. I 
respectfully disagree, but there has to be at least some sort 
of competition so the taxpayer gets the best dollars if you are 
going to build a huge facility like that. But now that it has 
been done, I just ask you to save the taxpayer some dollars as 
you are going through this process.
    Finally, you know, the only thing I do want to mentioned, I 
guess it is more of a statement than a question, but the 
communication with people that provide you funding is 
important. And as the chairman, I do want to finish on this. If 
we ask you for something, I would ask you to respond to that as 
soon as you can. You are new and you got a wonderful background 
and very proud of you as one of the----
    Ms. Saldana. Javelinas.
    Mr. Cuellar [continuing]. Javelinas, yeah, from Texas A&I. 
But I just ask that you all just keep us informed because the 
worst thing that we want to see is we see this in newspaper and 
especially we do your budget, your appropriations, a little 
courtesy would go a long way for having a good working 
relationship.
    So no questions, but any thoughts on what I have just----
    Ms. Saldana. Of course, no. As I mentioned earlier, that is 
very important to me and I have made very clear to all our 
staff here at headquarters that that is very much at the top of 
the list, if not--towards the top of the list, not at the very 
top of the list, is our communication and our responsiveness, 
get the information as quickly as possible, balanced, though, 
Congressman, against getting accurate information. We want to 
report accurately and that is why sometimes it takes a little 
time. We check and double check.
    Mr. Cuellar. I just want to say thank you. I think you are 
going to be a good director and we look forward to working with 
you.
    Ms. Saldana. Thank you, sir.
    Mr. Cuellar. Thank you.
    Mr. Carter. Thank you, Mr. Cuellar.
    We are going in the order that people appeared here, so Mr. 
Harris?
    Mr. Harris. Thank you very much, Mr. Chairman. And thank 
you, Madam Assistant Secretary for coming and appearing for us.
    You know, ICE is kind of in the middle of a lot of the 
discussion about the President's new policies. And I had the 
opportunity to look over your biography and I take it you were 
the U.S. Attorney in Texas. And I guess your role at that time 
really was to help enforce law, is that right? Not policy? Is 
that----
    Ms. Saldana. To enforce the law.
    Mr. Harris. Law, not policy, but law. And this, and you 
know there is a critical distinction that is playing out in, 
you know, Judge Hammond's opinion about what is going on 
because, you know, the distinction is whether or not the 
President's policy as implemented effectively has replaced the 
law, which the President cannot do. I mean, I hope we all 
should agree the President cannot replace the law. And you 
know, your testimony on page three says, and correctly, that 
ICE is charged with enforcing and/or administering the nation's 
immigration laws.
    Now I am going to read you a very disturbing transcript of 
the President's immigration town hall meeting from February 
25th, where he addresses the role of ICE. He says, ``We are now 
implementing a new prioritization,'' and he is obviously 
referring to the prioritization that is actually laid out on 
the ICE website with regards to I guess Mr. Johnson's 
memoranda. He says there are going to be some jurisdictions and 
there may be individual ICE officials or border patrol who are 
not paying attention to our new directives. He does not say the 
law, he says the new directives. But they are going to be 
answerable to the head of the Department of Homeland Security 
because he has been very clear about what our priorities should 
be.
    A few moments later, and I have been in the military so I 
understand what he is talking about, the President says, look, 
the bottom line is that if somebody is working for ICE and 
there is a policy and they do not follow the policy, there are 
going to consequences to it. He goes on to say in the U.S. 
military when you get an order you are expected to follow it. I 
understand. I was in the military, and I understand what 
getting an order is. It does not mean that everybody follows 
the order. If they do not, they have got a problem. And the 
same thing is going to be true with respect to the policies 
that we are putting forward.
    Now I read this to be that the President has directed ICE 
to follow policy instead of law. Now I have got to ask you, is 
your interpretation different? I mean, the President, I 
understood, I was in the military. I knew what the consequence 
was if I did not follow an order. It was not pleasant. I cannot 
even imagine a person working for ICE reading this, thinking I 
have to follow the policy. I do not have discretion. There is 
no prioritization going to go on within these priorities. My 
discretion is removed. I have to follow that policy under the 
threat of the Commander in Chief in the case of the military, 
or the head of the executive branch in the case of DHS, of 
saying if they do not they have got a problem.
    Now Madam Secretary, I have got to ask you, is this the way 
ICE runs? Is ICE's purpose is to enforce policy, not law?
    Ms. Saldana. It is to enforce the law. And I will tell you 
that in the Secretary's November 20th memo, he made it very 
clear that these are priorities. That these, but that every 
individual who comes before Immigration and Custom Enforcement 
officials for whom we are making a decision, whether to 
apprehend, arrest, set bonds, whatever, is to be determined on 
a case by case basis. And even, and there is a sentence here 
that I, you know, I, people miss this all the time and I am not 
exactly sure why. There is a sentence very clearly, these are 
the cards that our officers carry with them so they have a 
handy dandy little reference to keep in mind what the 
priorities are. Sir?
    Mr. Culberson. They are carrying those today?
    Ms. Saldana. Yes. Yes. They have been since, you know, we 
started, completed the training in early January on these new 
priorities, which is when the executive actions went into 
effect. But it says here if you encounter a priority alien who 
you believe is not a threat to national security, or to 
security, or public safety, or believe that a non-priority 
alien's removal would serve as an important federal interest, 
you should discuss this matter with your supervisor.
    I personally met with every chief, we call them our lawyers 
out there, chief counsels in all of the districts by video, 
along with the directors, the field office directors, and I 
said these are priorities. I made very clear, this exercise of 
judgment on a case by case analysis, even if this person does 
not meet a priority, and you believe or have reason to believe 
that you, that that person is still, presents a public safety 
threat, it is your responsibility. And this is what we are here 
for, is to ensure that that person is taken into account and 
then you meet with your supervisor to discuss it.
    It also says the opposite, and that is if they, if they are 
on here but you do not consider them a public safety threat, it 
is a 72-year-old man who committed a crime in his teens and is 
now before you and has never had another criminal record before 
that but the felony falls within the priorities, you have the 
ability to exercise your discretion on it.
    You know there is a case in the Fifth Circuit that I 
followed closely myself, which is the Crane case, that 
challenged the ability of this kind of discretion, and the 
court at least at the Fifth Circuit level has gone with us. I 
am sure, that is still in litigation, we will see how it turns 
out. But again, the reason that this becomes, is not replacing 
the law is because this essentially memorializes what I did 
every day as an Assistant United States Attorney and as the 
U.S. Attorney. And that is exercise my discretion because I 
could not enforce with our skimpy little budget 3,000-plus laws 
that----
    Mr. Harris. Sure. No, and I appreciate it. I appreciate 
that. And I think that would be the right thing. The Crane 
case, I take it, is the one that was ruled on just a week ago, 
dismissed the lawsuit?
    Ms. Saldana. Yes.
    Mr. Harris. That was over standing, though. That was not 
over an issue of, that was not over an issue of whether or not, 
am I correct? I mean----
    Ms. Saldana. I think you are, precisely, I think you----
    Mr. Harris. Right, so----
    Ms. Saldana [continuing]. Are more precise than I was. 
But----
    Mr. Harris. Correct. So legal standing really, I mean, we 
know that has nothing to do with the basis of whether or not 
the President's action was legal.
    Ms. Saldana. But----
    Mr. Harris. These plaintiffs did not have the ability to 
have their case heard in court because of legal standing. So 
let us just dispense with this supporting the President's 
policy. So did the President get it wrong? Because I am going 
to read it again. I am going to read it again. This is the 
President of the United States. This is the person in charge of 
the executive branch said if an individual ICE official is not 
paying, and I am going to say, is not paying attention to our 
new directives they are going to be answerable to the head of 
DHS because he has been very clear about what our priorities 
should be.
    Ms. Saldana. The November 20th memo, and he was.
    Mr. Harris. Right, a memo. So the President was not saying 
that we are going to ask ICE to enforce the law. It is to 
enforce the November 24th memo, is that right? Basically----
    Ms. Saldana. Well, Congressman, you know, the law can be, 
some of them can be very lengthy. I mean, I know this 
personally. Reading them can give you a headache. But the law 
is just that. It is not intended to cover how you go about your 
business. I had as the United States Attorney, I served on the 
Attorney General's advisory committee. We had to help United 
States Attorneys flesh out what the law was through policies 
from the Attorney General. You flesh out what the law is and 
you try to abide by congressional----
    Mr. Harris. Sure. Madam Assistant Secretary, and I am just 
going to, because I have overspent my time here. But I am just 
going to ask you about, I mean, that point. The fact of the 
matter is the level three priority and, and this is from your, 
I mean, I am, this is from your testimony. The third level of 
priority are people who have actually had a final order of 
removal against them. So someone made a legal finding that 
these individuals are not here legally. Am I correct? That they 
have violated the law and they are not here legally?
    Ms. Saldana. That is initial, but all of these things can 
be appealed. But yes. That is the initial finding.
    Mr. Harris. Okay. So let us be honest. What the President 
has said, we have individuals with legal findings against them, 
have clearly been found to violate the law, and the new 
directive says we are going to, instead of enforcing that law 
which would result in their deportation we are going to follow 
a directive or a policy? That, I mean look, I am a doctor, I am 
not a lawyer. But to someone observing this says we have 
already made a legal finding, and the new memorandum says we 
are not going to follow the law, we are going to follow a 
policy or a directive. And I have to tell you, as a member of 
the legislative branch, I take that very seriously when the 
executive branch says we have let the system run, we have made 
a legal finding, and now we are going to disregard the law. We 
are going to follow an executive branch policy or directive. 
And I will tell you, that was a rhetorical question. You do not 
have to answer that. Thank you very much, Assistant Secretary. 
And I yield back.
    Mr. Carter. Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman. I apologize. I had 
another hearing. I could not be here earlier. Secretary 
Saldana, thank you so very much for being with us today. You 
have a very hard job.
    I come from the northern border with Canada in Northern 
Ohio. And I wanted to ask your help in this issue of human 
smuggling, particularly labor smuggling. I have spent a lot of 
my career engaged in this issue, largely from countries, labor 
from countries south of our, the southwestern part of our 
country. And I am appalled. As I read your testimony and some 
of the notes I have been given, your offices are dedicated to 
identifying and apprehending priority aliens. My concern are 
the contractors who bring them here.
    Ms. Saldana. The smugglers.
    Ms. Kaptur. The smugglers, on both sides of the border. And 
I would cordially invite you to my home community of Toledo, 
Ohio where we have an organization called the Farm Labor 
Organizing Committee that was training a young man, 27 years 
old, named Santiago Cruz, to go to the fields in Mexico and to 
tell the farm workers that they did not have to come under 
bondage. That they could come with a labor contract. That we 
would receive them, even their families, we would educate their 
children through Head Start while they were here. He was 
murdered. He was murdered in Monterey. There has not been 
prosecution at a level that there should be in that case, and 
some of his murderers have never been found.
    I went down to Monterrey. I have been in Congress a long 
time. I went down to Monterrey, met with our counsel down 
there. And I said, look, just in the area of agriculture, Ohio 
receives at least 20,000 people a year who pick pickles and 
they pick tomatoes, they do very hard work, pick strawberries. 
I would not want to do that job. They should be coming, we 
should have the same people every year if they want to come. We 
should know who they are. And I want you to make Ohio a pilot. 
We want to treat people like human beings, we respect their 
work, and we respect them. Our government would not do it. And 
this was not under the Obama administration, by the way. But I 
have been looking for someone, someplace, in our government who 
really cares about people, and people who work hard. And they 
are being exploited.
    I was down in the tobacco fields of North Carolina last 
year. I met a man from Guatemala who had his finger cut off, no 
health insurance. He owes $8,000 to one of these corrupt 
coyotes who brought him across the border. And I just cannot 
believe our country allows this to go on.
    So I would like to cordially invite you or someone you send 
to my district to meet with people who are trying to help, and 
including me, and we have been thwarted at every turn. And I 
just think that those that exploit this labor have more power 
than we imagine, and I want to go after them. And I want a work 
force that is treated fairly. We do not want to bring people in 
as unidentifiable aliens and all the rest of this. We want to 
know who they are, we want to treat them right, we want them to 
have a contract. And we want the same people every year if we 
can get them. Most of our farmers would like to have the same 
people. They do not want this churning that is going on in the 
labor force.
    I do not know if you can help me but I am making a plea to 
you. I would really appreciate the opportunity to have people 
from our region explain what has been going on at our border 
with people who travel very far and have rather grim prospects 
because of the manner in which they have been treated. Do you 
have any ability to deal with that labor smuggling issue?
    Ms. Saldana. Of course. Of course. That is, and again, our 
expertise is international. And when you cross the border, 
either the northern border or the southern border, that is 
where we come in and where we are pretty much the experts on 
that transnational criminal activity.
    You may have read about, or if not I will certainly provide 
you more information, on Operation Coyote, which is our effort 
to bring to justice the smugglers and this is where our 
international team comes in so essentially. And that is they 
give us information from the local countries where the 
smugglers are and are inducing and seducing people to come up 
to this, to the country--
    Ms. Kaptur. They have to be among the cruelest people 
alive.
    Ms. Saldana [continuing]. On false pretenses. And you 
remind me of a case I prosecuted involving a Korean smuggling 
ring. Can you imagine thousands of miles, of carrying these 
women to the United States, and actually telling them they 
could get a job and an education here? And they brought them in 
through Canada, actually. And had them, ended up working in a 
bar to serve the pleasure of Korean businessmen when they were 
in the city of Dallas on business. And one woman, the one who 
actually revealed the scheme, jumped out of the second story 
home of the smuggler, of the, and this is a large operation. 
Obviously there is a person here but there is a person in Korea 
also.
    And again, as I say, this is part of the reason we are 
requesting this additional money with respect to the smuggling 
activity, the twenty, I think it is $26 million. Because we 
have had good success on breaking the backs of some of these 
smuggling organizations. And that is where our attaches are 
really helpful in making our connections with intelligence and 
other information in these countries.
    So yes. I would actually personally, I do not want to send 
anybody, I would actually like to go to Toledo and have some 
further conversation.
    Ms. Kaptur. We would warmly invite you. This has bothered 
me for so many years. And I was so angry with our government 
under former administrations. And we have a region that tries 
to treat workers well. And we need your help. So I appreciate 
that. I do not want to run you all over the world. But, you 
know, when you are flying over the Great Lakes region, we will 
welcome you.
    Ms. Saldana. We will make a stop.
    Ms. Kaptur. And thank you. Thank you very, very, very, very 
much. And I will give you the name of a group your staff can 
look through. It is called the Farm Labor Organizing Committee, 
FLOC. I think its director is in the heritage of Cesar Chavez. 
He is a great man. He has given his whole life to this issue. 
And it should not be so hard. It just should not be so hard. 
And these criminals that traffic in human beings in the 21st 
Century, it is beyond belief.
    Ms. Saldana. This Korean person who was the local smuggler 
was an LPR, a legal permanent resident. And not only did we get 
him ten years in prison, but we denaturalized him and sent him 
back to Korea because of his involvement in this international 
smuggling activity----
    Ms. Kaptur. Well that----
    Ms. Saldana [continuing]. With these young Korean women.
    Ms. Kaptur. You will have the support from this member on a 
coyote program.
    Ms. Saldana. Thank you.
    Ms. Kaptur. With the finest investigators and the finest 
security people you can put to work. And again, we invite you 
to, I would like you to hear directly from those that have been 
involved in this. And that young man, his mother, I had to go 
down to Mexico and be a part of a group to help her endure his 
loss. It was, and to think that, you know, he was trying to 
treat people fairly and well, and he was so young. And the 
manner in which he was murdered and so forth was so brutal.
    I just, I just also want to say that on the ICE front, and 
I am sure my time is up. But in my region we are not like Mr. 
Cuellar's district. You know, we are up north, we are on the 
Great Lakes. And some of the ICE personnel that come up there 
are rather inappropriate in the way that they follow people 
around in our region in cities like Lorain, West Cleveland. I 
do not know exactly what can be done about that. But it seems 
to me that you have to be community sensitive also and we have 
local attorneys willing to work with ICE at the local level to 
try to support in the DACA and DAPA programs individuals who 
many times are stopped and they, they did not do anything 
wrong. They have green cards, they are here legally, and yet 
they are followed. I do not know why all that happens. I think 
it is just because it is such a difficult job. But it seems to 
me that there could be a more appropriate community approach in 
some of these places. And we will probably, if you are kind 
enough to come to our region we will want to discuss that a 
little bit with some of the victims of rather ham-handed 
approaches to following individuals who should not be followed.
    Ms. Saldana. Well I will tell you that it would be helpful 
to get more information from you with respect to that. And I am 
happy to meet with nongovernmental organizations, too, to talk 
to them about----
    Ms. Kaptur. Thank you.
    Ms. Saldana [continuing]. Our new approach.
    Ms. Kaptur. Thank you very much. And thank you, Mr. 
Chairman, you have been generous with the gavel.
    Mr. Carter. Thank you, Ms. Kaptur. Mr. Young is next but he 
is willing to, because Mr. Stewart has a real crisis, yield to 
Mr. Stewart. Mr. Stewart.
    Mr. Stewart. Well, thank you Mr. Chairman. And I would not 
call it a crisis but I do have another appointment. So thank 
you, Mr. Young. Thank you for ceding your time. And I will be 
brief. Madam Director, welcome. You have got kind of a tough 
job. It is not one that I envy.
    I want to tell you a little bit about my background because 
it brings me to the topic, which I have a real emotional 
attachment to, and that is before I came to Congress I was a 
writer. One of the books I wrote was with Elizabeth Smart 
telling her story of being captured and held. And that got me 
involved with another community in the West who, and primarily 
in Utah, but that is not the only place. But these guys will, 
they are former Special Forces soldiers and other law 
enforcement officials that pose as businessmen. They go to 
foreign lands and involve, pretend to be involved in the 
trafficking of children and they rescue these children. Dozens 
at a time, last month something like 50 of them, young, young 
girls, and in some cases boys, who are being sold into sex 
trafficking.
    The crisis that we faced last summer, to use a word that we 
use often but I think it certainly applies here, are these 
unaccompanied children that were crossing the border in numbers 
we had just simply never seen before. And I would ask you, I 
think I know the answer but I am going to say this and you can 
say yes, that is about right. In 2012 the number of 
unaccompanied children was 27,000 or something like that; 2013, 
44,000; last summer, 68,000. Now I am not a mathematician, but 
just doing it off the back of my head that is about a 60 
percent increase every year. And I have two concerns and then I 
will get to my question.
    The first concern is I believe the administration's 
policies fairly or unfairly create the impression that if these 
young children can get to the border, not even cross the 
border, in some cases surrender at the border, that they are 
going to be allowed to stay here. And because we have not done 
a great job of communicating and also having policies that I 
think actually foster that misconception we are endangering the 
lives of tens of thousands of young children.
    But the primary thing I want to ask you is this. With this 
human trafficking, do you know what percentage of these 
unaccompanied children were involved in say drug cartels, were 
involved or associated in some way, were being exploited, or 
were sold or traded or given into some of these human 
trafficking or these individuals who deal with the sex trade of 
unaccompanied children?
    Ms. Saldana. As you know, Congressman, the children from 
Central America who comprise a large part of that group from 
last year are treated differently than the typical undocumented 
worker or illegal immigrant.
    Mr. Stewart. You mean the OTMs? Is that what you are 
talking about?
    Ms. Saldana. Yes.
    Mr. Stewart. Okay.
    Ms. Saldana. And that was a large part of that. And that 
is, again, a more expensive proposition when you are dealing 
with someone from countries that are not on the border. They, 
we, obviously we get as much information as we can. They are 
treated completely different. We cannot expedite their removal. 
We have to, we turn them over----
    Mr. Stewart. Madam Director, for, because both of us have 
just a little time, I really have a fairly simple question. Do 
you know what percentage of them were involved with this trade 
or forced into this trade?
    Ms. Saldana. I cannot tell you the percentage or an exact 
number right now, but I do know we glean that kind of 
information.
    Mr. Stewart. Do you have an idea? Could you give us your 
best estimate?
    Ms. Saldana. I do not want to speculate, sir. I really, I 
really would rather try to find that information for you than 
to just give you a number off the top of my head.
    Mr. Stewart. Okay, do you think it is a large percentage?
    Ms. Saldana. It will be a, I think it will be significant.
    Mr. Stewart. Yes.
    Ms. Saldana. I cannot say that, I do not want to quibble on 
words. But----
    Mr. Stewart. Okay. But it is not a meaningless, I mean, 
heavens, if it is a few it is a lot.
    Ms. Saldana. Yes, of course.
    Mr. Stewart. And this is more than that. This is a, and I 
am wondering what steps you are taking to try and, to try and, 
A, you know, educate the American people what is happening 
there, and B, what can we do to protect these children? Because 
either way we are putting them in harm's way.
    Ms. Saldana. Well one of the things I have personally done 
in my three-plus months is I have been to Central America. I 
did a round there and to Mexico City to meet with my 
counterparts, the immigration officials there to make very 
clear the President's view, the Secretary's view, and my own 
view that this is, this is not a good thing. And that we would 
like to work with them to come up with some programs to help 
those governments deal with their children and keep them there.
    The First Lady of Guatemala, for example, is the person who 
deals mostly with the children, the child problem, of those 
people that are coming to the north and she has programs in 
place. And we met with the directors of those programs to 
educate parents there in their countries, because this is what 
you want first. You do not want them making that trek.
    Mr. Stewart. Yes.
    Ms. Saldana. And to, and to let them know it is, not only 
is it dangerous but that we can provide you some fundamental 
services.
    Mr. Stewart. Yes.
    Ms. Saldana. So we are working with all three governments, 
Ecuador, Guatemala, and Honduras, and trying our best to----
    Mr. Stewart. Well let me conclude with this. We are having 
a nearly 60 percent increase going on three years, and probably 
four years now. And I know this was not under your watch but it 
is under this administration's watch, and we have to do better 
than that. We cannot be in July and August, like we were last 
year, completely unprepared and I think encouraging an activity 
that is very destructive for these younger people.
    Having said that, thank you for what you do. I hope you 
understand why this is such a concern to the Americans. Mr. 
Young, again, thank you for giving me your time. Mr. Chairman, 
I yield back.
    Mr. Carter. Mr. Young.
    Mr. Young. Thank you, Mr. Chairman. Director Saldana, I 
want to reread that quote from the President on February 25th 
at Florida International University, when he said there may be 
individual ICE officials or border patrol who are not paying 
attention to our new directives. But they are going to be 
answerable to the head of the Department of Homeland Security 
because he has been very clear about what our priorities should 
be. If somebody is working for ICE and there is a policy and 
they do not follow the policy, there are going to be 
consequences for it. What did you think about when he, the 
President said that, when you learned about it? Did that 
concern you at all? Did you have any, any red flags go up at 
all?
    Ms. Saldana. I am trying to be honest with you, sir. No. I 
imagine you have staff that you expect to comply with your 
directives and your policies. I imagine the typical employer in 
the United States has employees who they expect to follow their 
directives, their policies. I have got an employee manual this 
big that says if you violate one of our employment policies, 
here is the range of punishment you can have. So no, it did not 
strike me as unusual.
    Mr. Young. Well if I had policies or directives that were 
contrary to the law, I would understand if they did not want to 
follow them. And so I would expect them to follow the law 
first. Don't you----
    Ms. Saldana. And that is where you and I probably have a 
fundamental disagreement.
    Mr. Young. Oh, okay. Don't you see how some may in the DHS 
personnel see, perceive that as perhaps a threat? Including 
you, maybe, who simply want to obey the law?
    Ms. Saldana. You know, a threat, I am here of my own 
volition and will. I am just trying to help the United States 
of America and our country on issues that are so divisive. It 
does not worry me if somebody wants to fire me because I am not 
doing what they want to do. I have a great state to return to 
and a home there. So no, I am not threatened by it and I trust 
our employees are not. They, I have spoken to many of them. I 
plan to visit as many of our offices as I can to explain that 
to them.
    Mr. Young. Well, I mean, I think that the public record 
contradicts that with some of your employees are feeling like 
they are being retaliated against or threatened, lawsuits 
perhaps. I want to just, I want to quote the President of the 
National ICE Council Chris Crane, saying that the agency 
leadership is, ``punishing law enforcement officers who are 
just trying to uphold the U.S. law and willing to take away 
their retirement, their job, their ability to support their 
families in favor of someone who is here illegally and 
violating our laws, either taking a disciplinary action or 
threatening disciplinary action.''
    Ms. Saldana. And I have met with Mr. Crane----
    Mr. Young. That is serious.
    Ms. Saldana. Yes, and I have met with Mr. Crane. We 
actually have had positive meetings because we are both working 
together to try to get our ERO people on a parity level with 
respect to their employment, immigration enforcement agents and 
deportation officers. And we accomplished, we hope we have 
accomplished that.
    But I am not going to get in the middle of pending 
litigation. I cannot comment further on that. But I want to 
work with Mr. Crane and with our labor partners to try to make 
things better for employees. In the end, in the end the most 
important thing in accomplishing our mission is our employees, 
and that they feel like they have an ability to do their jobs 
and for me to provide the tools they need for that. And I am 
working very hard to do that.
    Mr. Young. Well you mentioned the labor leaders as well. 
And as you know, Chris Cabrera also has concerns as well with 
Local 3307. And I am not going to get into his, what he has 
been saying. But there are concerns out there, as you know.
    But, you know, this also gets, this is serious stuff. And 
this also gets down to I think the morale of the whole 
department. And we have had these discussions with Secretary 
Johnson as well. There seems to be just a real low, lowest in 
the administration, I think, is the, at the Department of 
Homeland Security. What are you doing to try to increase that? 
And what are you doing to try to stand up and protect your 
personnel who may feel intimidated here at times with policies 
and directives when they believe they themselves are just 
trying to uphold the Constitution and obey the law? How do you 
support them? How do you help increase the morale there in this 
very, very important agency? And you have a very important job 
and I respect you immensely. I want what is best for this 
country as well and for your employees.
    Ms. Saldana. Thank you, sir. I have actually done a lot in 
the three months that I have been there. I started with, as I 
think I told you, the chiefs, but I also am trying to get to as 
many offices as I can to meet with people and listen, just 
listen, make notes, and come back and see what I can do about 
concerns and complaints there are.
    I have launched a professional development program where I 
want to make sure that our people, as I said earlier, are given 
the tools they need, the resources that you all have a lot to 
do with in order to do their jobs. And so importantly that 
information technology that they need to communicate with each 
other and with local law enforcement.
    We have a group, and I am exploring further the possibility 
of having a group of field office directors, supervisors, and 
other folks to come in regularly to visit with me so I can stay 
in touch with the field and not get surrounded by this, what do 
you call it? What do you call Washington, D.C.? How can I be 
nice about this?
    Mr. Young. The island surrounded by reality?
    Ms. Saldana. Exactly. I need a touch of reality because 
you, you can get knee deep in things that are not as important 
as serving the American public. And so I am doing all of those 
things, not for my own personal glory but because I think this, 
this agency needs a lot of institutional practices, best 
practices, that will stay even after I am long gone.
    Mr. Young. Well I appreciate you being here today. And I 
also appreciate your leadership. And I would just ask that 
those folks within your agency, when they believe that they are 
doing the right thing under the law and under the Constitution, 
and they feel intimidated, that you stand up for them. And I 
appreciate you being here today. Thank you, Mr. Chairman.
    Mr. Carter. Thank you. Ms. Roybal-Allard.
    Ms. Roybal-Allard. Sir, if I could just have----
    Mr. Carter. She would like to be recognized for just a 
moment.
    Ms. Roybal-Allard. Thank you. Director, I just want to 
clarify a point on your earlier response, on the relationship 
between the law and the President's policies. The fundamental 
disagreement to which you referred was whether the policies are 
consistent with the law. And your position is that the 
President's policies are entirely consistent with the law? Is 
that correct?
    Ms. Saldana. Oh, yes.
    Ms. Roybal-Allard. Yes? Okay.
    Ms. Saldana. Oh, yes. Of course. And again, I am not saying 
this because I am a constitutional expert or anything like 
that. But I do know that our, the Department of Justice scoured 
the requests of, and the information submitted to them for a 
General Counsel opinion on whether or not things they were 
doing or proposing to do were within the confines of the law. 
And they got a yay on some and they got a nay on others. And 
that the President proceeded along with the Secretary to 
proceed with the ones that were within the confines of the law. 
I, that is all I know, is enforcing law. That is all I know.
    Ms. Roybal-Allard. Okay, thank you, Mr. Chairman. Mr. 
Culberson, thank you.
    Mr. Carter. Mr. Culberson.
    Mr. Culberson. Thank you. Madam Secretary, thank you very 
much for being here today. Your budget request this year is for 
$6.282 billion in discretionary funding and mandatory fee 
authority that, as you say in your testimony, is in line with 
the fiscal year 2015 enacted budget. How do you use for example 
the discretionary portion of the funding that you receive from 
the Congress?
    Ms. Saldana. How?
    Mr. Culberson. Yes, ma'am. For what different purposes 
within the agency's operations do you use the discretionary 
funding versus fees? Starting with the discretionary?
    Ms. Saldana. Our----
    Mr. Culberson. What type--ma'am?
    Ms. Saldana. I am sorry, go ahead. Our core mission, and 
that is, and I think I mentioned them a little earlier, the 
enforcement part, the investigations, the international folks 
that we have, the management and administration people who keep 
us all in proper facilities, keep the phones working, and keep 
us supplied with things.
    Mr. Culberson. Right. What I was driving at is you use the 
discretionary portion of the funding that you receive then 
primarily for administrative functions in the----
    Ms. Saldana. No, to accomplish our core mission.
    Mr. Culberson. To accomplish your core mission. Are they 
distributed----
    Ms. Saldana. Supported by our administrative function.
    Mr. Culberson. And what, what amount of the $6.282 billion 
is discretionary versus mandatory fee?
    Ms. Saldana. From what I see here it is six-point, 
5.959637.
    Mr. Culberson. Wait, wait, wait----
    Ms. Saldana. $5,000,959,637.
    Mr. Culberson. $5.959 billion is, where is that money 
coming from?
    Ms. Saldana. This is for 2016. This is the discretionary.
    Mr. Culberson. Oh, $5.959 billion is discretionary money 
that does not come from fees?
    Ms. Saldana. Right. The fees part of it is included in the 
$322,000 which comprises $6.28 billion together.
    Mr. Culberson. Okay. So the fees are----
    Ms. Saldana. Are very small.
    Mr. Culberson. What, so the fees are only a very small 
part. So your discretionary funding from, that of course comes 
from Congress----
    Ms. Saldana. It is how we run the agency.
    Mr. Culberson [continuing]. Is the, is the overwhelming 
majority of your funding?
    Ms. Saldana. Right. Our sister agency, Citizenship and 
Immigration Services, has a large part of its funding from 
fees.
    Mr. Culberson. Right.
    Ms. Saldana. But we do not.
    Mr. Culberson. Right. So what, what of your, so your 
portion of discretionary funding you said is $5.959 billion, 
and then the remainder is from fees. And the, and the, your 
sister agency draws what portion of their funding from fees?
    Ms. Saldana. Sir, I am sorry. I am having a hard enough 
time with my own budget.
    Mr. Culberson. Sure.
    Ms. Saldana. I have not kept up with CIS.
    Mr. Culberson. Now the funding, the card that you all have 
there, that is, I would be very interested to see that.
    Ms. Saldana. Would you like it?
    Mr. Culberson. May I? Yes. Would you get that for me? Now 
that is, your officers are using that today in the field to 
help give them guidance on the----
    Ms. Saldana. Yes, sir. It is essentially the November 20th 
memorandum of the Secretary but reduced to a simple card.
    Mr. Culberson. I see. So their, I have seen these before 
and, you know, coming from Texas we work very closely together 
with all our colleagues that have, live up and down the, and 
represent folks up and down the river, and we have seen 
something like this before. So this is to help your agents 
enforce the November 20th directives?
    Ms. Saldana. Right. In addition to all the training that we 
have done and continue to do that was accomplished back in 
January before we kicked off the program.
    Mr. Culberson. Right. So they are, you are using this 
today? Your officers in the field are using this today?
    Ms. Saldana. Yes.
    Mr. Culberson. And, and putting it into effect today?
    Ms. Saldana. Right. And I have charged the field office 
directors and all of the supervisors, you know, to be available 
for questions. Obviously our legal, our OPLA people, our Office 
of the Legal Advisors, are also available for questions.
    Mr. Culberson. Right, proceeding to enforce, to continue to 
enforce the November 20th----
    Ms. Saldana. Right, that is just a shorthand way to carry 
it in your pocket.
    Mr. Culberson. Yes, no, I understand. What concerns me, 
though, is that you are under an injunction. You cannot enforce 
or follow through on the November 20th memorandum because the 
district judge in South Texas, Judge Hanen, and it is before 
the Fifth Circuit on Friday, you are under a temporary 
injunction not to enforce the November 20th memorandum. But you 
just told me your agents are in the field using this card to 
enforce the November 20th memorandum.
    Ms. Saldana. I think there may be some confusion. That 
decision, Judge Hanen's decision? Is that what you are 
referring to? Is, relates to extended DACA, the children, the 
admissibility of children, and extended DAPA. That is a program 
administered by Citizenship and Immigration Services, our 
sister agency. We are very, our enforcement priorities were not 
one bit affected by that decision. It was simply whether or not 
the administration could proceed with extending DACA and 
initiating the parents part of the it, the DAPA program.
    Mr. Culberson. Mm-hmm.
    Ms. Saldana. And that is CIS.
    Mr. Culberson. Right. The only----
    Ms. Saldana. Now we had----
    Mr. Culberson. The home, your home, the homepage for 
Homeland Security says, it says it does not affect the 
December, excuse me, the 2012 DACA initiative, but it is, it 
enjoins the November 20th memorandum.
    Ms. Saldana. There were like eight or nine memorandums that 
day.
    Mr. Culberson. They were enjoined, right.
    Ms. Saldana. No. No, no, sir. No. Just the one that dealt 
with establishing a DAPA program with respect to the lawful 
presence of parents----
    Mr. Culberson. Mm-hmm.
    Ms. Saldana [continuing]. Of undocumented immigrants, and 
the extension of the DACA program which initially was just 
limited to a certain number of people and it was proposed to be 
expanded.
    Mr. Culberson. Mm-hmm.
    Ms. Saldana. That specifically is what was enjoined. The 
way ICE, my agency, was affected was very, was very little with 
respect to that. Because I think we had posters in our field 
offices that said you may be able to qualify for this--
    Mr. Culberson. Mm-hmm.
    Ms. Saldana. [continuing]. You, here is information on 
where to go at CIS. But we are enforcement.
    Mr. Culberson. Yes, so you----
    Ms. Saldana. We do not do administration of benefits like 
CIS does.
    Mr. Culberson. Mm-hmm.
    Ms. Saldana. Which is what is at the heart of the, Judge 
Hanen's decision.
    Mr. Culberson. So you are not bound in any way by Judge 
Hanen's decision in your opinion?
    Ms. Saldana. We are with respect to those two or three 
areas where we had posters up. We took them down, because we 
did not want to be seen to be promoting the program with 
respect, while the injunction is still being litigated. And it 
is CIS that carries the brunt of that decision.
    And the Secretary has clearly, has made very clear, and it 
is on the website, that the enforcement aspect and the 
priorities, and if you read the opinion you will find, are not 
affected. We proceed with those.
    Mr. Culberson. Mm-hmm. What, in the budget request you have 
submitted to us is necessary obviously for you to fulfill your 
mission to enforce the law. Have you, but you were saying 
earlier that you felt you did not have enough funds to, to 
enforce the law. You have to use your discretion, obviously, as 
a prosecutor. Is the request then insufficient? I mean, I just 
want, trying to get a handle on if you are prioritizing your 
resources because you do not have enough, does the fiscal year 
2016 budget request not----
    Ms. Saldana. I am very, very pleased with it, sir. I would 
not, it has some increases but it also reflects some 
efficiencies that we have been able to accomplish with some 
hard work. And I cannot take credit for that. It is the people 
behind me who should.
    Mr. Culberson. So your request would enable you to enforce 
the law fully?
    Ms. Saldana. Absolutely, sir.
    Mr. Culberson. Okay. One final question. What is ambiguous, 
if I do not see that it is ambiguous, the requirement that you 
use not less than 34,000 detention beds? That is statutory in 
the Homeland Security bill, mandatory--
    Ms. Saldana. Yes, I have the language right here.
    Mr. Culberson. Right.
    Ms. Saldana. It says provided further that funding made 
available under this heading shall maintain a level of not less 
than--
    Mr. Culberson. Is there anything about that that is 
discretionary or optional?
    Ms. Saldana. No. We have maintained that capacity.
    Mr. Culberson. Right. But you are not using it. Right now 
you are at about 26,000.
    Ms. Saldana. Well that is dictated, sir, by the flow of 
immigrants. As you know, Customs and Border----
    Mr. Culberson. There is no shortage of folks coming over 
the border illegally.
    Ms. Saldana. Right. And we need to apprehend them and find 
them. But what I am saying is, as you know at the border 
apprehensions are down, the first line of defense is CBP, is 
down about 24 percent. So that is going to obviously affect, 
since we get about 60 percent of our beds from, or our 
apprehensions from CBP, that is going to affect that. Plus we 
are, it is seasonal. This is a seasonal flow. And we are just 
getting to the warmer months where there is, the migration 
patterns in the past have shown us there might be an increase 
in migration.
    Mr. Culberson. So is it not, is it optional for you to use 
those 34,000 beds in your opinion?
    Ms. Saldana. Optional? It is not optional to have them 
available.
    Mr. Culberson. But it is optional whether or not you use 
them?
    Ms. Saldana. It is not optional, sir. We have those, and we 
will use them to the extent we make decisions that someone 
needs to be detained. If you are asking me whether it is more 
important to fill a bed than it is to do it right, I have to go 
with doing it right. And that is----
    Mr. Culberson. Right, I----
    Ms. Saldana [continuing]. Make our decisions on the basis 
of, just like the federal courts do----
    Mr. Culberson. Yes. I will close with this, and I thank you 
for the extra time, Mr. Chairman. But if it is not clear, I 
mean, we as policy makers and statute drafters wrote this so it 
is not ambiguous, it is not discretionary, it is not optional. 
We want you to use 34,000 beds.
    Ms. Saldana. That is absolutely----
    Mr. Culberson. You have got plenty of demand.
    Ms. Saldana. That is absolutely----
    Mr. Culberson. You have plenty of demand. You----
    Ms. Saldana. That is absolutely clear to me. But sir, we do 
not detain people just for the heck of it.
    Mr. Culberson. I know that. But you could----
    Ms. Saldana. We detain people based on what the law tells 
us, and that is is this person a flight risk? And is this 
person a threat to public safety? And those are the decisions 
that our very seasoned officers are out there making everyday.
    Mr. Culberson. Mm-hmm.
    Ms. Saldana. And from what I have seen and observed, they 
are making the right decisions.
    Mr. Culberson. Well I feel very confident you could find an 
extra 9,000 criminal aliens that needed to be detained to fill 
those beds in a heartbeat.
    Ms. Saldana. We are working on that. That was part of what 
Operation Cross Check was, is----
    Mr. Culberson. But you feel like this is, does not require 
to use the beds so I think perhaps the language might need a 
little tweaking. Thank you.
    Ms. Saldana. Well, that is not what I intended. I said it 
is capacity. In my view it is there----
    Mr. Culberson. Well, the President thinks statutes are 
option and subject to his discretion, and he is obligated by 
the Constitution to take care that the laws be faithfully 
executed. He is clearly in violation of that.
    You have told us you do not think this policy that the 
President has issued is contrary to the law. We as policymakers 
and legislators are here to-- the law enacted by Congress is 
what the President and the agencies are to follow, not a policy 
directive or a memorandum sent out by the head of an agency. It 
is the law enacted by Congress that you and the President are 
obligated to follow and there is just a fundamental 
disagreement here.
    And I think it is at the root of what has outraged the 
country, quite frankly, from coast to coast is that the 
President systematically and repeatedly refuses to enforce the 
law as written, and you have just confirmed that for us today. 
It is upsetting and concerning, because we in Texas feel the 
brunt of this with the number of criminal aliens coming across 
the border. The drug runners, the killers, the sex traffickers. 
It is appalling and outrageous and no one is more worried about 
it than the communities that, for example, our good friend 
Henry Cuellar represents along the Rio Grande River.
    Ms. Saldana. And that I have a home in.
    Mr. Culberson. Nuevo Laredo is a ghost town, as you know. 
It is a terrible situation. So we expect you to follow the law 
as written and when something says, ``shall,'' it is not 
optional.
    Ms. Saldana. We----
    Mr. Culberson. Thank you for your time.
    Ms. Saldana. And I didn't say that, sir. I really said, in 
my view----
    Mr. Culberson. You feel like you do not need to use them?
    Ms. Saldana. No, sir. We are working to use them. Every day 
people are out there trying to find--particularly with respect 
to persons with criminal records and those that meet our 
priorities, we are trying to find those folks, if we are not 
handed them to us by CBP.
    To me, the important thing is to make the right decisions 
as required by law as to whether we can detain someone or not. 
The sole purpose and goal is not to fill a bed, it is to fill 
it in the right way. That is my view.
    Mr. Culberson. Thank you, Mr. Chairman.
    Mr. Carter. I have a lot of things I would like to talk 
about, but this is very disconcerting. In the world that I grew 
up in, one of the things we prided ourselves in was an 
independent executive department, we have an independent 
legislative department, and we have an independent judiciary. 
As part of the judicial system, you have prosecutors. Their job 
is to prosecute those people charged with a crime by indictment 
or by information, depending on what level of the court system 
you are in. These are very simple.
    I think it would be--and I will just bear it down to the 
state level for just a moment, which mirrors the United States 
Government supposedly-- I think it would be shocking for the 
governor of the State of Texas to tell police officers and 
sheriffs to make a decision as to whether or not to release 
people based upon his directive. You shall release the 
following people because these are people I do not think should 
be arrested.
    Now, follow me on this. You were a prosecutor, part of a 
supposedly independent judiciary, but in reality what we are 
saying here is it is not really independent. It is dependent 
upon what the President directs how you should prosecute and 
directs. I believe that there is discretion in a prosecutor's 
office. It is the prosecutor's discretion; not the governor's 
discretion, it is the prosecutor's discretion. Their decisions 
are made upon and available to the court the seriousness of the 
offense, the threat to public safety, and all of these things 
which are commonsense things that we expect our law enforcement 
and our prosecutors to have.
    Yes, cops make certain decisions as who to arrest and who 
not to arrest under certain circumstances, but not because 
somebody directed them to ignore the law. Because we trust our 
police officers to determine the exigent circumstances of the 
arrest and what they are dealing with and to make those 
decisions, not because the governor of the State of Texas tells 
Officer Jones in Hosanna, Texas, I do not want you arresting 
anybody for drug cases because I like to smoke marijuana.
    I am making that up. But at some point in time varying the 
way the system is supposed to work, the variations can be 
carried to the ridiculous. And the trust that the American 
people have in the government, especially the Federal 
Government, is diminishing more in the last six years than it 
has diminished in the history of the republic. Because what do 
a bunch of people in the White House get to say about following 
the law? The law, as far as the immigration law is concerned, 
recent border crossings shall be detained.
    Mr. Culberson. Absolutely.
    Mr. Carter. Now, there is a reason for that. You know why 
we detain people, you are a prosecutor. I bet you have made 
speeches to your juries when you are talking to them. Putting 
these people in prison, it deters others from doing it, it 
punishes them for doing it, and it protects society. You made 
those arguments every time you walked into the courtroom 
almost, I almost guarantee it.
    Now, that is what we expect. If we follow the logic of 
directives from the White House into the judicial system of the 
United States, telling you what laws you should and should not 
enforce, not use your discretion to do it, no, that is 
different. No, you shall do this because I told you to and 
there will be consequences if you do not. That is different 
than prosecutorial discretion or officer discretion. That is 
being ordered at the risk of losing your job, losing your 
pension, and losing other things. We are going to hurt you if 
you do not do what I say.
    We had a guy named King George we had some problems with on 
those issues. I want someone to explain why that is different 
than what it is supposed to be. This is not about the 
Department right now, it is about the philosophical difference 
in the view of the government. I run into people literally 
every day that say, what are you going to do about the 
lawlessness? You are an old judge, you stood for the law in our 
county for 20 years, why are you not doing something about the 
lawlessness in Washington?
    Now, this is just prosecutor to a retired member of the 
judiciary. What do you think about that? Because you see this 
is the executive branch telling the judicial officers how to do 
their job.
    Ms. Saldana. I see this as--this is what is so profoundly 
confusing to me, why we are ships passing in the night here on 
this subject--I see this as an extension of what I did as the 
United States Attorney. I knew I had so many millions of 
dollars to protect almost 10 million people in North Texas in a 
hundred counties, and that I had so many employees and that I 
had 3,000-plus laws to enforce. In order to make sense out of 
who has the possibility to hurt my community more, there were 
people I would have loved for our folks to prosecute who we 
just could not reach, I had to make decisions on prosecutorial 
guidelines.
    Mr. Carter. I agree with everything you are saying. You are 
a prosecutor, but that ICE agent sitting out there, he is not a 
prosecutor, he is a cop. Are we expanding now to the discretion 
of enforcing the laws of the United States down to our law 
enforcement officers? Does the constable in my local county 
have the ability to make the decision that he is not going to 
enforce the law and call it prosecutorial discretion?
    At what point do we stop taking this from our created 
constitutional system and putting it in the hands of the 
individual? Because quite honestly, I do not think we want the 
king making that decision, and I do not think we want cops 
making that decision.
    Ms. Saldana. This is not much different from what they have 
done every day, Mr. Chairman. They have even before executive 
action, we train them to use their best judgments with respect 
to the people they find. And law enforcement, in the end, their 
primary interest is protect the community. And the question is, 
if you have only got so much money, how are you going to--where 
are you going to focus your resources? It makes eminent sense 
to me.
    Mr. Carter. Then let them make those decisions, but do not 
let the President of United States threaten their jobs, their 
pensions, and their lives if they do not do it the way he wants 
to do it. That is the problem we have got with this system. It 
is none of his business how an ICE agent operates unless he is 
operating outside the law, if you are saying the ICE agent gets 
discretion. If a sheriff's deputy gets discretion, that is 
between him and the sheriff, but it is not between him and the 
county judge or the district judge telling him, ``sorry, Cop, 
here is how I want you to make your arrest''. That is not the 
way our system is supposed to work. That is my concern.
    I want to get off that, but that is why people at home are 
so upset and that is why a lot of us are upset.
    Let's talk about your hiring challenges, because quite 
honestly that money from this budget does not look like it is 
going to get used and we are asking for more for the next 
budget. We need to know how you expect that to work. If you are 
not going to use that money for that purpose, are you going to 
ask for us to move that money someplace else?
    Ms. Saldana. Something that has gotten my attention and 
that is exactly what you are talking about. The hiring, you 
know, up until two months ago we were under the specter of 
shutdown and sequestration, and it is not as if you can go out 
and hire people under those circumstances. I am not sure who 
would be interested in taking a job where they do not even know 
if they are going to have one.
    But what we did, though--and we are peddling as fast as we 
can--what we did do is we started people in the pipeline. 
Started interviewing, getting information, applications, geared 
up our classes, geared up our classes in order to train people 
before they hit the job, and we are working very hard at it. We 
have got the balance of this year and then obviously we are 
asking for these additional people the next year. I believe 
very sincerely that with Oversight--and that is on me--that we 
can get through that process, which is cumbersome in the United 
States of America with federal employment. It just is, 
especially with law enforcement officers who have special 
security requirements, as it should be, and training that they 
are required to have.
    So the minute we knew we were going to have an 
appropriation, we geared back up and I think we are going to be 
prepared to meet our 2015 hiring. At least it may spill over a 
little bit into 2016, but I believe we will get that all done 
before the end of 2016. I think we will use that money and that 
is why we are asking for it.
    Mr. Carter. For hiring?
    Ms. Saldana. Yes, sir. Those----
    Mr. Carter. Just that what you are requesting is to make a 
change. Because you have that ability to ask us to shift funds 
to other programs.
    Ms. Saldana. Okay.
    Mr. Carter. If you are going to, we would like to know what 
those are.
    Ms. Saldana. Okay, sir. We will keep that in mind and we 
will keep you apprised as quickly as we can as we see that 
pattern developing.
    Mr. Carter. I can understand the argument on the fiasco we 
had a while back, and it wasn't my doing.
    Ms. Roybal-Allard.
    Ms. Roybal-Allard. Okay. Well, not to belabor the previous 
discussion, I just want again to have some clarification.
    I would agree with the chairman and other members of the 
committee, if the decisions that we are talking about were 
decisions that were just made in isolation and, you know, the 
executive branch came up with an idea and then tried to enforce 
it on ICE or any of the other agencies. But it is my 
understanding that before these decisions are made, either 
through executive order or whatever, is that they are fully 
vetted through constitutional lawyers, through the Justice 
Department, to make sure whether or not they fall within the 
law of what the President can and cannot do.
    So if that is not the case, then I would like some 
information on why that has not happened. And I do not want it 
necessarily right now. But my understanding that these 
executive actions have been fully vetted, gone through Justice, 
gone through constitutional lawyers, and in many cases the 
decision has been said, no, you cannot do this and it has not 
been done. Is----
    Ms. Saldana. Yes, that is a 33-page opinion from the Office 
of General Counsel and it is very thorough and complete. It 
certainly satisfies me that those actions are within the law.
    Ms. Roybal-Allard. And then I have another point of 
clarification. When I asked the questions about did the hunger 
strikers at Karnes and whether or not the participants had been 
offered release on bond and I believe your response was that 
they were given bond determination. And my understanding is 
that bond determination can be, you know, no bond. And we have 
staff that has met with several of the families that were 
involved on these hunger strikes, about four families, and they 
were not given a bond amount.
    Ms. Saldana. Let's not put the cart before the horse. The 
first decision is whether to detain or not. And if a decision 
is made not to detain, then the opportunity for bond comes up. 
Families are no different from adults, they have to satisfy the 
person making the decision that they are not a flight risk or a 
threat to the community.
    I do not know the four specific families you are talking 
about, but they might not have been given a bond opportunity if 
the decision was made with respect to those two elements. But 
they all know and many, many, many take advantage of our 
detention decisions or our specific bond decisions they can 
appeal to the court, the immigration courts, to lower the bond, 
change the bond, remove the bond, and reverse the detention 
decision for that matter.
    So as I said, I am happy to visit with you about that. They 
either fall into that category--I do not know the four in 
particular you are talking about, but they either fall into 
that category where a decision was made that they should be 
detained and they did not appeal. But if the decision was made, 
yes, you can be released, you are not a flight risk, but we 
want you to appear in the future, we are going to set this 
bond, that should have happened and that is--
    Ms. Roybal-Allard. So some could be--like, for example, 
these four were not offered bond. And maybe, I don't want to 
take up the committee time now, but I would like to follow up--
--
    Ms. Saldana. Absolutely.
    Ms. Roybal-Allard [continuing]. On that as to what the 
reasons were. Because, as I mentioned earlier, there were also 
allegations of mistreatment and other things that I would like 
to follow up with you on.
    Ms. Saldana. Okay. Thank you, Congresswoman.
    Ms. Roybal-Allard. Last November, the secretary issued a 
memo directing the implementation of the Priority Enforcement 
Program, which is intended to take the place of secure 
communities, and the PEP program relies on the voluntary 
cooperation of local law enforcement agencies.
    My question is that, based on ICE efforts so far, have you 
found that state and local jurisdictions are willing to provide 
the advance notifications and, if not, what are the stumbling 
blocks to their participation?
    And then, finally, what is the current status of 
implementing the program and when will it be fully implemented?
    Ms. Saldana. I am very anxious. People have been working 
around the clock, the forms, the requests for notification. 
This is essentially a new form, as opposed to a detainer 
request, I am told finalized. I mean, everyone, including NGO, 
has had an opportunity to review them and make comments, and we 
have been tweaking and changing. I think that will be imminent. 
And our hope is that we can do a form--and we need those forms 
before we go to the jurisdiction and say here is the form. I 
mean, that has not stopped us from visiting with them. And the 
secretary and I actually have made joint visits, at least one 
joint visit, and we are spreading out across the country to 
visit with folks. I think I made the offer with you to come to 
your jurisdiction too. They are listening.
    There is a long history, as you well know, with respect to 
the secure communities program and the trust. And so we are 
doing our best to try to work on that and build--rebuild trust. 
So we are hopeful, we are hopeful of the jurisdictions, because 
we all have the same interest in mind, bottom line, and that is 
public safety. I am hopeful that the program will be kicked off 
the ground formally before the end of the month.
    Ms. Roybal-Allard. But is your experience that they are 
more receptive to this than----
    Ms. Saldana. We just started our campaign of going across 
the country, but nobody has slammed the door on us.
    Ms. Roybal-Allard. Okay. To ensure that under the PEP there 
is going to be transparency with regards to ICE's request for 
notification, will ICE include the immigration enforcement 
priority that is the basis for the request?
    Ms. Saldana. You know, as I was saying, people have been 
reviewing that form and I know that was a subject of some 
debate, and I cannot remember finally what it was. As soon as 
we finalize that, we can certainly make it available to you. I 
just cannot remember if we ended up with that in there or not.
    Ms. Roybal-Allard. Okay. And, finally, last November's memo 
from the secretary establishing the PEP indicated that 
detainers would only be used in special circumstances, such as 
when there is sufficient probable cause to find that the person 
is a removable alien.
    Is ICE still issuing detainers and who makes the 
determination as to whether sufficient probable cause exists to 
justify the use of the detainer?
    Ms. Saldana. It is the officer. Some jurisdictions are 
requesting that a federal judge get involved in these 
decisions. I cannot even imagine with the way the courts are 
overloaded as it is that a federal judge is going to want to 
review an administrative civil enforcement decision to detain. 
So that is a big stumbling block with some jurisdictions.
    You might have asked another question that I have failed to 
answer. Were there two or three questions there? I cannot 
remember.
    Ms. Roybal-Allard. There were several, but I think you may 
have answered. I have already turned the page, so----
    Ms. Saldana. Okay.
    Ms. Roybal-Allard. During last year's hearing, I asked 
about the status of expanding compliance with the 2011 
Performance-Based National Detention Standards to more 
facilities housing ICE detainees. And the deputy director 
stated that he had asked ERO and the ICE CFO to develop an 
execution plan that would take into account any increased per 
diem costs associated with requiring detention facilities to 
meet those standards.
    What is the status of requiring detention facilities used 
by ICE to adhere to the 2011 Performance-Based National 
Detention Standards and do you expect to eventually get to 100-
percent compliance for all facilities housing ICE detainees, 
including ICE facilities, contract facilities, and facilities 
housing detainees under an inter-governmental agreement?
    Ms. Saldana. Of course, with respect to our facilities that 
we run ourselves, we are there and we are complying with those. 
It is the contract, as you mentioned earlier, that is the 
issue, because they have a contract that may run a period of 
time that does not have that provision. We are obviously on top 
of that. We are expecting them to generally comply, but we will 
be sure to put that in the contract in the next go-around.
    The last time I checked, Congresswoman, we were about at 60 
percent or something of compliance among them and part of that 
will be the people who we are going to have to renew their 
contracts and put it in there. But it is something that is very 
much reviewed. The standards that are applied, that is part of 
our monitoring, review and auditing process. We are checking 
all the time and making corrective action where there are 
issues.
    That is the status.
    Ms. Roybal-Allard. Okay. Do you have a schedule as to when 
you hope to have full compliance?
    Ms. Saldana. I do not have one written now, but you know 
what I can do is check into that executive action, that 
execution plan you mentioned earlier, and see where we are and 
provide that to you.
    Ms. Roybal-Allard. Okay. And as contracts----
    Ms. Saldana. Included.
    Ms. Roybal-Allard [continuing]. Come up, that would have to 
be included, they would not get a contract unless they were 
compliant?
    Ms. Saldana. Well, they would have to agree to come into 
compliance, yes. We would not say to someone we refuse to----
    Ms. Roybal-Allard. No, I know, but would there be then a 
time line? In other words, you know, they can say, yes, we will 
comply, give us the contract, and then just drag it out until 
the end of that contract. So what would be the conditions under 
which someone who was currently in violation of not meeting the 
standards, what would be the time line in which they had to 
until that contract would be revoked?
    Ms. Saldana. We would probably have to make that decision 
on a contract-by-contract basis, but it stands to reason that 
we are going to be approaching that with this needs to be done 
within a certain period of time. Negotiations are negotiations, 
I cannot represent to you that it will be done within a month 
of signing the contract, but it is certainly at the very 
highest level of attention when it comes to our new contracts.
    Ms. Roybal-Allard. So would those that are compliant, would 
they have priority over those that were not yet compliant?
    Ms. Saldana. Are you thinking there is a highly competitive 
situation out there for people to run detention centers? 
Because that really----
    Ms. Roybal-Allard. They make a lot of money.
    Ms. Saldana. Yeah, they do, but it does not--it is not 
palatable to--we do not have people knocking down the doors to 
come and run our facilities, unfortunately.
    Ms. Roybal-Allard. Okay. That is fine.
    Mr. Carter. All right. Well, I think that concludes this 
hearing. Thank you for being here. We enjoyed visiting with 
you, and we will be visiting with you again soon.
    Ms. Saldana. Oh, I am sure. Thank you, sir.
    Mr. Carter. Come see us.
    We are adjourned.
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    

                                          Thursday, April 23, 2015.

                     CUSTOMS AND BORDER PROTECTION

                                WITNESS

HON. R. GIL KERLIKOWSKE, COMMISSIONER, CUSTOMS AND BORDER PROTECTION
    Mr. Carter. This hearing is called to order.
    Good morning, everybody. I want to thank you for coming out 
early this morning. Today, we welcome Gil Kerlikowske in his 
second appearance before the subcommittee.
    Commissioner Kerlikowske, welcome. We appreciate you being 
here, and thank you for your willingness to serve DHS and our 
country.
    The fiscal year 2016 budget for Customs and Border 
Protection is $13.4 billion, an increase of $803 million above 
fiscal year 2015. This is the most substantial component 
increase in the DHS budget, which funds vital national security 
missions. It is a good budget. However, we are under very tight 
budget constraints and must discuss prioritizing CBP's request.
    Your budget request also assumes the addition of 2,000 
additional CBP officers from fiscal year 2014. However, CBP is 
having a fairly difficult time bringing on board the majority 
of these officers. Currently, only 700 have been hired, leaving 
over 1,200 to be brought on this fiscal year. You understand 
the important national security role that CBP officers will 
fill. We can't afford to delay their hiring, nor can we afford 
to let funds expire.
    Similarly, the Border Patrol has 852 agents below the 
mandated 21,370 agents. This leaves the subcommittee concerned 
that CBP isn't able to sustain the existing workforce, let 
alone the mandated floor levels of agents. These are urgent 
problems that we have to fix.
    The request also includes a contingency of $79 million for 
a potential surge of unaccompanied children. While we 
understand the numbers are lower than last year--and we thank 
God for that--we look forward to hearing your update on the 
current estimate of UACs.
    The request also includes numerous other increases, 
including $85 million for nonintrusive detection equipment, $44 
million for new fencing in Arizona, $79 million for facilities 
sustainment, and $29 million of electronic visa information 
system updates.
    As many of you are aware, our top line numbers were 
announced yesterday, which will make funding these and many 
other requested increases very difficult. I look forward to 
working with you over the next several weeks to prioritize 
funding to the most needed programs.
    Lastly, Commissioner, sovereign nations control and manage 
their borders and sustain the integrity of their immigration 
systems. These objectives are your duty, and I expect nothing 
less from you and from the men and women that work with you in 
CBP.
    Now let's turn to Ms. Roybal-Allard, our distinguished 
ranking member, for any remarks she may wish to make.
    [The information follows:]
   
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
   
    
    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    And welcome, Commissioner, to our subcommittee.
    The discretionary budget request for U.S. Customs and 
Border Protection in fiscal year 2016 is $11.5 billion, an 
increase of $685.5 million above the fiscal year 2015 level. 
That is approximately 40 percent of the total discretionary 
increase proposed for the Department as a whole, and the lion's 
share of CBP's proposed increase is for the rising costs of 
personnel.
    Salaries and benefits, in fact, make up 70 percent of CBP's 
total budget request compared to just over half the budget just 
7 years ago. This trend is concerning because it makes it more 
difficult for you to invest in the kinds of technologies on 
which border security increasingly depends.
    On the other hand, CBP has, for a variety of reasons, 
struggled in hiring new agents and officers, including the 
2,000 new CBP officers funded in the fiscal year 2014 bill. As 
a result, the numbers of Border Patrol agents and CBP officers 
are significantly below the required levels.
    It is also worth noting that a significant portion of CBP 
operations rely on user fees that have not been adjusted in 
many cases for more than a decade. Without fee level 
adjustments to account for rising costs, there is a growing gap 
between fee collections and the operations they support, which 
puts an even greater burden on discretionary funding.
    I would also like to highlight that in recent years, the 
Department has embraced the concept of risk management. While 
we can't eliminate risk, we can be strategic about identifying 
risk and targeting resources accordingly. That approach is 
certainly inherent in the impressive work of CBP's National 
Targeting Center, which I visited a few weeks ago. I hope we 
can help CBP continue to improve on the good work already being 
done there.
    CBP also continues to make progress in improving 
situational awareness at the border and in targeting better the 
use of technology, personnel, and other resources based on 
risk. In addition, the Secretary's Southern Border and 
Approaches Campaign is taking the Department's border security 
effort to a new strategic level, and CBP is, of course, a big 
factor in that equation.
    But I think CBP and the Department still have a major 
challenge in communicating to Congress and the public what a 
secure border looks like, what your plan is for achieving it, 
and how long it will take. I feel certain that comprehensive 
immigration reform is in our future, hopefully our near future. 
But whenever it comes, it will be important to have a better 
consensus definition of what constitutes border security.
    I also have some ongoing concerns about the use of force 
along the border, the treatment and care of unaccompanied 
children, and ethics and integrity oversight that I will want 
to discuss with you this morning.
    So once again, I appreciate you joining us, and I look 
forward to a productive discussion.
    [The information follows:]
   
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
   
    
    Mr. Carter. Thank you, Ms. Roybal-Allard.
    All right. Mr. Kerlikowske, we will recognize you for 5 
minutes to summarize the information that you have submitted to 
the committee, and then we will have a few questions.

              OPENING STATEMENT: COMMISSIONER KERLIKOWSKE

    Mr. Kerlikowske. Thank you, Chairman Carter and Ranking 
Member Roybal-Allard and the members of the subcommittee. I 
want to thank the members of the committee for the passage of 
the spending bill for the remainder of this fiscal year. It 
enables us to do a better job to execute the full scope of the 
very broad mission we have, from providing the means to invest 
in needed border technology to the flexibility to care for 
unaccompanied children.
    When I appeared last year, I had been Commissioner for 
about 2 weeks. I am thankful to be here a year later and to 
share some of the accomplishments that CBP has made and to 
highlight how the administration budget will help us move 
ahead.
    I have been privileged in this last year to visit dozens of 
our land, air, and sea ports of entry, our Border Patrol 
stations, our forward-operating bases, and our air and marine 
units. I have listened carefully to frontline personnel. I have 
seen the challenges they face and how the resources that the 
committee has provided have really translated into a more 
efficient and effective workforce. And I have seen firsthand, 
most importantly, how committed our employees are to our 
mission, and I am proud to represent them at this table.
    My first year was a combination of profound challenges. 
Within the first week of being sworn in, I was down in McAllen, 
Texas, to view firsthand the unprecedented number of 
unaccompanied children and families crossing the Southwest 
border, I think, as all of you have also. And I think since 
then I have made about 10 more trips to McAllen.
    In addition to the response at the border, the CBP officers 
and the Border Patrol agents I saw demonstrated humanity and 
compassion to those kids. CBP and our partners then launched an 
awareness campaign in the three Central American countries 
about not only the dangers, but the fact that if you do arrive 
here that you will not be allowed to stay.
    In the event of another surge, we are much better prepared 
now than we were then, and this budget provides additional 
resources for the safety of the children and the families in 
our care.
    And then we responded not long after that to the Ebola 
crisis in West Africa. Working closely with the CDC Centers for 
Disease Control and Prevention, we set up processes to funnel 
travelers from the affected countries to five airports where 
they get enhanced public health screening.
    During events such as these, we also have the everyday 
activities that the American people place their trust in us to 
keep them safe. We are, as I often remind our people, we are 
the guardians of the Nation's borders. As I stated a year ago, 
to ensure that trust we must instill the highest levels of 
transparency and accountability.
    We have made progress in this by publishing a Use of Force 
Policy handbook, establishing a formal incident review process, 
and transitioning our Internal Affairs special agents into 
criminal investigators. That increases our ability to 
investigate misconduct.
    The President's budget builds on these accomplishments and 
provides $13.4 billion to enhance CBP's efforts in the three 
areas. First, the budget enables us to advance our 
comprehensive border security operations, deploying technology, 
mobile video systems that many of you have seen, Department of 
Defense repurposed equipment, such as aerostats and thermal 
imaging. And the budget allows us to complete the 
infrastructure tactical investments that are needed on the 
Arizona border.
    It enhances our capabilities for counterterror and 
transnational crime by assisting CBP in building that 
counternetwork capability, and it supports the Secretary's 
Southern Border and Approaches Campaign, which I know all of 
you are familiar with.
    Lastly, the budget continued our efforts to enable lawful 
trade and travel, and we are grateful for that appropriation. 
As trade and travel increase and benefit the economy, we know 
we have to get the right people in, and we have to get them in 
safely. We have to get the right cargo in, and we have to move 
it expeditiously.
    The budget provides funding for these critical investments 
in nonintrusive inspection devices and also to help improve 
travelers' experiences through these innovative business 
transformation initiative and the public-private partnership.
    So thank you for having me today. I look forward to 
answering your questions, Mr. Chairman.
    [The information follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
             CUSTOMS AND BORDER PROTECTION OFFICERS: HIRING

    Mr. Carter. Well, thank you, Commissioner. We are happy to 
have you here.
    I want to remind everybody that even though we are in a 
closed room, for the young lady who is taking the record, we 
need to be sure and have our microphones on when we talk.
    Let me start off by talking about our hiring challenges. In 
2014, Congress appropriated for 2,000 additional CBP officers. 
Everybody that had asked for that was pretty happy. A lot of 
the ports of entry had concerns. This brings our total to 
23,775. However, CBP currently is 1,302 agents below the funded 
levels.
    I have about three questions here that you can answer. How 
many officers will be on board by the end of this fiscal year? 
Accounting for the increased attrition, will CBP be able to 
have all 23,775 officers on by fiscal year 2016? And what is 
CBP doing to address the slow rate of hiring of funded 
positions?
    Mr. Kerlikowske. We will fall short by the end of this 
fiscal year, but I assure you that we have made great progress. 
And even though only 700 have been hired now, we are really 
moving much more rapidly to get those people on board. And we 
appreciate and understand the fact that these are appropriated 
dollars, that to the American public, when these folks get on 
board, they get people through more quickly. And it actually, 
as the research shows, makes money for this country by getting 
them on board.
    But two things occurred that were particularly problematic. 
And you well know, Chairman, from our past history, when we 
lowered our standards of hiring and did not properly vet 
people, we made mistakes in who got hired. And we paid a price 
for that, and we are continuing to pay a price for that.
    So the company that did background screening through their 
systems had a breach of security, and so everything was shut 
down for actually a number of months. So that slowed everything 
down.
    The second part is that we don't hire anyone without being 
polygraphed before they get on board. Finding the requisite 
number of certified Federal polygraph examiners has been 
particularly difficult. We have hired a number of people. We 
have made sure that we are doing our very best to deploy them 
and to have people. We have lots of applicants, and we are 
screening them well through our hiring center. But both of 
those things.
    But I would tell you that there is a lot of light at the 
end of the tunnel. We have moved much more rapidly. And even 
though we have only hired 700, the deficit for both Border 
Patrol agents and for our CBPOs [CBP officers] will certainly 
be much less by the end of this fiscal year and certainly by 
the end of the calendar year.

                          POLYGRAPH OPERATORS

    Mr. Carter. Well, that is interesting, the polygraph 
operators especially, because we have heard that story from you 
and others in other hearings and places. And the question that 
I never have been able to understand, is if there are not 
enough polygraph people available to hire, and there are 
people, for instance in Texas, the Texas Department of Public 
Safety has a lot of polygraph operators, it might be you could 
subcontract with them somehow.
    I know from personal experience that there is a large 
number of polygraph officers, Spanish-speaking polygraph 
officers in the Rio Grande Valley, because they come up in 
large numbers and train in Austin. As a young defense lawyer, I 
learned an important lesson: If you have a client that, 
although he speaks perfect English, he was raised in a Spanish-
speaking family, to get the best results you need a Spanish-
speaking polygraph operator. Because amazingly enough, even 
though they would tell you they were not translating in their 
brain, they are, and you will get an inconclusive.
    I had a client that swore up and down he wasn't a thief. He 
said: ``I might be a murderer, but I am not a thief.'' I 
thought that was an interesting defense to take to a jury. So I 
talked to the district attorney to let me go and have him 
polygraphed and he came up inconclusive, which was not good for 
me.
    And then the operator said: ``Well, we have a bunch of 
Spanish-speakers that are up here from the valley, let them run 
him in Spanish.'' And he came out like gangbusters in Spanish, 
which I got him a much better deal that way.
    Mr. Kerlikowske. Your suggestions are ones that I certainly 
explored because I had polygraph operators certainly when I was 
the police chief in Seattle. Texas Department of Public Safety 
has one of the best polygraph programs. And so I explored with 
the Federal certified polygraph examiners why we couldn't 
contract with or use them, and I thought that it would make a 
great deal of sense.
    I have run into a real stonewall with that organization 
that keeps a very close hold. And I know that there are some 
reasons why we can't do that, because DPS [Department of Public 
Safety] in Texas is not certified in the Federal system. But I 
am continuing to push that issue very strongly because I think 
there are other ways to skin this cat.

                    BORDER PATROL AGENTS: ATTRITION

    Mr. Carter. Well, maybe that is something we ought to look 
into. Mr. Cuellar and I are both very familiar with what you 
are talking about. So I will take a look at that issue.
    Another concern, the Border Patrol is over 850 agents below 
the mandated 21,370 floor. It is not news. It has been around 
for a while. So the underexecution of agents is not due to 
hiring up at a new level but sustaining the existing workforce. 
What are we doing to address the hemorrhaging of agents from 
the Border Patrol? And this isn't a new issue. This issue has 
been around since I have been on this committee.
    Which brings up a question that came up in the conversation 
in the last 2 days in my office. My deputy chief of staff is a 
former command sergeant major in the Army, and some people, not 
including myself, have been discussing with Border Patrol 
people who said that they wish they had better training. The 
initial training is good, but there is not the continuing 
training that we have in our professional Army, where 
literally, every time you come off a mission you are retrained 
for your next mission. It is a new training cycle every time 
you transition.
    I am not sure we can get to that level of training 
proficiency, but there is basically, from what I understand, 
very little continued training after the initial Border Patrol 
training. And that might be something that builds that esprit 
de corps which would hold our officers in. I don't know. But I 
want you to think about that, and then whatever thoughts you 
may have about what we can do for the hemorrhaging of the 
Border Patrol.
    And finally, that is over $180 million of appropriated 
personnel funding. What has been happening to those funds?
    Mr. Kerlikowske. So in the Border Patrol, attrition jumped, 
it doubled. It is about 4.7 percent. There are a lot of reasons 
for that. I think that one is that about a year ago, when 
agents could retire, they could transfer their unused sick 
leave toward their retirement. And that is no longer in place, 
so people took advantage of that.
    They also had the continuing issue of this, as you well 
know, this Border Patrol Pay Reform Act and the use of 
additional funds. We are quite pleased, of course, that 
Congress passed the Border Patrol Pay Reform Act. We are in the 
process of implementing it. At the same time, Fair Labor 
Standards moneys and AUO [administratively uncontrollable 
overtime] money is also having to be changed. So we are in that 
process.
    A number of Border Patrol agents who were looking for 
transfers have moved over to Customs and Border Protection. 
That is a benefit to us. But it also makes it particularly 
difficult with the Border Patrol because we need to fill those 
slots. And of course our focus was on the appropriated funds, 
the $180 million, the amount of money that is not being used 
for salaries because it is available.
    So the Border Patrol has used a lot of that money for 
technology. We will certainly provide you with the figures. But 
because we will also be in the process of advertising, hiring, 
screening, selecting people, some of that money is being 
carried forward so that we can continue that hiring process to 
make sure we get up to speed.
    We have a lot of good applicants. We have a good system in 
place now, provided there are no more security breaches. We 
have a lot more polygraph operators on board. But I don't want 
to come back to you a year later and say: Well, we have gotten 
everybody hired, but perhaps we hired some people that 
shouldn't have gotten on board. I would rather tell you that we 
are not as far advanced in hiring as we should be, but I don't 
want to get the wrong people into place.
    Mr. Carter. I can't disagree with that. I agree with that. 
But in turn, we can't sit on pots of money in a time when we 
are scratching literally every penny out of these budgets to 
make sure that we are giving you everything that you need. I am 
a frontline troops guy, okay. I want to make sure the people 
that are in harm's way have everything they need, because, 
quite honestly, those of us that sit in the offices have to 
rely upon them to be out there in the bush.
    And having had a one-night experience with the Border 
Patrol, that is not a very fun job. Everybody ought to go sit 
out in the cane for a while and get a good impression of what 
these guys and gals go through.
    Well, that is something we need to be looking at very 
closely, because if we are not going to use the money, then we 
have to use it for something else.
    Mr. Kerlikowske. Yeah.
    Mr. Carter. All right. I guess my time is up.
    Ms. Roybal-Allard.

                  UNACCOMPANIED CHILDREN: PREPAREDNESS

    Ms. Roybal-Allard. Commissioner, CBP was challenged last 
summer in managing the influx of unaccompanied children across 
the Southwest border. Are you satisfied that CBP is fully 
prepared to deal with a repeat of last summer's influx were it 
to occur, including being able to address the full range of 
needs of these children? And perhaps even more importantly, are 
you confident that the Office of Refugee Resettlement is 
prepared to accept custody of the children within 72 hours of 
their apprehension by CBP?
    Mr. Kerlikowske. Congresswoman, and certainly I appreciated 
very much accompanying you on your visit to see that and to go 
through that.
    So, first, yes, I am fully confident that the Border Patrol 
has much greater resources, is much more fully prepared to 
address this issue with contracts in place for health care, for 
food service, and for transportation that can be used, and an 
additional processing center that was purchased and equipped.
    I am also very grateful and will knock on wood that we are 
down about 48 percent, about 17,500 apprehensions this year--or 
``encounters'' is probably the better term--with unaccompanied 
children. So that is down significantly from last year. We 
watch it very carefully, we have good intelligence through 
other means, and we are better prepared.
    The Office of Refugee Resettlement through the Health and 
Human Services [HHS] has taken this issue on. We work much more 
closely with them. Their footprint was certainly not as large 
as ours, and a lot of what is done through HHS is also done 
through contracts. So my visibility on all of their 
preparations is not as clear as for my own. But I am much more 
confident that they are in a better position now, having 
experienced what we all did last year, than today.
    Ms. Roybal-Allard. And to what do you attribute those lower 
numbers?
    Mr. Kerlikowske. Well, one, it would be a mistake to pat 
ourselves on the back for those lower numbers because we don't 
know what the future will bring.
    I think the aggressive campaign that we did with the 
Department of State, from bus placards to overhead signs to 
social media, saying that, one, it is dangerous, and two, if 
you do arrive here illegally, you will be detained and you will 
not be allowed to stay, has been a powerful message.
    And I think that the fact that the President has met with 
those three Presidents, and the Vice President has been down 
there. Secretary Johnson has been full-throated in his 
discussions with the heads of those countries also. And quite 
frankly, the Government of Mexico is doing a remarkable job on 
their border with Guatemala to reduce the problem of people 
coming on the train.

                    UNACCOMPANIED CHILDREN: MEXICAN

    Ms. Roybal-Allard. Okay. Speaking of Mexico, I would like 
to ask a question about the unaccompanied Mexican children who 
cross the border.
    The Trafficking Victims Protection Act requires CBP to make 
three determinations with regards to the unaccompanied Mexican 
children. First, the child has not been a victim of 
trafficking; the child does not fear returning to his or her 
country of origin; and third, the child is able to make an 
independent decision to return home.
    If CBP cannot affirmatively make all three of these 
determinations, the law requires CBP to treat them like 
unaccompanied children from noncontiguous countries. In other 
words, they must be transferred to the custody of the Office of 
Refugee Resettlement. And in any case, the child can only 
return home if they voluntarily withdraw their application for 
admission.
    I have been concerned that CBP may have a practice of 
simply repatriating Mexican kids without the full evaluation 
and allowing them to make an independent decision as the law 
requires. What kind of assurance can you give that CBP is fully 
following the requirements of the Trafficking Victims 
Protection Act with respect to Mexican children?
    Mr. Kerlikowske. The training that the Border Patrol agents 
receive in the academy includes the training and the 
requirement that they ask questions, whether or not the child 
is afraid to return back to their home country, and so there is 
a minimum of those three questions. The follow-up question is, 
is there anything else that you want to tell me? In addition, 
we have online training that the Border Patrol agents must take 
so that they understand the settlement in the Flores v. Reno 
case, and also understand the act on protection.
    And I guess I have two feelings, and I know you have 
expressed some issues about whether they are the best people to 
do that, to ask that question. They are the first people that 
these children encounter. Those questions are asked, and it is 
a minimal number of children from Mexico who then say: No, I 
don't want to return or I am afraid.
    We know from the experience of last summer that lots of 
children went to the Border Patrol agents in uniform and 
approached them. So there wasn't a fear; there wasn't a concern 
on their part. In fact, they felt that they would be protected. 
But would we be willing also to look at other means of further 
clarifying and asking those questions perhaps with other 
individuals? I would be happy to explore that.
    Ms. Roybal-Allard. Like with the Office of Refugee 
Resettlement, would that be a consideration, of having them 
look into this, talk to these children?
    Mr. Kerlikowske. It would, and I would be happy to do that. 
I think we just have to keep in mind two things: one, the size 
of those Border Patrol stations, which are pretty busy; and 
then also, the capacity of the Office of Refugee Resettlement. 
But if you would like, I would be happy to explore that 
further.
    Ms. Roybal-Allard. Are there any records or any evidence 
that you could point to, to substantiate the fact that Border 
Patrol is, in fact, doing--I understand they get the training 
and everything--but to actually show that these things are 
taking place?
    Mr. Kerlikowske. I will be happy to provide that. And I 
think from the unannounced inspections that the inspector 
general's office did last year to the Border Patrol stations, 
those were things that were addressed and how are these kids 
being treated.
    [The information follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Ms. Roybal-Allard. Okay.
    Mr. Carter. We are going to go in the order that people got 
here.
    Mr. Young.

                               DIRECTIVES

    Mr. Young. Thank you, Mr. Chairman.
    Commissioner, welcome.
    I want to just bring up an issue that came up in our 
subcommittee last week when Director Saldana was here. A quote 
was given from the President that he gave on February 25 at 
Florida International University. He was talking about the 
Border Patrol, ICE agents, and their new directives, and for 
those who aren't paying attention to the new directives and 
they don't follow the policy, that there are going to be 
consequences to that.
    I brought that up to Director Saldana, and her response 
regarding whether or not it is important to follow the law over 
the directives. I said the law should be first, and she said 
that she fundamentally disagreed with that. That was very 
concerning to me and many members on the committee.
    What is the priority, in your mind, directives or the rule 
of law?
    Mr. Kerlikowske. Well, I mean, for us, it is much more 
complicated than that. We have a number of attorneys and a 
number of people whom I have to work with on the President's 
directives. And the advice and the decisions, given those 
directives, were that they were within the law.
    As you know, this is certainly on hold as the Court of 
Appeals looks at this issue. But for all of the laws that the 
Border Patrol agents enforce and for the 500 laws that our 
Customs and Border Protection officers enforce, for many 
Federal agencies, there are a number of directives that go 
along with them about how to interpret and to utilize those 
laws.
    And so I would tell you that it is always our duty to 
follow the law, but certainly the directives, as they have been 
explained to me by legal staff, were within the law.

                        UNMANNED AERIAL VEHICLES

    Mr. Young. My office is hearing from whistleblowers and 
folks concerned who work for the Department of Homeland 
Security, for ICE, for the Border Patrol about what the 
President said and it sounding like a veiled threat in a way, 
and that they are fearing retribution. Some believe that they 
have received retribution. And I just want to make sure that 
you stand up for them, and those that see the rule of law as 
number one, that you look out for them. So thank you for 
commenting on that.
    I was down on the border. It was eye opening. It was a very 
good education for not only myself, but I think anybody who is 
going to make decisions up here regarding the border and 
homeland security. The aerostats that I saw, I thought were a 
great addition for helping. Can you talk about how the 
aerostats have helped out, and what other UAVs you are using?
    My understanding is that Chairman McCaul went over to 
Afghanistan and saw those aerostats up in the sky and said 
maybe we could use those on the border.
    I hope you are working interagency-wise to find what other 
agencies are using to help with the border. Can you comment on 
that, the aerostats, how they are doing, do you plan to have 
more, and how you are working with other agencies to find new 
technologies?
    Mr. Kerlikowske. Well, I think the aerostats have been well 
received and have been in use, and they are repurposed from the 
Department of Defense. They are expensive, as almost all the 
technology is, but we have seen success, whether it is in the 
Rio Grande Valley or certainly in other locations, by using 
them.
    The Department of Defense has been a great partner, along 
with NORTHCOM, the Joint Task Force, and others in helping us 
with night vision equipment, thermal imaging, and the 
aerostats. The feedback from the Border Patrol is that the 
aerostats do two things. One, they really expand situational 
awareness. We just saw that in McAllen a few months ago with a 
series of arrests of people smuggling drugs who then decided to 
engage in a shootout with the Border Patrol. But that was 
detected through an aerostat.
    And I would love to be able to expand that. It is 
expensive, and we have lots of technology needs because the 
technology is a game-changer. The UAS, I believe, is 
particularly helpful and important because they provide that 
situational awareness, the VADER [Vehicle Dismount and 
Exploitation Radar], the radar systems. And, again, the 
imaging, the fact that they can be up to 12 hours at a time is 
helpful.

                      TUNNEL DETECTION TECHNOLOGY

    Mr. Young. And, of course, while we are watching from the 
eye in the sky, there are things going on underground. Can you 
talk about the technologies there that you are using? There are 
some pretty sophisticated networks underground that they are 
using to come into the homeland underground.
    Mr. Kerlikowske. Yeah. And I think the weakest area of 
technology that we have, is the ability to detect tunnels. We 
have worked with DARPA [United States Defense Advanced Research 
Projects Agency], and we have worked with other organizations 
to find some level of tunnel detection.
    Now, the vast majority of the tunnels are in Arizona and 
California and mostly are used for smuggling drugs. But we 
continue to struggle with what are the electronic systems that 
could help us identify where the tunnels are. Right now it is 
either human intelligence or a truck falls through a hole in 
the ground by driving over. And there is probably something 
more sophisticated out there in that area.
    I think the motion detectors, the remote video surveillance 
systems, such as the Scope trucks, using both infrared and 
video, are all helpful. And a lot of those have been repurposed 
from DOD.

                               SUGAR CANE

    Mr. Young. And then just finally, underground, eye in the 
sky, on the ground, we were in McAllen, Texas, and we went up 
and down the Rio Grande River. On the American side, we saw 
sugar cane, a lot of weeds, what are seen as an invasive 
species of sugar cane that doesn't have much use. It seems to 
me like there are some efforts to get rid of that so that we 
can better watch our homeland. Can you comment on that?
    Mr. Kerlikowske. You know, as you have and I have been on 
the river a number of times and looked at the difficult 
terrain, particularly when somebody crosses and then enters 
into those high cane fields, how difficult it is. I was 
actually unaware that that cane wasn't a commercial or 
marketable sugar cane, but I would be happy to explore that and 
learn more about that.
    Mr. Young. Thank you. Thanks for your testimony and being 
here.
    Mr. Chairman.
    Mr. Carter. Mr. Cuellar.

                  PROFESSIONALISM CAMPAIGN AND FENCES

    Mr. Cuellar. Thank you, Mr. Chairman.
    To start off, I want to associate myself again with the 
chairman's comments on the officers. I think we appropriated 
this back in 2013, fiscal year 2014, and we are still holding. 
And you seem to equate that if we move faster, then you lower 
the standards. I don't necessarily equate that if we move 
faster you are going to lower the standards. So, again, I would 
ask you, because, Laredo has the largest inland port, 12,000 
trailers a day, and we really would like to have those move a 
lot quicker also.
    Second of all, I want to say that your folks in Laredo have 
been doing a great job, that I am hoping we can expand this to 
other ports of entry, and that is PRIDE Initiative. It is a 
rider that we put in about professionalism. I will be in San 
Diego. Those folks over there want it, I think they want it 
everywhere, balance between security, but at the same time, 
without having your men and women treat most of the people as 
criminals, because they are not criminals. And we are talking 
about the ports of entry, not outside the ports on that. So I 
would ask you to just continue expanding that initiative. Your 
folks in Laredo have done a great job.
    The second thing is what the ranking member said. I just 
want to mention that there is an agreement between the U.S. and 
Mexico, before Border Patrol returns one of those unaccompanied 
kids, they go to the Mexican consulate. The consulate will go 
through the same questions that Border Patrol asked and then 
they return it. So just keep in mind there is an agreement. We 
will be happy to provide that to you if you don't have that.
    The other question, and I have a series of questions, is 
the fence. And I don't know what your latest numbers are, but 
when I was on the Oversight of Homeland, to put 1 mile of 
technology would cost about $1 million. To put 1 mile of 
fencing, it would cost about $7.5 million per mile. So I would 
ask you if you can update that. I am not a big supporter of a 
fence. If anybody wants a fence, I would be happy to support a 
fence around your hometown if you want that. But update those 
numbers if you can, sir.
    And the reason I am asking about that is because I know one 
of our colleagues in Arizona was complaining, questioning how 
you spent $730,000 for 60 feet of fencing, which works out to 
about $12,166.66 per foot to fix a fence, and I think that is 
just a little bit. And I saw the response that you all 
provided. But I think over $12,000 to fix 1 foot of fencing is 
just a little bit on that. So I would ask you to look at that.
    And then does your Department--I know this has been a 
question in Texas--does your Department also provide breakdowns 
as to what Border Patrol catches, drugs, et cetera? I know that 
the locals provide that. I assume the State of Texas has their 
own numbers, because there has been a question that the State 
of Texas doesn't break down. They put everything together on 
this.
    I will be happy to provide that information. But if you can 
follow up on whether you break down, what you all catch, 
whatever the State does in the State of Texas and whatever the 
local folks. I know that my brother, who is a border sheriff, 
knows what he catches, and he knows what DPS does, and he knows 
what the other folks do, because everybody keeps their own 
records.
    Finally, the last thing, Mr. Chairman, I was talking to 
Chairman Culberson on this, but also Mr. Carter, and I don't 
want to put this out, but the details of the thresholds that 
every sector has, what the U.S. attorneys.
    Members, if you don't have a copy of that, I think it was 
provided to the committee, but if you look at the thresholds, 
every area has a different threshold throughout the Southern 
border, which means if I was a bad guy and I know that the Feds 
are not going to prosecute, I will go to certain areas and keep 
it under those thresholds, whether it is cocaine, marijuana, 
whatever it is.
    We sometime, Mr. Chairman, we know need to go over this 
particular situation because then the burden is put on the 
local prosecutors on that.
    So I know I gave you a series of questions. You can follow 
up with some of them. Overall, I appreciate the good work that 
you are all doing. I am glad that some of you all are starting 
to look at some of the things. But quite honestly, some of us 
are here longer than some of you all in your position. So on 
issues like cane, we live in the cane. We don't just go in and 
go out. We see that every day.
    Your response, and I say the Department, was to put Spanish 
wasps, to release them, that that would take care of it. It was 
millions of dollars. There are folks on the border, like the 
Texas Soil and Water Conservation, that can do that a lot 
cheaper, they have been doing this for a long time, that can 
get rid of that cane. But your folks said: No, they wanted to 
work with USDA and put a Spanish wasp there.
    That Spanish wasp has not been very successful because the 
cane that I have seen and other members have seen, it hasn't 
worked. And those bad guys are still using that for coverage.
    So I know I gave you a couple of statements, and if you can 
follow up on some of them with our office as soon as possible.
    Mr. Kerlikowske. Can I respond to a couple things?
    Mr. Carter. Yeah, you bet.
    Mr. Kerlikowske. Thanks.
    So one, I first very much appreciate the invitation, and it 
was a great honor to be a part of the bridge ceremony in 
Laredo. It was a wonderful opportunity to see people coming 
together in the middle of the bridge.
    I want to thank you particularly for your personal 
involvement in the professionalism campaign. So this is a 
campaign that exists in all of our ports to have our Customs 
and Border Protection officers, those people in blue uniforms 
who are, one, the frontline of making sure that people who try 
to get into the country through the ports, through fraudulent 
documents, who are wanted on warrants, et cetera, that they are 
apprehended, that they don't get in. But they are also the 
first ambassador that somebody sees when they enter the 
country.
    And I am always impressed when I hear someone tell me that 
when I went to customs, they said welcome home or welcome back. 
And this professionalism campaign is very good, and I attended 
the one in Baltimore. But you going and actually speaking to 
the CBPOs, I think is particularly heartening.
    The fence issue in Arizona was actually a little over 200 
feet of fence, and this was washed out through a microburst. 
And the repair of the fence, 700-plus thousand dollars was 
expensive, but there was also the removal of about 150,000 
pounds of concrete and other things that actually caused that 
disruption. So it was both things.
    And I agree with you, sometimes the Federal Government 
isn't the best place to enlist when you are looking to save 
money on a particular project. But I didn't find this 
particularly over the top when I was also informed about how 
much debris, concrete debris had to be trucked and hauled out 
of there. And I will be happy to give you more information on 
fencing costs.
    [The information follows:]
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
  
    
    Mr. Cuellar. Okay. Thank you, Chairman.
    Mr. Carter. Thank you.
    Mr. Frelinghuysen.

              APPREHENSIONS: COUNTERTERRORISM CAPABILITIES

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Good morning, Commissioner. Thank you for 40 years of 
service in law enforcement. Also for having a good sense of 
humor. I note the hour, and I am sure we appreciate your being 
here on time. I was barely here on time.
    Sort of following along with Mr. Young a little bit, his 
line of questioning. First of all, Mr. Carter, and I serve on 
the Defense Appropriations Committee, and actually I think I 
know more about the Middle East border than at times I do my 
own border.
    As you look at our Southern border, and you look at things 
happening in South America and Central America, we hear some 
incredible figures about the death rate of killings in Mexico, 
some figure of 45,000 people who have been killed, the power of 
the cartels, a lot of activity. We only need a few bad people 
to get through the process here. And I know part of your 
statement relates to capabilities on counterterrorism.
    What is your take on that part of your responsibility?
    I know you have a working relationship, thank goodness. We 
are pleased to hear positive comments about your working 
relationship with the Department of Defense.
    What is your take on that aspect of apprehending the people 
who would do us the most harm?
    Mr. Kerlikowske. And I think that we are at about 169,000 
apprehensions so far this year, and although that is down from 
the total numbers last year. That represents around 150 
different countries. People often think it is going to be the 
three Central American countries that were most problematic 
last year, and Mexico, but the numbers of apprehensions of 
people are from all over.
    I think that one of the huge benefits that this Congress 
has done with the United States Border Patrol is to increase 
its numbers. It wasn't that many years ago that it was 7,000, 
8,000, 9,000 people; today it is 20,000.
    When someone is apprehended, it gives us the ability to 
debrief them, to ask questions. So rather than leading 20 
people into some level of detention after apprehension, we 
could actually sit down and question and debrief them. And I 
think that that is very helpful when it comes to people who 
would do us harm greater than just entering the country 
illegally. So I think that that is important.
    The other key factor, I think, and the ranking member 
mentioned it, having gone out to the National Targeting 
Center--I would certainly welcome, and I think she has 
expressed that to members of the committee, welcoming you to 
visit--Our interaction, not just with the Department of Defense 
through information technology, but with the National 
Counterterrorism Center and other Federal agencies, is helpful.
    And then the boots-on-the-ground issue, as I have spoken 
with the chairman--The boots-on-the-ground issue is that our 
Border Patrol agents are a part of those communities. They work 
with local sheriff's departments. Texas Department of Public 
Safety, Steve McCraw is held in high esteem by me personally, 
and that relationship is very good.

                     TERRORIST ACTIVITIES, FUELING

    Mr. Frelinghuysen. Do you subscribe to the notion that a 
lot of what is happening in South America and Central America--
and I know you have certain responsibilities--that a lot of the 
shakedowns and the activities of cartels--and this is sort of 
in, I think, certainly open sources--that a lot of that might 
be fueling some terrorist activities?
    Mr. Kerlikowske. I think that there has been a lot of 
research, and certainly during the time that I served as the 
President's drug policy adviser and spent a lot of time on some 
of these issues also-- We know that transnational organized 
crime looks for lines of business just like any other business 
and where they can make a profit.
    We also know that terrorists need money and they need 
financing, and the information that terrorist organizations 
have engaged in illegal activity, everything from smuggling 
cigarettes to used cars, those types of things are important. 
And I think that the more emphasis we place on going after the 
money, the more harm we can do to those organizations. So I 
think you are right.

                      TUNNEL DETECTION TECHNOLOGY

    Mr. Frelinghuysen. And lastly, getting sort of back to Mr. 
Young's comments, I was surprised, and I know Chairman Carter 
heard this in terms of the continent of Africa, the limited 
ISR. And then I hear that it is also true for your area. I just 
wondered what assets you are missing. I know you have a 
relationship with the Department of Defense, DARPA, you are 
using all sorts of technologies. But if you are impoverished, I 
think it is important for all our committees to sort of know 
what you need.
    Mr. Kerlikowske. Well, I think, when I spoke with Mr. 
Young, I think the tunnel detection technology could be 
improved because that is a difficult area.
    Mr. Frelinghuysen. Well, the technology actually exists. It 
does exist. You just haven't had it. It hasn't been given to 
you. Is that correct?
    Mr. Kerlikowske. Well, actually, the tunnels that we have 
been encountering that are much deeper, things like ground-
sensing radar and things like that, actually haven't been all 
that successful. So working with our science and technology 
counterpart at DHS, that would be one area that I would like to 
do.
    And, of course, the other is that a lot of the technology 
needs to be updated and refreshed. The aerostats that you 
mentioned, some had been sitting in a warehouse postwar for 5 
or 6 years. That means when it comes out that the technology is 
old, they need to be updated, et cetera. There is a cost there.
    Mr. Frelinghuysen. You have brought it to our attention.
    Thank you, Mr. Chairman.
    Mr. Carter. Mr. Price.

                            CARGO SCREENING

    Mr. Price. Thank you, Mr. Chairman.
    Commissioner, welcome to the subcommittee. Thank you for 
your good work.
    I would like to focus today on some of your overseas 
operations, both with respect to passenger preclearance and 
cargo screening. Let me start with cargo screening.
    As you well know, there is 100 percent requirement in the 
law for the scanning of 100 percent of maritime cargo 
originating in foreign ports prior to landing. For a variety of 
reasons, good reasons, I think, from cost to technology to the 
infrastructure at many harbors and ports, this requirement 
seems like a distant reality.
    So recognizing that, last year, the Secretary extended a 
waiver on this requirement by 2 years. Now, I understood and 
supported this waiver, but I have again been disappointed by 
the Department's failure to take the longer view and to propose 
a legitimate alternative to the 100 percent screening 
requirement.
    Last year's committee past report included language making 
it clear that the subcommittee did expect CBP and the 
Department to lead on this issue and to propose alternative 
requirements that could realistically be achieved within the 
next 2 years. We also required the Department to propose 
medium- and long-term goals for increasing our scanning 
capabilities at high-risk foreign ports.
    So therefore, these questions. What is the status of 
meeting these goals? Should we expect the Secretary to again 
request a waiver to delay implementation of the requirement? 
What are the technological hurdles that still need to be 
overcome to ramp up the amount of cargo we screen overseas, 
just setting aside the 100 percent figure? To the extent we can 
and should be ramping overseas screening up, what are the 
technological hurdles that need to be cleared? And are there 
diplomatic or other hurdles that we may have underestimated?
    Mr. Kerlikowske. So I know that the Secretary has made this 
a high priority, and I know that his statements have been that 
it is the law and that he should do everything possible to move 
to the 100 percent scanning.
    And it certainly involves, as you know, not only a complex 
set of diplomatic issues. I visited Singapore, where we have 
three people in our advance screening center over there to work 
with Singaporean officials. Many of these ports, when I was at 
the port in Cartagena--Many of these ports are also, of course, 
privately owned. Unlike many ports here in the United States 
that are operated by some level of government, these are 
private ports, and so we have to work carefully and closely 
with those organizations.
    We are in now 40 countries. We have about 800 people 
overseas. And that level of working with these counterparts in 
the large ports in Germany and other places, Amsterdam, is 
particularly helpful. Right now the screening is risk based, 
who is the operator, where is this coming from.
    I think you are familiar with the fact that we have Trusted 
Traders that we have vetted carefully, and we have vetted their 
personnel. Many other countries that have asked for our 
assistance in developing those same kinds of programs where the 
traders themselves, these shippers, I mean, they want safety 
and security. They don't want a blemish on their organization 
either. And they are working very hard to develop some 
programs.
    I certainly can't speak for the Secretary on whether or not 
he will ask for the waiver, but I can also certainly say that 
many of the barriers and the difficulties of 100 percent 
scanning that have been testified to by previous Secretaries 
still exist today, but progress is being made.
    Mr. Price. Well, what I am implying in the way I asked the 
question, I believe, is that this may well be a goal that is 
not attainable and that there is going to need to be a thorough 
reconsideration of the way we do this kind of screening. And 
you described, and maybe I am going to ask you now to flesh out 
just a little bit what you mean by a risk-based approach, which 
has been the operative approach for these intervening years.
    What we are looking for, I think, is some indication, some 
plan of the future development of that approach or any other 
approaches that, together with whatever overseas screening we 
are able to do and choose to do, that comprehensively we have a 
reliable plan going forward.
    And that is what we have repeatedly asked for. It is not 
that we are quibbling with these waivers, or at least I am not. 
It is a matter of understanding the reason for the waivers, but 
at the same time asking, short term and long term, what kind of 
larger plan do we have and what might we expect in the future?
    Mr. Kerlikowske. So I couldn't agree with you more that the 
100 percent scanning would be incredibly difficult. And if 
somebody had already come up with the plan and the proposal to 
move forward, I think it would have been well presented to 
Members of Congress. I think the system that is in place now is 
a very good system, and our National Targeting Center for Cargo 
is incredibly helpful.
    When I think of the risk-based approach, I think, first of 
all, who is the shipper. If shippers have subjected themselves 
to incredible levels of vetting and scrutiny by the United 
States Government about their employees and their processes and 
their security, they can be trusted, and they can be trusted 
more. There is still verification.
    The second part is, when we look at the cargo coming in 
through the National Targeting Center, what is the country of 
origin, what other countries has the cargo been to or was 
passing through, what is the manifest, who is the intended 
receiver, and et cetera? And that gives us a huge ability.
    These new freighters with 15,000, 16,000, 17,000 20-foot 
equivalent containers are pretty amazing. We need to be able to 
drill down into that information, and I think we are doing a 
better job.
    I think America's leadership with other countries on this 
has been helpful. I will be with the World Customs 
Organization. Next week, I will be in Africa on border security 
issues in Kenya and several other countries. They really look 
to the United States for policies, programs, training, and 
equipment that not only make us safer, it makes their countries 
safer.
    Mr. Price. I expect my time has expired. Let me just say, 
though, that I understand that this is quite far along and it 
has been developed in a way that does greatly increase the 
security. We have not, though, ever on this subcommittee gotten 
the kind of response that we expected and needed to these 
requests for you to flesh out the plans going forward.
    And to get past this year-to-year waiver business, there 
may well have to be waivers into the indefinite future, but 
there also needs to be some assurance that we are operating in 
a rational and comprehensive fashion so that we have a plan. 
And maybe your practice is better than the kind of reports we 
have received indicate. I suspect it is in some instances.
    But I do urge you to take those requests seriously. I 
expect they will be repeated in this year's bill.
    Mr. Carter. Thank you, Mr. Price. And a good point.
    Mr. Stewart.

                    AUTOMATED EXPORT SYSTEM: WEAPONS

    Mr. Stewart. Commissioner, thank you. I appreciate your 
many years of service. One of my favorite things to do is go 
back to my district and to ride with some of the law 
enforcement and police officers and see what they do. It is 
very interesting work, but it is difficult work as well. So 
thank you for that.
    You should know that I am from the West. I represent Utah. 
I grew up ranching. Still have the ranch in my family. I was a 
military member. The Second Amendment is something that is 
really quite important to me, as it is for millions of 
Americans.
    I am distressed at times by what I believe is an attempt by 
this administration to suppress or to make more difficult 
Second Amendment rights for Americans. And I have a question 
regarding this, and I would like to begin with this premise: 
That you and I would agree that there are sometimes lawful and 
practical reasons why an American would want to travel 
overseas, travel internationally with a weapon. Could we agree 
on that?
    Mr. Kerlikowske. Yes.
    Mr. Stewart. For example, going on a safari, going to 
Canada to hunt, whatever that might be.
    In the past, this is relatively simple, and I have done 
this. You fill out a form that you are familiar with, a 4457, I 
guess, as I recall, and you had to enter the serial number, and 
it was relatively easy to do.
    But now there is a new protocol which, frankly, makes it 
almost impossible for many Americans, without being deceitful, 
without being dishonest, because now under the new CBP and ICE, 
under the Automated Export System, you have to enter an EIN, 
Employer Identification Number, which maybe you have one. I 
would be surprised if you do. Some people do, but most don't.
    And if you go to the IRS to get an EIN, you have to have a 
reason, and one of them isn't because I want to travel to 
Africa on a safari. They are all dealing with, ``I am creating 
a business, I am hiring an employee,'' something in a business 
structure.
    Tell me why. This makes no sense at all, why we would have 
this new protocol, and it requires people to be dishonest in 
order to do something that is legal and lawful.
    Mr. Kerlikowske. So the chairman brought this up to me when 
I visited with him last Thursday, and then Senator Hoeven asked 
me if I would visit with him yesterday on this. Until the 
chairman brought this up with me, I actually was unaware of the 
new protocol. I was well aware that if you wanted to travel 
into Canada and go hunting, you filled out the form, the 
Customs and Border Protection officer looked at your 
identification, looked at the firearm to see that it matched, 
and then you continued on your way.
    Mr. Stewart. Could I comment on that quickly?
    Mr. Kerlikowske. Sure.
    Mr. Stewart. And that is if you are unaware, you need to go 
back to your folks and say: Why wasn't I? Because there have 
been a lot of people who have been working with your agency for 
a long time now trying to raise this issue.
    Mr. Kerlikowske. So I think that the part of this about, 
one, we have a lot of protocols. We enforce laws for 47 
different Federal agencies. Well over 500 laws, including the 
Department of State. So I would tell you that I am not aware of 
every FDA [Food and Drug Administration] regulation and every 
Consumer Product Safety Commission regulation that our people 
enforce.
    I will tell you that when the chairman brought this up and 
I met with Senator Hoeven yesterday, it made no sense to me to 
continue down this path. By this afternoon we would be changing 
our Web site and our information, and for this interim process 
through the State Department, we would be continuing to take 
the Form 4457 that you mentioned.

                           FIREARMS REGISTRY

    Mr. Stewart. Great. So glad to hear that. And we will 
follow up with you, if we could, to make sure that we have had 
relief on this. It is really important to a lot of folks.
    The second question I have and I think is ancillary to 
this, and that this essentially collects firearm information 
and creates, although through a backdoor, a registry of 
firearms with their identifying numbers on those.
    Do you keep that information, or is that information 
destroyed?
    Mr. Kerlikowske. I actually don't know about that Form 
4457. I think the history had always been that people, whether 
they were taking an expensive camera overseas from the United 
States or a firearm or something else--The purpose of having 
that information is that when you returned Customs would not 
say: Well, you must have purchased that gun or that camera or 
that something else overseas and now you should be declaring it 
or you should be paying a duty on it.
    So I understand some of the reasoning behind expensive 
pieces of equipment. But I will certainly follow up with your 
office on the records and how long they are kept.
    Mr. Stewart. Okay. Thank you.
    Could we agree that if we as American people wanted to 
create a national gun registry, that would be appropriately 
done through Congress in conjunction with the Executive? That 
is a meaningful decision and that that is a congressional 
prerogative?
    Mr. Kerlikowske. I would agree that some type of national 
gun registry, which I think would be probably incredibly 
difficult to ever have, having spent a long time on gun issues, 
is something that would go through Congress.
    Mr. Stewart. Okay. And thank you for that. And that being 
the case, then, you can understand why we would be concerned 
that if this information is collected and if it is kept and 
stored and available, again, it is essentially a backdoor way 
to a gun registry--at least a partial gun registry--and why we 
would be concerned about that.
    So thank you, Commissioner. Once again, we will follow up 
with you on that, and look forward to working with you.
    Thank you, Mr. Chairman.
    Mr. Carter. Thank you, Mr. Stewart.
    By the way, the Commissioner's response was very quick when 
we raised this issue with him last week.
    Thank you, Commissioner. I appreciate your quick response.
    Mr. Kerlikowske. Thank you.
    Mr. Carter. Who is next? Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman.
    And good morning, Commissioner. I want to thank you for 
your outstanding service. I was reading your resume, especially 
in the National Drug Control Policy. I appreciate that very 
much.
    And I want to thank my colleague, Mr. Stewart, for raising 
the issue about the gun registry issue. So just so that I can 
be abundantly clear with my constituents, as of today we are 
getting rid of the EIN and all that other stuff and we are 
going back to the way that it was used to be.
    Mr. Kerlikowske. So what I would make clear is that by this 
afternoon--And some of this of course is on our Web site that 
talks about the EIN. And this provision apparently has been in 
existence for quite some time. We did not enforce that 
particular section.
    So, one, we will post the information that we will continue 
with the process of using the form that the Congressman 
described. But I will be involved in discussions with the 
Department of State and others on that provision that requires 
this because it needs to be reviewed.

             BORDER SECURITY: ILLEGAL ENTRANTS WHO GOT AWAY

    Mr. Fleischmann. Thank you. Thank you very much.
    Commissioner, I also would like to thank you for the state 
of the border briefings your agency has begun providing to this 
subcommittee. This has been an effort to keep us updated on 
your efforts to secure our border.
    One of issues that has come up in these briefings is the 
problem of, quote, unquote, got-aways, or persons crossing the 
border illegally who are not apprehended or turned back into 
Mexico. When we last spoke about this problem, we were not 
given any kind of estimate as to the number of people who have 
gotten away from the Border Patrol personnel.
    Can you please provide us with that information now, as 
well as an update on your efforts to reduce that number, sir?
    Mr. Kerlikowske. I would certainly tell you that the number 
of people who are apprehended is a pretty easy number to 
calculate, whether it is at the border or at a checkpoint or 
something else. The number of people who actually enter the 
country that we could see and we were not able to apprehend is 
certainly a bit more difficult when you are looking at that 
formula. And then the number of people whom a Border Patrol 
agent spots and then sees them turn back. And then there is 
always the question of did they turn back and then reenter the 
country of Mexico, or did they turn back and then use some 
other route to try and get into the country?
    The one, I think, particularly helpful part of all of that 
is that those numbers and those observations come from the 
Border Patrol agents, kind of the boots on the ground. So I 
would tell you that we look at a variety of systems to try and 
figure out and tell people if a border more secure, which I 
think certainly it is more secure than in times past. But it is 
a difficult dynamic. And I would be happy to follow up with 
some more detail.
    [The information follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    Mr. Kerlikowske. But when I was a police chief, people 
would ask: Is Seattle a safe city? And I would say: Well, gee, 
how do you you know? Is it a safe city because we have a lot of 
police officers, because the crime is lower, because we have 
made more arrests? What is your definition of a safe city? I 
think I run into the same problem when somebody says: What is a 
secure border?

                      BIOMETRIC ENTRY/EXIT PROGRAM

    Mr. Fleischmann. Thank you, sir.
    I have got one last question. I would like to inquire about 
the status of your work to establish a biometric entry/exit 
program to track foreign nationals entering and leaving the 
United States, and more importantly, identify individuals who 
have overstayed their visas and remain in the country 
illegally. This capability is critical to ensuring our Nation's 
security.
    What progress specifically is being made to develop an 
implementation plan for the establishment of this system, and 
when can this subcommittee expect to see a report on that 
progress, sir?
    Mr. Kerlikowske. And I would certainly invite you to visit. 
We, along with our Science and Technology part of the 
Department of Homeland Security, have a mock airport entryway 
that has been built out in Maryland to try and identify what 
would be the best biometric.
    Now, there are lots of ways to leave this country. You can 
walk out of the country, you can drive out, et cetera. So if 
you are a foreign national and you are leaving the country 
through Canada, Canada provides us that information as that 
person enters. So that is helpful.
    But the other part is that none of our airports were built 
with an infrastructure in mind to have the same type of exit 
that we have when you come into the country and go through 
customs. So we have to look at what would be a biometric 
system.
    Airlines say that they would like to have 10 seconds per 
passenger in order to board a plane. Finding a technology that 
also can operate within that 10-second timeframe is darn hard. 
And the last thing we want to do is stack up airlines any more 
with people waiting to get on a plane, as I think you have all 
experienced.
    So we are working closely. The airlines are great partners. 
There is a lot of new technology (passive iris scanning, facial 
recognition types of things), and I would be happy to show you 
some of that technology and try and figure out how we can do 
that.
    Mr. Fleischmann. Thank you, Commissioner.
    Mr. Chairman, I yield back, sir.
    Mr. Carter. Mr. Culberson.

               BORDER SECURITY: SOUTHERN BORDER CROSSINGS

    Mr. Culberson. Thank you, Mr. Chairman.
    Commissioner, thank you for your service to the country all 
these many years. You have been a dedicated law enforcement 
officer, and appreciate all the good work you have done.
    In just ballpark estimates, how about people do you 
estimate cross the southern border, for example, between San 
Diego and Brownsville in a month? Just ballpark.
    Mr. Kerlikowske. I couldn't even--I mean, I know our 
numbers of apprehensions on the southern border and the number 
of people, but the number of people entering the country, we 
have about a million people enter in through our ports of entry 
per day in this country. We have lots of data and statistics.
    Mr. Culberson. Right. But just a kind of ballpark estimate 
based on your long experience, what would you estimate, every 
30 days, how many people cross?
    Mr. Kerlikowske. A lot.
    Mr. Culberson. Of those that cross, thinking of them as, 
say, out of every 100 that cross, for example, how many, out of 
every 100, again, just ballpark estimate based on your long 
experience--I have been on this wonderful subcommittee for 
years, we have worked together for years on this, I know how 
dedicated you are to this, but, again, just to try to get a 
handle on it--every 100 that cross, how many do you think that 
are actually detected, either visually or in some other way, by 
the Border Patrol?
    Mr. Kerlikowske. So, I mean, I think that when it comes to 
illegal crossings, Pew and others have really worked pretty 
hard to determine or to come up with a number of about 11 
million people in the country that are here illegally, and that 
is over a period of years.
    I think that the Border Patrol works pretty hard to measure 
what it calls its effectiveness rate in apprehensions. So 
rather than try and provide you a number, I would tell you that 
that long experience tells me, and having done the Southwest 
Border Counternarcotics Strategy and been the author of three 
of those during the time that I was at ONDCP [the Office of 
National Drug Control Policy], that the technological resources 
and the boots on the ground and the eyes in the air along the 
southwest border today are far greater than ever before.
    And my old friends and colleagues who are sheriffs and 
police chiefs in El Paso and San Diego and others, many inland 
cities would be quite happy to have the low crime rate that 
those cities happen to have.
    Mr. Culberson. So out of every 10 that cross, you think the 
Border Patrol is detecting 3, 4, 5?
    Mr. Kerlikowske. I am really hesitant to give you that 
number, but I am also more than willing to have a further 
discussion and to bring some of the Border Patrol experts with 
me to sit down with you or your staff.

                         APPREHENSIONS: NUMBERS

    Mr. Culberson. Of those that are detected, how many 
actually have an encounter with a Border Patrol official?
    Mr. Kerlikowske. The illegal apprehensions that a Border 
Patrol agent sees and can actually apprehend, they all have a 
direct encounter with that agent.
    Mr. Culberson. Three out of 10, do you think, have an 
interaction of some kind?
    Mr. Kerlikowske. If it is any person who is being detained 
or been apprehended, unless they escape, and we do have some of 
that--unless they escape, they do have a direct encounter with 
a Border Patrol agent.
    Mr. Culberson. Right.
    Mr. Kerlikowske. The numbers of those whom they actually 
would see who then disappear back into Mexico, we see those 
reports. I see those reports every single day in which there 
has been an incursion, which we have apprehended somebody----
    Mr. Culberson. Sure.
    Mr. Kerlikowske [continuing]. And three others got away.
    Mr. Culberson. Yeah. What I am driving at is, if your 
agents encounter somebody at the border, they have an 
opportunity to either speak to them, touch them, be able to 
interact with them, is what I am talking about, 3, 4 out of 10 
that cross?
    Mr. Kerlikowske. Again, I am hesitant----
    Mr. Culberson. Hard to say.
    Mr. Kerlikowske [continuing]. Hesitant to give you that.
    Mr. Culberson. How many do you think are actually taken 
into custody out of every 10 that cross, 3 out of 10?
    Mr. Kerlikowske. Again, I would probably defer back to that 
first answer of dodging your question.
    Mr. Culberson. Okay. Of those that are apprehended, how 
many of those that you apprehend are actually taken into 
custody?
    Mr. Kerlikowske. Every one. If an agent can put his or her 
hands on them or take them into custody, they are detained. 
They are brought to a Border Patrol station, which actually has 
lockup facilities, and then they are eventually transferred to 
Immigration and Customs Enforcement. So they do have hands on.
    Mr. Culberson. A hundred percent of the individuals that 
cross illegally who are actually touched by an agent, 
apprehended, are processed and taken down to a facility?
    Mr. Kerlikowske. Yes, sir.

                               BED SPACE

    Mr. Culberson. Have you ever had an agent request for bed 
space been denied by ICE?
    Mr. Kerlikowske. Not that I know of. The working 
relationship with Director Saldana and Immigration and Customs 
Enforcement is very good. They run the detention facilities, 
either themselves or with other personnel. The new detention 
facility in Dilley, Texas, I think has bed space for over 2,000 
people. And I would know, especially on the unaccompanied 
children, in a report that I get twice per week--I would know 
if they ran out of bed space and we didn't have some place to 
put them. And I haven't heard any complaint at all this year.
    Mr. Culberson. So they have been able to handle everybody 
you have asked them to take?
    Mr. Kerlikowske. They take. Everybody whom we have asked 
them to take they take.

                           NOTICES TO APPEAR

    Mr. Culberson. How many individuals that are apprehended by 
the officers at the border are given a--what is that form you 
sign says: I agree to appear later.
    Mr. Kerlikowske. Notice to appear.
    Mr. Culberson. Yeah, NOTAMs.
    Mr. Kerlikowske. Right. So we have notices to appear for 
people. We actually work through Immigration and Customs 
Enforcement, ICE, to do the notice to appear. But we work with 
them because there are protocols. If somebody has a location 
that they are going to be and they can appear, they can be 
given that notice to appear. And I don't have that number.
    Mr. Culberson. Sure. But, I mean, at the time of the 
initial apprehension when the officer picks them up--
    Mr. Kerlikowske. They get processed first.
    Mr. Culberson. They get processed first.
    Mr. Kerlikowske. So you would get brought to the Border 
Patrol station. We want all of those biometrics. So we want 
those fingerprints, we want that photograph, and we want that 
information before a notice to appear would ever be issued.
    Mr. Culberson. Okay. And then the individuals that are 
given a notice to appear then, you have got folks that are 
given a notice to appear, and others, for example, are taken to 
be returned to Mexico and other sectors of the border?
    Mr. Kerlikowske. They can be returned to another or to be--
--
    Mr. Culberson. In other sectors or in that sector?
    Mr. Kerlikowske. I think one of the goals has been, 
particularly if it is individuals who have been--and we look at 
recidivism. Has this person entered the country before and been 
apprehended? We want to return them to some part of Mexico that 
wasn't the place that they entered into the United States from 
so that it is further away, and we believe that that disruption 
is helpful.
    Mr. Culberson. Okay. I just want to confirm, then, so what 
you are saying is that if I go talk to any of the sectors up 
and down the border between Brownsville and San Diego, 100 
percent of the individuals actually touched by an officer on 
the border are taken into custody.
    Mr. Kerlikowske. I would tell you----
    Mr. Culberson. Processed.
    Mr. Kerlikowske [continuing]. That they are processed 
because----
    Mr. Culberson. Hundred percent.
    Mr. Kerlikowske [continuing]. We need and want those 
biometrics.
    Mr. Culberson. Okay.
    Mr. Kerlikowske. Right.
    Mr. Culberson. Thank you.
    Mr. Kerlikowske. Okay.
    Mr. Culberson. Thank you, Mr. Chairman.

                     FUNDING REQUESTS, PRIORITIZING

    Mr. Carter. It is back to me. We are going to try a quick 
second round.
    Well, we are back to the money, Commissioner. We talked 
about this earlier. The 2016 budget request is over $850 
million higher than the enacted level, given the limits of the 
nondefense discretionary spending imposed by the Budget Control 
Act. It is likely that the request will have to be cut and 
proposed increases will have to be prioritized. You understand 
that. We talked about it earlier.
    What part of the $850 million are must-fund items and which 
can be delayed? And can you prioritize your funding requests?
    Mr. Kerlikowske. So I would tell you that our people, our 
personnel. Even though the technology is incredibly important, 
funding the personnel whom we have and continuing on, because 
it is a labor-intensive business, that is particularly helpful.
    The second part is the technology that needs to be improved 
upon, particularly at ports of entry, is very important to us. 
And I would assure you and certainly assure the committee staff 
that as you work through this budget process, we will be happy 
to prioritize and give you the information. But people and 
technology.
    Mr. Carter. That brings up a question we talked about 
earlier, the fact that we probably are not going to spend the 
money from last year, we are not going to reach that 2,000 
number that we estimated. A lot of people tell me they are.
    And we talked about how we don't want to build up slush 
funds. I asked you how leftover appropriated money might be 
spent and you said on technology and the people first, and I 
agree with that 100 percent. People are the priority of law 
enforcement, period, and technology is important.
    When you make a budget request to use that money for other 
things, is this committee informed that you are making requests 
to spend that money in other ways than people when we bump up 
against September?
    Mr. Kerlikowske. If the money is within, for instance, the 
Border Patrol, and the Border Patrol is going to spend it on 
technology that will help in securing the border, I believe 
that the committee is provided information. I don't think there 
is a permission system because it is within the Border Patrol's 
budget. If we wanted to use any of that money to spend on UAS 
[unmanned aerial system] or air and marine, that would require 
a reprogramming, and the committee would not only be informed, 
but the permission would have to be granted.
    But, I mean, last year the Border Patrol spent on those 
kids about $16 million or $17 million on contracts for food and 
transportation and healthcare stuff. In turn, they purchased, 
the Border Patrol purchased better technology. And then we know 
that the money going forward to hire and screen and pay those 
polygraph examiners, because we are going to get to the goal of 
having all of these people onboard. We have got great 
applicants. We have got a lot of young people. We have got a 
lot of veterans. I can assure you that I will get them onboard.
    Mr. Carter. As you can see, in the good times we don't have 
to pinch pennies. But right now with the system we are 
operating under, we have intelligent discussions about this. 
They go on forever. But the reality is, you have to play under 
the rules you are given. That is the way the game has to be 
played.
    A concern that I have more and more is we don't want to 
wake up and find that we are double paying for things. You need 
technology, you have a technology column and you have a people 
column. I don't see any objection to when you are bumping up 
against deadlines you fund the technology needs.
    But if we are trying to fund both, as an intelligent 
committee getting an idea of our resources, then information 
provided to us as to how that money would be spent seems to be 
a good thing.
    Mr. Kerlikowske. Yes, sir.

                      PRECLEARANCE: NEW LOCATIONS

    Mr. Carter. Maybe that is asking too much, but I would hope 
it is not. I would like to know, as you make those changes, 
where our money is going so we can better plan for the next 
year, when we have to do this kind of prioritizing. Hopefully, 
life will get better sometime.
    Second question, something we have some new information on. 
We have some preclearance operations, the one we put in 
initially at Abu Dhabi, and we signed an upgraded agreement, 
recently, with Canada.
    Can you discuss the Department's current negotiations with 
interested foreign airports and the timeframe for new 
preclearance operation locations? How does the Department plan 
to pay for construction and staffing of new locations? Will 
there be cost-sharing agreements with foreign entities? And do 
you expect the U.S. airports to lose CBP officers, staffing, to 
new preclearance locations? And, finally, how is the newly 
signed agreement with Canada different from the previous?
    Mr. Kerlikowske. So Secretary Johnson has made the 
preclearance issue, because we work in conjunction also with 
TSA [Transportation Security Administration], an important 
issue. Certainly from a security standpoint, I think already in 
Abu Dhabi with a year into this, there have been literally 
hundreds of people whom we have recommended to the airline that 
they be denied boarding, because if they did arrive in the 
United States, they would not be considered admissible.
    From a security standpoint, having people never get on that 
airplane who shouldn't come here is a good thing. From the 
airline standpoint, they see it as a good thing too because 
they don't have to turn around and fill that seat with somebody 
going back that they are required to do.
    We have had letters of interest from over 25 airports 
around the world that believe that preclearance would be 
something that they would like to discuss further. That number 
is being prioritized downward to those that have the 
infrastructure, those that are most interested, and where it 
could be most helpful to the United States.
    So the preclearance issue I think is really a great step 
forward on security. It is also a great step forward that when 
people land at Dulles or JFK, they don't get in line. They 
don't clog up the Customs line. They just pick up their bag and 
go.
    The last thing, and you are aware of this too from the 
public-private partnerships and the work we are doing with 
Southwest Airlines and others. Those countries in which we have 
preclearance agreements pay 85 percent of the salary and 
benefits of our people who are there. So whether it is in Abu 
Dhabi or Ireland or Aruba, et cetera--not bad places, I guess, 
to work--they are being paid. So we don't supplant anybody. 
This is over and above.
    Mr. Carter. Out of curiosity, I would be interested in that 
list of people that have applied. Because, one of the questions 
that came up from the carriers were when we made an agreement 
with Abu Dhabi there weren't a lot of U.S. Carriers flying to 
Abu Dhabi. My guess was that we would quickly hear from 
European ports and others that would say: Put us on that list, 
we are interested.
    Mr. Kerlikowske. And you will also quickly hear, and I am 
sure many staff have, from the airlines, the large United 
States airlines, that the places we are discussing with all 
have American flag carriers.
    Mr. Carter. And that was the big issue. Thank you.
    Ms. Roybal-Allard.

                      BORDER SECURITY: DEFINITION

    Ms. Roybal-Allard. Before I ask my question, I want to make 
two points. One is that the cost of purchasing technology, it 
doesn't end there. We also have to factor in the maintenance 
cost for that technology that is purchased, which I understand, 
particularly if it is older technology that we get from DOD, is 
often very, very costly.
    The other point I would like to clarify is with regards to 
the unaccompanied Mexican children. My question had to do with 
whether or not CBP is following the requirements of U.S. law to 
determine when these children should be returned. My colleague 
Henry Cuellar mentioned the fact that we often work with the 
Mexican consulate in returning these children, and I just want 
to point out that I think that is wonderful, but it is not a 
requirement of the law. It is something that is voluntary.
    The question I have goes back to something that I mentioned 
during my opening statement, and it has to do with the 
definition of border security. In the simplest possible terms, 
and with the understanding that the border can be dynamic, can 
you describe the realistic end state capability that you 
envisioned for border security and how long you expect that it 
will take to achieve it?
    Mr. Kerlikowske. One, I would tell you that going down to 
the border and spending a lot of time there, it is very helpful 
to get the feedback from trusted friends and colleagues whom I 
have worked with in law enforcement across that entire 
southwest border. So whether it was the former chief in 
Brownsville or whether it is the sheriff in El Paso or others, 
they give me a very realistic viewpoint of border security.
    On top of that, we have lots and lots of technology and 
lots of metrics that the Border Patrol uses to look at what 
would be a secure border. A border that has lower risk? A 
border in which we use that technology, for instance, to take a 
look at where people are crossing?
    I mean, as you well know, there are some very rugged parts 
of that border. And, actually, when we look to see if there are 
footprints or some attempt at tire tracks or discarded clothing 
or any of those kinds of things, and you realize that if you 
look at it day after day after day after day and you don't see 
any attempt or any information about somebody crossing, that 
gives the Border Patrol the opportunity to put their resources 
where it is more useful.
    I think the general feeling from ranchers and others is 
that places like San Diego, El Paso, et cetera, that the 
resources that are there from the Border Patrol have made a 
significant difference. The concern is in some of the more 
rural parts, and that is where the technology is, and the 
fencing, the fencing being put only in certain locations. All 
of those things.
    I would be hesitant to tell you what I see. I see a much 
more secure and safe border now as a result of all of these 
things, including the support of Congress. But I would be 
hesitant to tell you what is going to happen. I mean, when we 
saw those kids last summer, people said: You have got a real 
border security issue. I didn't see it as a border security 
issue. I saw it as a border management issue. I mean, as you 
know, they came across and looked for someone in a green 
uniform. It wasn't somebody we were chasing through the cane 
fields.

                    CRIMINAL MISCONDUCT ALLEGATIONS

    Ms. Roybal-Allard. Last September, Secretary Johnson 
delegated to CBP the authority to investigate allegations of 
criminal misconduct by CBP personnel because, as you know, 
there have been frustrations in the past that such allegations 
have not resulted in serious investigations or consequences.
    Can you tell us what the status is of transitioning to this 
new authority, and how do you think the new authority will 
change the way allegations of criminal misconduct are treated?
    Mr. Kerlikowske. Well, I think the criminal misconduct 
issue has been, as we go back a number of Commissioners, and at 
the time that Customs and Border Protection was actually 
created--existing investigators, even though they were 
experienced and knowledgeable, were transferred to Immigration 
and Customs Enforcement. And therefore at first there was 
absolutely no or very limited internal affairs. Commissioner 
Basham later was able to get more people. But it had been 
turned down by other Secretaries.
    So when I went to Secretary Johnson and said when I ran a 
police department I had internal affairs and I could be held 
very directly accountable for the levels of misconduct and 
corruption within the Seattle Police Department. Not having 
that authority and not having those resources was a significant 
concern to me. He agreed with me and authorized, and we have 
just now issued certification to, well over 100 internal 
affairs investigators to have criminal law enforcement 
authority. And we are continuing.
    And we are very fortunate to have an advisory panel headed 
by Commissioner Bratton at the NYPD [New York City Police 
Department] and the former DEA [Drug Enforcement 
Administration] Administrator, Karen Tandy, and a number of 
others to give us advice on what else we should be doing.
    I think we will be moving forward. Certainly the 100-plus 
that we have now is not going to be adequate for a workforce of 
60,000. And as we work through this budget issue--and I know 
that the corruption issue is important to you--as we work 
through this budget issue, I would very much like to have some 
flexibility to be able the use some of our existing personnel 
in Customs and Border Protection and some of our Border Patrol 
agents who are knowledgeable, experienced investigators, to be 
able to move them into those anticorruption, misconduct 
investigating positions.
    Ms. Roybal-Allard. Also the fiscal year 2015 House report 
directed CBP to provide regular updates on its transition under 
this new authority. When can we expect the first of those 
updates?
    Mr. Kerlikowske. I know that we had committed to, I think, 
quarterly updates on how this is progressing, the number of 
people whom we are bringing forward, I think. And I have seen a 
number of reports that are as close to being ready to release 
and to discuss with your staff as possible. So I would love to 
give you the particular date that those things are due.
    But as I think and I hope that all of you and your staffs 
know, that any particular request, particularly when it comes 
to--I just can't think of a time in which law enforcement is 
under more scrutiny in this country at every level. It is 
important that we keep you informed.

                           BODY-WORN CAMERAS

    Ms. Roybal-Allard. Let me just ask one more question, and 
that has to do with the findings of the evaluation of body-worn 
cameras by the Border Patrol.
    Could you just tell us what the current status is of CBP's 
evaluation of the body-worn cameras and how the evaluation is 
going? And when do you anticipate it to be completed?
    Mr. Kerlikowske. So we purchased a number of body-worn 
cameras and then took them to New Mexico to the training center 
and let the people going through Border Patrol training try 
them out and experience them, and then to actually see what 
works and what doesn't work.
    The second phase that we are in now is to move them to the 
field. Unlike a city police department, the environment that 
the Border Patrol agents work in is pretty rugged. So whether 
it is International Falls in Minnesota or Blaine in Washington 
State or Arizona or the Rio Grande Valley, these cameras have 
to have a level of technology that can be used in those really 
difficult environments. They are being tested in the field 
right now in these different locations.
    Ms. Roybal-Allard. Okay. Thank you.
    Mr. Carter. Thank you, Ms. Roybal-Allard.
    Just a quick aside comment on these body cameras, which I 
understand why the public is wanting them and looking at them. 
But from a standpoint of criminal justice system, it is going 
to create a chain of evidence situation that is going to be 
extremely expensive, because once that camera turns on, that is 
evidence that is available to the defense and the prosecution 
as to what happened at the scene of an incident.
    The denying of that information to a defense attorney could 
probably end up in a reversal of a case. Therefore, that is 
going to have to be kept in the same chain of evidence which 
all evidence that is accumulated by any officer. If you put a 
camera on every police officer, every border patrolman, 
everybody that enforces the law in the United States, there is 
going to be a gigantic volume film library. Even digitalized, 
it is going to be extremely expensive. We are talking trillions 
of potential dollars in the United States every year.
    I don't think anybody is talking about that, but some of us 
that have to sit through that chain of evidence testimony in 
the courtroom know that that is going to come down the line. I 
think as we think about all this, and I know the good we are 
trying to do, under our particular set of criminal laws and how 
we operate is going to be a big accumulation of information 
that is going to have to be stored someplace. Nobody has been 
talking about that, but I meant to mention that to lots of 
people because it is going to be very costly to store.
    Mr. Culberson.

                         APPREHENSIONS: PROCESS

    Mr. Culberson. You are bringing it up at the right time, 
Mr. Chairman. The CJS Subcommittee that I got the privilege of 
chairing, the White House has already asked about body cameras. 
And we getting requests from, of course, all over the country 
for body cameras.
    And I asked the White House, if they would, to make the 
request in the form of--let state law control, when, where, how 
it is used and how the data is stored, and that the Federal 
Government will only be responsible for paying for the 
equipment itself and not the storage, for the exact problem you 
just mentioned, because of the cost. I can't even imagine how 
much data and how many servers and how much that cost is going 
to be. Just incalculable.
    And they agreed to do so, which I appreciate. So you will 
shortly be seeing, I imagine, a press release from the White 
House saying that they have asked to create a body camera 
program that will follow those guidelines that I asked them to 
do, and I appreciate that very much, that the Department of 
Justice would follow our recommendation.
    And that is that, again, the state law controls. So it will 
be when you are in a state, district judge or state 
authorities. The State legislature, in fact, in Texas right now 
is designing standards for when, where, and how those body 
cameras are to be used and how the datais going to be handled. 
But the Federal money will only go to actually buy the camera 
and not the data storage, not the service itself, because 
otherwise it would just eat us up.
    And it will be in the form of a pilot program. But state 
law will control when it comes to those state officers.
    Now, of course, Federal agents, obviously, that will be 
under Federal, that will be our responsibility at the Federal 
level. But as tight as money is, that is going to eat us up, 
the cost of those servers and the data storage and who gets 
access.
    But if I could very quickly, Commissioner, to follow up on 
the questions I asked earlier--and I thank you for the time, 
Mr. Chairman--in my experience, I know in the judge's 
experience, I am not aware that 100 percent of the people 
intercepted by Border Patrol agents are processed. I am looking 
forward to going down to the border and confirming that now you 
have changed that.
    So 100 percent of the people stopped by the Border Patrol, 
touched by an officer, are taken down to be processed. If that 
is the case, then, those 100 percent that are taken down to be 
processed, when they are processed, what happens to them, out 
of every 10?
    Mr. Kerlikowske. So they are processed as far as the 
biometrics. So fingerprints, photographs----
    Mr. Culberson. Hundred percent of them are fingerprinted. 
Ten-printed.
    Mr. Kerlikowske. Yeah. They are ten-printed. When they get 
apprehended and placed into custody and brought to that Border 
Patrol station----
    Mr. Culberson. Okay.
    Mr. Kerlikowske [continuing]. All of those biometrics. So 
that history, any identification, debriefing. We want to know 
who was the smuggler involved. I mean, sometimes they are more 
than willing to tell us. How did you get into the country? 
Those kinds of questions are asked, along with that biometric, 
facial, et cetera.
    Then the decision is made as to whether or not they will be 
given that notice to appear, working in conjunction with ICE, 
or whether they will be detained or whether they will be sent 
back home.
    Mr. Culberson. And out of every 10, what percentage, 3 out 
of 10 sent back, 4 out of 10 returned?
    Mr. Kerlikowske. They go to Immigration and Customs 
Enforcement after that. Immigration and Customs Enforcement 
would be the party that would provide that information.
    Mr. Culberson. No, I mean, just out of curiosity, at a 
ballpark figure.
    Mr. Kerlikowske. Right.
    Mr. Culberson. I am not asking you for hard and fast, but 
just based on your own experience and interaction with the 
officers and the sector chiefs, as you were just discussing, 3 
out of 10, 4 out of 10 are sent back in another sector?
    Mr. Kerlikowske. When we return them back to Mexico, as we 
have discussed--When we return them back to Mexico, we attempt 
to turn them back at some place other than the place where they 
crossed.
    Mr. Culberson. Right. What percentage are returned?
    Mr. Kerlikowske. And I don't know that percentage.
    Mr. Culberson. Okay.
    Mr. Kerlikowske. I don't.
    Mr. Culberson. What percentage are sent to ICE?
    Mr. Kerlikowske. We work with ICE, whether it is through a 
notice to appear or whether it is to be remanded to custody at 
an ICE detention facility. So ICE is the keeper of the 
detention facility after we have process them. So that is what 
happens.
    Mr. Culberson. I appreciate your dilemma. You are a 
professional. You have served this country very, very well for 
many, many years. I understand your dilemma.
    It is just something we have each got to personally bird 
dog, Mr. Chairman, down on the border.
    Mr. Kerlikowske. Thanks.
    Mr. Carter. You through?
    Mr. Culberson. Yeah. Very frustrating.
    Mr. Carter. Mr. Price.

                     PRECLEARANCE: SECURITY ASPECTS

    Mr. Price. Thank you, Mr. Chairman.
    Commissioner, the chairman raised a number of questions I 
intended to raise about the preclearance operations for 
passengers at overseas airports.
    Let me just ask you, though, to the extent you can in an 
unclassified session, reflect on the security aspects of this. 
The most obvious measurement is the one you hinted at, the 
number of people apprehended who wouldn't be admissible. Is 
that a factor at other airports besides Abu Dhabi? To what 
extent has that been an experience more widely? Of course, the 
other preclearance points are in very diverse areas. And what 
else would you say about the security aspect of this?
    Mr. Kerlikowske. We have had preclearance in Canada for 
many, many years, and in other places. Those countries--I need 
to make sure, because I received this note--I need to make 
sure, they don't pay 85 percent of the salary and benefits. It 
is only the new ones coming online, for example, Abu Dhabi. And 
any new preclearance agreement they would continue to pay.
    So I think that the dual security issue that is most 
helpful about preclearance is, one, there is a TSA 
representative also at that location. And so that person 
getting ready to board that flight goes through a TSA-like 
screening or analogous screening to what they would do if they 
were boarding a flight in the United States.
    The second thing is, then they go through the customs 
system in the United States even though they are overseas. That 
information is run against a variety of databases that would 
lead to us making a determination as to whether or not we 
should tell that airline that if that person was to arrive in 
the United States, they would not be deemed admissible. The 
airline then has to make a decision, of course, as to whether 
or not to board them.
    I think that that is an incredibly effective screening. It 
is pushing the borders out.
    Mr. Price. And it also relieves the enforcement and 
probably the congestion burden at the U.S. end to the extent 
these problems are caught early and don't become a problem then 
at our border.
    Mr. Kerlikowske. And when the person arrives, of course, 
they pick up their luggage and go, just as if they were on a 
domestic airline.
    You know, the biggest complaint lately is when the people 
are waiting. They have already cleared customs, but they are 
waiting too long to get their baggage. But that is an airline 
issue.

                   SEQUESTRATION CONTINGENCY PLANNING

    Mr. Price. Let me ask you to reflect on the sequestration 
experience and the ways we might avoid repeating that.
    We are dealing in Appropriations subcommittees, all of 
them, with a degree of uncertainty this year as to what our 
ultimate allocation levels are going to be. We are initially, 
unfortunately, constrained to mark up to sequestration levels. 
That affects this subcommittee less than some others, given the 
allocations approved by the committee yesterday. But, 
nonetheless, it is constraining. And then we can hope for a 
budget agreement that prevents sequestration coming into 
effect.
    So it is uncertain at what level you might have to deal 
with this, at what point and to what degree you might have to 
deal with this. But I know it was a problem before for CBP with 
planning for more than $700 million in reductions, reducing 
travel, training expenses, facilities upkeep, and so on, 
anticipating furloughs. So we hope to avoid this.
    On the other hand, we are still talking about funding 
levels that are keyed to the unfortunate realities of the 
Budget Control Act and the fact that as a sign of the failure 
to address the real drivers of the deficit, namely tax 
expenditures and mandatory spending, as a result of that 
failure we are dealing with repeated reductions in appropriated 
spending and the reality of sequestration one way or another. 
Either we encounter the direct reality or we bake it into our 
appropriations numbers.
    Anyway, I wonder if you could reflect on that and what kind 
of preparations, contingency planning it requires you to 
undertake at this point.
    Mr. Kerlikowske. When I came into this job, I certainly--
and during the confirmation process--I knew the issues around 
security pretty well. Of course, you know that we are the 
second-largest revenue collector for the United States 
government after the IRS [Internal Revenue Service], and we 
have this huge economic footprint for trade and travel. 
Repeatedly, all of the groups that have talked to me from the 
private sector said: The one thing that we really need from CBP 
is consistency and predictability.
    And of course we need that when it comes to a budget also. 
Some of our budget folks are sitting in the back. The amount of 
time and effort that is spent in preparing directives and 
memorandums and contingency planning for whether or not we will 
have a shutdown to whether or not we are going to have adequate 
resources is a huge amount of time, and I think that that 
creates some difficulties for us.
    You know, I have lived, being a police chief, with city 
councils and mayors, and this is the budget; this is how you 
need to work within the chief financial constraints of that 
particular city. But it is that lack of predictability and 
understanding that, one, costs us a lot of time and planning; 
and, two, makes our relationship with the people that drive the 
economy of this Nation, the private-sector businesses, it makes 
our relationship a bit more difficult.
    We have a federally advised committee, a federally approved 
advisory committee, some of the largest companies in the United 
States. And I meet with them four times per year, and I will 
have breakfast with them tomorrow. So traders, shippers, 
importers, exporters, on and on and on. These are important 
issues to them, and I know they are important issues to 
certainly the members of this subcommittee.
    Mr. Price. Thank you.
    Thank you, Mr. Chairman.
    Mr. Carter. Well, we are about to the last hour. I know 
that Lucille has one additional question she will ask, and I 
will recognize her for it.

                       COUNTER-NETWORK OPERATIONS

    Ms. Roybal-Allard. As I mentioned earlier, I was able to 
visit CBP's National Targeting Center a few weeks ago where I 
had a very good briefing with the Deputy Commissioner and the 
NTC staff. And I just want you to know that I was very, very 
impressed by what I saw and by NTC's capability to manage risk 
in both the passenger and the cargo environments.
    Related to the NTC, we provided $4.5 million in the fiscal 
year 2015 bill to help CBP establish a counter-network 
operations capability. Understanding that there may be limits 
as to how much you can say in an open hearing, what can you 
tell us about how CBP is using these funds? And also with 
regards to the fiscal year 2016 budget request for $14.7 
million for NTC's counter-network capability, how would these 
additional funds be used to further develop counter-network 
operations?
    Mr. Kerlikowske. The feedback from our people at the 
targeting center is that they were unbelievably appreciative of 
your visit and your willingness to learn and understand what 
they were doing. And the targeting center for passengers and 
cargo has been in existence for awhile, but we really didn't 
have that comprehensive look at the use of a targeting center 
with multiple agencies to go after smuggling networks. So we 
can arrest the same 15- or 16-year-old 18 or 20 or more times 
for smuggling human beings across the border in Mexico, but the 
key is not to go after that 16-year-old who is doing it. The 
key is to go after that network.
    And so whether it is people like, well, General McChrystal 
and Lieutenant General Flynn when they determined in order to 
break a network, you have to counter a network; all of this is 
based upon then technology and information. So being able to 
transmit information to our Federal counterparts and not have 
to do it on a phone call, but rather to do it, one, 
instantaneously and through a pipe, those are the kinds of 
things that that money is being spent on.
    There are also some really good private-sector 
organizations that have been dealing with this and have been 
giving us some of this information. All of this I think really 
will go to support the Secretary's Southern Border and 
Approaches campaign, which is to knit together the Coast Guard, 
ICE, and CBP to go after the networks and to break the backs of 
these smuggling chains.

                MIGRANT DEATHS: REDUCING AND PREVENTING

    Ms. Roybal-Allard. Thank you.
    Also the fiscal year 2015 report emphasized the importance 
of reducing and preventing the deaths of migrants crossing the 
southwest border in remote and inhospitable areas.
    Have advancements in situational awareness in the 
geospatial intelligence areas of the border also improved your 
ability to detect those in distress in order to more quickly 
provide assistance? And is the Border Patrol working with civil 
society organizations to help reduce migrant deaths?
    Mr. Kerlikowske. I have been at a number of those meetings 
with the Border Patrol and those nongovernmental organizations 
[NGOs] that provide the beacons or the alerts. I have met with 
a number and actually got to recognize and appreciate the work 
that our Border Patrol rescue people do, BORSTAR [Border 
Patrol's Search, Trauma, and Rescue]. They are tremendously 
helpful, the number of rescues and people. There are not more 
than 4 or 5 hours that go by that I don't get some message on a 
BlackBerry about the work that they are doing. And I meet 
regularly with these nongovernmental organizations.
    Crossing that border is incredibly dangerous. We have to 
get that message out repeatedly in a variety of ways. But 
people are still going to come to this country the same way and 
for the same reasons that lots of other people want to come to 
the country: Safety and security and economics and education 
opportunities for their children. And so they are going to make 
that dangerous journey. There shouldn't be a death penalty 
involved in attempting to make that journey, and the Border 
Patrol agents and the NGOs and the people whom I know and I 
have worked with are just as committed to saving life as to us 
enforcing the law.
    Ms. Roybal-Allard. Okay. Thank you.
    Mr. Kerlikowske. Thank you.

                            UNITY OF EFFORT

    Mr. Carter. We have run out of time, but the Unity of 
Effort that Secretary Johnson proposed in 2014, is something I 
had a conversation with him about early on when he came 
onboard, and I support it wholeheartedly. I think it is a great 
use of resources. And I am assuming that CBP fits right in the 
middle of that package.
    Mr. Kerlikowske. That joint task force between Texas and 
California is headed by Robert Harris from the Border Patrol.
    Mr. Carter. Cutting through all these other questions as 
you look forward on this stuff, because I think it is going to 
be a good utilization of resources, I have always wondered why 
you only have limited resources? When you have a surge coming 
and you really need more planes, if there is a Coast Guard 
station right down the road, why can't they send you some folks 
up there to help you? We are all part of one Department. And, 
so, I am very supportive of this.
    As you look down the road and then move along, what other 
spending issues might be coming up, when working with joint 
task forces, that come to your mind. Share that information 
with us, because we are going to be looking down the road at 
this joint task force work that is going to happen. I am sure 
there is going to be some costs involved. Some of them will be 
shared between the agencies, but some of it we will have to 
come up with. And so we would like to have your ideas because 
you are an important part of our decisionmaking.
    That is all. Thank you very much. This has been a very good 
hearing, and we have enjoyed being with you. We will adjourn 
this one and get ready for the next one.
    Mr. Kerlikowske. Thank you, Chairman.
    Mr. Carter. Thank you.

    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 23, 2015.

                  FEDERAL EMERGENCY MANAGEMENT AGENCY

                                WITNESS

HON. W. CRAIG FUGATE, ADMINISTRATOR, FEDERAL EMERGENCY MANAGEMENT 
    AGENCY
    Mr. Carter. All right. We are a little late getting 
started, but we kind of ran over a little early. We will try to 
move along a little faster. I call this hearing to order. 
Welcome, Administrator Fugate, to talk to us today to discuss 
the fiscal year 2016 FEMA budget requests, and, Administrator, 
thank you for being here. And thank you for visiting with me 
the other day. I appreciate that, and looking forward to 
hearing from you.
    FEMA has, as you know, a very important mission. You 
support our citizens and first responders in their greatest 
time of need. You build capabilities in order to prepare for, 
protect against, respond to, and recover from a wide variety of 
threats and hazards.
    Since 1979, FEMA has had a single vision: A Nation 
prepared. Administrator, you do that extremely well. We 
appreciate that.
    In 2014, FEMA responded to 45 major disaster declarations. 
This number is down from 62 in 2013. The high water mark was 99 
in 2011. However, there is also a significant amount of 
recovery and mitigation work that continues from post 
disasters, including Hurricane Sandy.
    Your fiscal year 2016 budget request for $390 million above 
the fiscal year 2015, despite large unspent balances. $340 
million of requested increases is for the disaster relief fund.
    I look forward to discussing whether the increase is 
appropriate given the recent decrease in major disasters and 
the substantial carryover balance from previous years.
    Your budget request also includes significant increases 
related to climate change initiatives such as a Climate 
Resilience Task Force and requiring climate change to be 
considered a developing pre-disaster mitigation plans. In a 
shrinking budget environment, I would like to hear more about 
how these initiatives meet the FEMA mission.
    With respect to first responder grant funding, your fiscal 
year 2016 budget includes a request to fund a consolidated 
grant program which is not authorized. And this is the fourth 
consecutive year you have proposed this grant program, a 
proposal that has continually been denied by the Congress.
    Also your funding request for grants is, once again, $300 
million less than the amount appropriated in fiscal year 2015.
    I look forward to hearing more about why the new grant 
program is needed, and why the requested funding levels are 
appropriate.
    Before I end, I would like to extend my condolences to the 
FEMA family for the untimely death of Deputy U.S. Fire 
Administrator Glenn Gaines. Chief Gaines dedicated his career 
to the mission of fire safety and rescue. We are proud of his 
contributions at both the Federal and the local level.
    Administrator, your written statement has been placed in 
the record, and we will ask you to summarize that in about a 5-
minute period of time, but first I would like to recognize Ms. 
Roybal-Allard, our distinguished ranking member, for her 
opening remarks.
    [The information follows:]
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
  
    
    Ms. Roybal-Allard. Good morning, Administrator. We 
appreciate your joining us this morning to discuss FEMA's 
proposed budget for fiscal year 2016.
    FEMA's disaster response performance under your leadership 
continues to earn plaudits around the country. On many levels 
the agency has become more efficient, professional, and 
effective under your watch.
    There are still areas of concern, however, including recent 
problems with the National Flood Insurance Program. It appears 
that fraudulent damage assessments led to significant 
underpayments to many homeowners following Hurricane Sandy. And 
while FEMA's improper payment rate has been significantly 
reduced since Hurricane Katrina, we still hear concerns about 
individuals who receive debt letters from FEMA months or years 
later.
    The agency is requesting $11.2 billion, including $6.7 
billion for major disasters under the Budget Control Act cap 
adjustment. Excluding this major disaster funding, the request 
totals $4.5 billion, $115.1 million or 2.6 percent above the 
current year level. Despite the overall increase, I was 
disappointed to again see a proposed $224 million reduction in 
State and local discretionary grants, or a 17.6 percent. The 
cut is actually $288 million, or 19 percent, when considering 
discretionary State and local grants and training grants. The 
cut to grant funding is once again paired with a proposal to 
consolidate the State and local grants into a single national 
preparedness grant program. But it isn't yet clear to me that 
stakeholders' concerns with this program have been addressed.
    Once again, the budget proposes a cut to the Emergency Food 
and Shelter Program, and transferring it to the Department of 
Housing and Urban Development. I was glad to see that the 
budget proposes a significant increase for the pre-disaster 
mitigation program as well as a major increase for flood 
mapping.
    Given the difficult funding environment that we face, I 
hope we can still find a way to provide increases for both of 
these valuable programs, and I look forward to a good 
discussion this morning.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Carter. All right. Administrator, we will recognize you 
for 5 minutes.

                Opening Statement: Administrator Fugate

    Mr. Fugate. Thank you, Mr. Chairman. I appreciate you 
recognizing Glenn Gaines. Glenn was a firefighter's 
firefighter. I was fortunate enough to attend his funeral. His 
home county, where he was fire chief laid him to rest with 
honors. So I appreciate that and that recognition.
    I also want to thank the chairman and the ranking member 
and staff for the difficult part of budgets. Our job at the 
administration within the resources we have is to make 
recommendations to you in our budget. You have the unenviable 
task of then trying to appropriate funds on the basis of all of 
the conflicting priorities that you face. That process, though, 
is the regular order of how it is supposed to work. And when we 
have a budget that you have done that in and the President 
signs into law, we have the stability to execute our mission.
    And, again, we will present, you will appropriate, and we 
will execute. And in that regular order, the taxpayer is best 
served. That is something I think, again, I want to thank you 
for each of the years that you have been chairman and going all 
the way back to Congressman Price when he was chair, the work 
that you do to try to put together a budget and meet all of the 
different competing needs.
    And then the last part I wanted to talk about was in our 
mission, one of the things I heard early on was, you know, you 
guys have a lot of programs. How is this all tied together? 
What are you getting with this money? How are you 
demonstrating? Where are you getting your efficiencies? And we 
did not have a good story to tell. And we have been working on 
that. And so we looked at our strategic plan. And what we try 
to do now is, most strategic plans I think sometimes are what 
we call a shelf document. We wrote it. It is submitted. They 
passed it. And then you can't find anything else that you will 
see referenced in that strategic plan.
    We took a different approach. We are not going to write a 
shelf document. We wrote what we thought is our mission. We 
looked at being survivor centric. And this gets to some of the 
challenges I am seeing in flood insurance. It wasn't survivor 
centric. We are making those changes.
    We have to go where disasters are. Just because it works in 
Washington, D.C., does not mean it is going to work out in a 
mudslide in Oso, West Virginia--or in Washington State--or down 
in California with our drought or up in New Jersey when we are 
dealing with Sandy. Things have to work where the disasters 
occur and the people are.
    You have to build your program around the worst-case 
scenario, the catastrophic disasters. We saw what happened with 
Katrina when you try to scale up. It didn't work. And disasters 
do not come one at a time, as 2010 and 2011 showed us. We were 
dealing with multiple disasters across the country. So you have 
to build systems and build capability around those types of 
events. Not what you are used to doing or the way you used to 
do it.
    You have got to build resilience into it. We are spending a 
lot of money paying for losses that, quite honestly, I ask the 
question: Why was that not insured? Why was it not insurable? 
Why are we rebuilding it time and time again? And why is the 
taxpayer seeming to be the insurer of last resort, yet nothing 
is being done to reduce those losses in the future?
    Then finally, probably one of the huge challenges that we 
face that we are working on is internally as a crisis agency, 
we tended to deal with our day-to-day management as by crisis 
only. We never built the foundations to run an organization 
that was built around catastrophic disaster response. And this 
goes all the way back to hiring. If you are not hiring the 
workforce to respond to catastrophic disasters, you are just 
not going to be successful. If your IT [information technology] 
systems aren't secure and resilient, they are not going to be 
there when you need them. We are still having to use 
spreadsheets to put together data from collection across 
various grant platforms that don't talk to each other.
    So we have to work on the foundation of FEMA, modernize 
that, while reducing costs. And one of our examples is in the 
austere budget we are working in, do I need nine office 
buildings in the D.C. region? And the answer is no. We have 
consolidated down--we are down--going down to three. We will 
eventually get down to two. Pending any moves to St. Elizabeth, 
we have significantly reduced our footprint because we would 
much rather have our staff and our equipment to do our jobs 
versus having offices with doors for everybody.
    So we are taking those steps to move there, but everything 
comes back to, Are we building, as a Nation, the capability to 
manage and respond to catastrophic disasters and leveraging 
resources at local, State, Federal level, private sector, 
volunteers, and NGO [non-governmental organization], and 
finally the public? Because although we use the term ``first 
responder'' a lot to talk about the people with lights and 
sirens, I have been to a lot of your States. I have been to a 
lot of disasters. The first responder that I usually see is a 
neighbor helping a neighbor, and we have to recognize that the 
better prepared our communities are, the better our response 
will be, the fewer lives we will lose, and the quicker we will 
move into recovery.
    So, Mr. Chairman, I am ready for your questions.
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
                     DISASTER REQUIREMENTS FUNDING

    Mr. Carter. Well, very good. That is a good summation and a 
big picture.
    Administrator, your budget requests $7.3 billion to fund 
all known disaster requirements, including funding for new 
events. Is it sufficient funding to address Hurricane Sandy 
needs as well as other ongoing disaster requirements, including 
projections for expected future disasters? I note that you 
carried over almost $7 billion from fiscal year 2014 to 2015 to 
include over $2 billion in base discretionary funds.
    Why do you continue to ask for new appropriations when you 
are carrying over significant funds from prior years? I think 
that the balance in the DRF as of the first of this month is 
$10.5 billion.
    Mr. Fugate. Mr. Chairman, on the basis of the outstanding 
work that is still to be done in Sandy and going all the way 
back to Katrina, we are basing the request on the amount of 
work that we are anticipating can get done. There are variables 
there that as State and locals go through this process, their 
timelines will drive when we are able to make those awards and 
obligate those dollars. So as we continue to move forward, this 
is based upon what we know are projects that are in the system, 
projects that we know are coming online, as well as maintaining 
the capability to deal with disasters outside of the known 
world.
    Part of this too is also ensuring that we maintain a 
balance within the DRF, and that--Mr. Chairman, I want to 
explain this, because I think when we talk about the balances 
of the DRF, it is not just the disasters that have happened. It 
is what could happen. And one of the things we learned after 
2011 is if we don't maintain balances there for large systems, 
we force Congress into going into supplemental funding 
discussions oftentimes without a lot of the information about a 
disaster. By maintaining a balance, and we have been working 
with a balance of about $1 billion, and we have some 
justification behind that, behind what it took to respond to 
Sandy and what it could to respond to a large hurricane or 
other event, it gives us the ability not to turn off previous 
disaster work, which we have had to do before. It allows us to 
respond to the immediacy and the immediate lifesaving needs and 
individual assistance needs, and it gives Congress time to 
deliberate a supplemental package if required once the facts 
become known.
    We saw early in the floods in Colorado that with this 
balance, we were able to meet the needs without a supplemental, 
although early on people thought it would require a 
supplemental. As the facts bore out, you had fully funded us. 
It had anticipated events of that size. We did not have to 
disrupt any other work going on in previous disasters.
    So again, Mr. Chairman, I will work with you and your staff 
because this is a moving target. And, again, I don't want to 
build large balances there that I don't justify, but I also 
want to maintain a reserve in that balance so that if we do 
face the next large-scale disaster, I am not having to come to 
you for a supplemental before we have all the information or 
potentially shut down recovery work going in previous 
disasters. But as to what that balance should be, how much we 
should be carrying over, I will work with you on that, but I 
just want to make sure that as we do that, we keep in mind that 
I am trying to also ensure that as a fiscal steward, I am not 
placing you in the situation of looking at a supplemental early 
into a disaster because I am running out of money, and we don't 
have all the information to make the best determination of how 
much we may need to manage that event.

                       HURRICANE KATRINA PROJECTS

    Mr. Carter. Just out of curiosity, Katrina was over 10 
years ago. Wasn't it?
    Mr. Fugate. Yes, sir.
    Mr. Carter. Do we still have projects we need to finish 
following the Katrina disaster?
    Mr. Fugate. Mr. Chairman, we still have projects we have 
not finalized. I have been working with the mayor of New 
Orleans, which has several of these large outstanding projects, 
and he and I are in agreement that by June, if our staffs have 
not hammered out the final agreements on that, he and I will 
personally engage to get this resolved, and we are both of the 
mind that this has taken far too long. And this is one of the 
things that you helped us with the Sandy Recovery Improvement 
Act. You gave us tools to hopefully head off some of these 
open-ended obligations that never seem to get resolved, 
particularly with Katrina at 100 percent. It has given us new 
challenges as to trying to get to what is eligible versus what 
else may be there that is getting, you know, looked at and 
trying to separate out 10 years later what was actually caused 
by Katrina and what wasn't so we fund what we have need to 
fund.
    Mr. Carter. That seems to be a bottomless pit of money. I 
would like to see a grand total of how much we have spent on 
Katrina, but I bet it is a figure that will curl your hair.
    Mr. Fugate. From FEMA's side, Mr. Chairman, we will prepare 
that, and I have a--I think a--what the boundary is for how 
much more, but until I actually have final projects, I cannot 
say for certainty what that final number is going to be. But 
one of our largest projects, again, we are working with the 
city--it is not even really a city project. It is a water and 
sewer board project of trying to get to the final settlement on 
that so we are not, you know, next year still talking about, 
well, how much more will we be paying on Katrina? We will know 
how much we are going to owe. It will be obligated. It may take 
them several more years to draw all that down, but we will know 
what that bill is.
    [The information follows:]

    Representative Carter. I would like to see a grand total of how 
much we have spent on Katrina.
    RESPONSE. As of April 30, 2015, FEMA has obligated $42.6B for 
emergency and major declarations related to Hurricane Katrina.

                               WILDFIRES

    Mr. Carter. Well, you know, I live in hurricane alley and 
tornado alley, and, you know, we are all for getting help. But 
that sure seems like a long time.
    Let's talk a little bit about wildfires because this is 
something we have a lot of in our State. Not in the big woods, 
but out on the plains where they go 100 miles an hour and burn 
up the whole panhandle.
    Address what FEMA can and can't do under existing 
authorities, and where is the line between Federal and State 
responsibilities for wildfires, firefighting equipment, and 
whether it is on Federal lands or on private lands.
    Mr. Fugate. Well, because of the economy acts on Federal 
lands, the authorized and appropriated agency is the U.S. 
Forest Service. If it is on State lands or private lands or 
individual landowners or municipal or government property, that 
really comes down to the State. And one of the two programs 
that we have--or actually the major divisions--is a program 
called the Fire Management Grant Program, which is authorized 
in the Stafford Act using DRF funds to support a State when 
firefighting costs exceed their annualized routine cost. 
Basically it is designed to deal with extraordinary wildfire 
seasons. And it has provisions to pay for various aspects of 
that, including staging, pre-staging equipment, the response 
cost itself, and some of the other agencies that may be 
required.
    The other program would be a major Presidential disaster 
declaration. Primarily, when we get into large impacts to 
either individual assistance because of the number of homes 
destroyed that weren't insured, or because of damages to 
uninsured local or State property. But the--one requires the 
President to approve, and that is the declaration for a major 
disaster. The fire management grants were given that authority 
to make those determinations in conjunction with a principal 
adviser who is usually a forest service retiree that can assist 
in that. But it is based upon the State's impact. States--
usually their State Forestry Commission or Division of Forestry 
manage this. And it is based upon if it has exceeded, or is 
exceeding their budget--what they normally do. We treat it 
similar to snow where you have routine recurring fire expenses 
when you have extraordinary cost, and you have events where you 
have loss--significant loss of property or the potential for 
that, then the fire management grants are awarded and then it 
is a 75 percent cost share of the eligible cost.
    Mr. Carter. Okay. Thank you.
    Ms. Roybal-Allard.

                      DISASTER DECLARATION PROCESS

    Ms. Roybal-Allard. Administrator Fugate, FEMA's current 
process for making recommendations to the President for major 
disaster declarations may not always consider all the relevant 
factors, including localized impacts. Both the fiscal year 2015 
House and Senate reports ask FEMA to review its disaster 
declaration process and consider revising its criteria to more 
effectively evaluate the need for Federal assistance.
    Do you agree that improvements are needed in FEMA's 
disaster declaration process? And if so, can you give us an 
idea about the kind of changes FEMA is considering?
    Mr. Fugate. Well, given my interaction with various Members 
of Congress, I can tell you there are those that say I declare 
too many disasters and those that say I don't declare enough. 
And as a wise man once said, all disasters are local. So 
California, Illinois, Florida, other States, New York, they 
have large populations but also have small rural communities. 
Oftentimes they find themselves at a disadvantage, because, in 
many cases, people think disasters locally that are significant 
should warrant a Presidential declaration, but when taken in 
light of the State, State capabilities and State resources, we 
oftentimes determine it did not reach the threshold. And I 
guess this is the challenge of communication. Disasters are not 
based upon the localized impacts. They are based upon the 
ability of the State to manage those impacts. And when it 
exceeds that capability, that is where you look at the Stafford 
Act supporting it.
    You do look at some of the trauma at local levels, but most 
of the time this is really about the cost of rebuilding. It is 
about the uninsured losses. And so as we looked at this on one 
hand, I am also being told I declare too many disasters. So we 
are looking at these factors. We are looking at more clarity in 
that to give States a better idea what local factors we do look 
at. We do look at trauma. We do look at disadvantaged 
populations. But in taking in light against the size of a State 
and the State resources, it is, again, a challenge. And I know 
there has been several attempts to look at more rural areas of 
large population states. Well, could we not do something 
differently there? Again, we will work with Congress, but as we 
see the Stafford Act, it is really based upon a Governor's 
request and the State's capability, and what a State could do 
in those situations with the resources they have before we go 
to the Stafford Act.

                        HAZARD MITIGATION GRANTS

    Ms. Roybal-Allard. Fire management grants tend to be 
relatively small. And one awarded last week to the California 
Department of Forestry and Fire Protection earlier this week 
was just over $1 million. But they are extremely important to 
wildfire-prone areas like California that regularly have 
wildfires, such as the one that we experienced last week. This 
is of even greater concern, especially for California, during 
these times of drought.
    We included a provision in the fiscal year 2015 bill that 
authorized FEMA to provide hazard mitigation grants to the 
recipients of fire management assistance grants. Given that the 
fiscal year 2015 bill was enacted less than 2 months ago, can 
you comment on how FEMA plans to implement this authority? And 
will there be limitations or expectations related to how States 
will use these hazard mitigation funds?
    Mr. Fugate. Traditionally hazard mitigation funds have only 
been made available in a major disaster declaration that the 
President has authorized. So part of our challenge is going to 
be the fact that we are now including hazard mitigation outside 
of our Presidential disaster declaration and what are the 
ramifications of that.
    Once we have clear direction on that, I think as far as 
administering what would be eligible, generally if we were in 
this situation, we make hazard mitigation dollars available to 
the Governor to disburse within the program, not even tied to 
the hazards that caused it. Governors sometimes, because they 
may have had an event but they have other things they want to 
get to, have used their mitigation dollars--an example, they 
may have floods, but they used the mitigation dollars to build 
safe rooms for tornadoes.
    So we give the States a lot of flexibility. We also allow 
the Governor to determine where they are going to designate 
those hazard mitigation dollars, if it is just for the counties 
declared, if it is statewide. And within the program, I don't 
think the issue of administering the grants is going to be 
getting to the fact that we have not provided hazard mitigation 
grant dollars outside of a major Presidential--we have never 
provided them for fire management grants. We don't provide them 
for the emergency declarations, which are also declared by the 
President.
    So this may increase the threshold and oversight required 
to get fire management grants in the future if it is determined 
that a--adding mitigation will treat this more as a--as an 
event that requires the Presidential approval versus what we 
can approve on our own.

                   EMERGENCY FOOD AND SHELTER PROGRAM

    Ms. Roybal-Allard. Okay. The budget, again, proposes to 
reduce funding for the Emergency Food and Shelter Program by 
$20 million, or 16.7 percent. And, again, it proposes 
transferring the funds and administrative responsibility for 
the program to the Department of Housing and Urban Development. 
We included language in the fiscal year 2015 statement 
directing FEMA to develop both a plan for outreach to 
stakeholders, and a transition plan prior to reproposing the 
transfer of the program. Congress was, of course, late in 
getting the fiscal year 2015 funding to you, but I hope that 
you can still respond to my question regarding the statement 
language.
    First, can you remind us of the basic rationale for moving 
the Emergency Food and Shelter Program over to HUD, and then 
what kind of stakeholder outreach has been conducted? And do 
you feel confident stakeholders, particularly the Emergency 
Food and Shelter board, understand and are supportive of 
transferring the program?
    Mr. Fugate. Well, the reason why is straightforward. 
Although the word is emergency, this program is for homeless 
shelters and for food banks. Although we work with them in 
disasters, it is not a core mission of FEMA. And so I have read 
numerous reports from Congress and the General Accounting 
Office that says agencies should avoid duplication of programs 
that should be somewhere else that are better equipped or have 
that as their core mission. So this is not saying that food 
banks and shelters aren't important. We think they are. That is 
why we recommend a transfer versus an elimination.
    We have been doing outreach. Quite honestly, it is somewhat 
flattering and disconcerting that a lot of the groups would 
prefer to work with us. So I think there--it is who you know 
versus what may happen in the future. But we think that HUD is 
the appropriate agency. We have been working with HUD. I will 
not tell you that everybody is in agreement on this, but we 
have been doing outreach--you know, doing the outreach. We have 
been talking to people. We have been explaining why we want to 
do this. Because, again, it is not our core mission. We think 
it is an important function. And we do work with these groups 
in disasters.
    But if you go back to why they were placed in FEMA, it is 
more of an appropriations decision. And we think that, you 
know, now that we know more about what the capabilities are, 
what the program does, we think HUD is a better home for it 
long term, closer to HUD's mission, groups they work with 
through other parts of the grant programs.
    So it is not a shirking of responsibility. And I am sure 
there are some folks that because they work with FEMA a lot 
would prefer it to stay with FEMA. I will, of course, do what 
the Congress directs us to do with the appropriation.
    Ms. Roybal-Allard. Okay. And just very quickly, is there a 
plan in place for transitioning the program, and will it 
continue to exist as a distinct program with this current 
program structure?
    Mr. Fugate. As I understand it, we are in discussions with 
HUD. I would have to have staff get back to you. Last note I 
saw was it was in their counsel's office. But we have continued 
to work on this pending the decision from Congress where this 
program is and to what level it is funded. But I will have 
staff respond back to the details of where we are at in those 
discussions.
    [The information follows:]

    Representative Roybal-Allard. Is there a plan in place for 
transitioning the program with this current program structure?
    RESPONSE. FEMA and HUD have jointly developed a draft transition 
plan, and outreach strategy for engaging local stakeholders, in support 
of the proposed transfer of the Emergency Food and Shelter Program 
(EFSP) to HUD. HUD leadership is presently reviewing the transition 
plan and FEMA and HUD look forward to briefing the House and Senate 
appropriators when the plan is finalized. FEMA is keeping the National 
Board apprised at the board's monthly meetings of all progress and 
developments concerning the proposed transfer. FEMA and HUD leadership 
continue to meet on elements required to successfully transfer the 
program.
    A separate working session, which includes representation from FEMA 
and HUD, is being planned by the National Board by the end of June to 
discuss the proposed transfer in FY16 and to review and analyze the 
McKinney-Vento Act in terms of what authority may be needed to 
permanently transfer the program for all out-years.

    Mr. Carter. Mr. Frelinghuysen.

                    URBAN SEARCH AND RESCUE PROGRAM

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Fugate, you have a well-deserved reputation for 
evenhandedness. Thank you. And from time to time, I have 
witnessed you fending off a lot of political action. And may I 
say you have always done it in a very professional way. I just 
wanted to thank you.
    A burr under my saddle for quite a number of years is 
something called New Jersey Task Force One. This is an urban 
search and rescue team that was first--first non-New York group 
to be on the site of that incredible disaster of September 11, 
2001. I have repeatedly written, and certainly have since I 
know that Secretary Johnson is one of my constituents, but I 
have repeatedly written him and you and urged the committee to 
designate that very professional team that has been at it for a 
long time as one of your--as one of your teams, and I certainly 
want to renew that plea today that those--that that team 
continues to do a remarkable job.
    And I note in the study that FEMA recently conducted a 
exercise up in the New York/New Jersey area that related to 
tanker cars on trains, and we have chemical alley up there, all 
sorts of things that could be highly explosive, in the hands of 
terrorists could be extremely dangerous to people in my region. 
And I just would like to renew that plea because it is not as 
if they aren't trained. And I am not sure--if you care to 
respond, I would be happy to hear your comments.
    Mr. Fugate. Well, because you have told me that I am 
oftentimes not political and pretty straightforward, it is 
really a funding issue. That team receives its funding probably 
at the local level and with some of the Homeland Security 
grants that come through this committee. If we made them a 
Federal team, it will come out of the existing Federal dollars 
for the urban search and rescue teams, and we would dilute 
that. It has really more to do with the fact that we look at 
those Federal--the teams we look as Federal as we do fund a lot 
of their capabilities. We know there are a lot of other teams 
out there that have similar capabilities that are funded with 
the State and Homeland Security grants.
    So it really would be as we, you know, would consider if 
you added this team, would we see additional funds go into the 
urban search and rescue program for that, or would we transfer 
it out of the urban security funds, or how would we do that? So 
this is less about, no, they are a team. We would utilize them 
and have; through mutual aid from the Governors, these teams 
are utilized. But it really becomes a funding issue. We are 
capped at how many teams we have on the basis of. If we started 
adding one more team, I am afraid that we will have a lot more 
requests, and then it would come back to the appropriations 
staff to work with us of how would we pay for additional 
teams----

                    NATIONAL FLOOD INSURANCE PROGRAM

    Mr. Frelinghuysen. Respectfully, a lot has happened since 
2001. And there were very few teams back then. And you have 
added substantial--your predecessors have added substantial 
teams to the overall national network. And I do think sometimes 
recognize somebody who has actually been doing the job earlier 
on perhaps would have been better. But there has been a 
substantial number of teams that have been added.
    Let me just focus and let me thank FEMA for some remarkable 
things you did in the wake of Hurricane Sandy.
    Of course, there was a lot of consternation down here about 
the cost. A lot of it related to, you know, the Katrina 
experience, but on behalf of the people of New York, New 
Jersey, and Connecticut, and certainly the chairman and his 
predecessor and the committee staff, we are awfully grateful 
for all of the things that have been done.
    Could you focus just for a brief minute on some of the 
litigation issues that relate to--that sort of give, not you, 
but the program a bad name and a lot of the policyholders--
hopefully people take a look at what they subscribe to, but 
could you talk a little bit about that as part of the overall 
FEMA experience?
    Mr. Fugate. Yeah. In running a flood insurance company, I 
am afraid that what I have discovered is we were running a 
program that put more emphasis at times on protecting the fund 
than in servicing the policies. Almost all of the biases that I 
have seen, and I think has led to a lot of these lawsuits, has 
been the tendency to look at damages and put more risk on 
overpayment than--I mean, putting more emphasis on not making 
an overpayment because we would require the money back.
    The issue is whatever is owed, we pay. So this is one of 
the challenges. Why weren't these policies being fully 
serviced, because it is not a factor to us? If it is eligible 
damages, as the insurance policy, we would pay. But we think 
the bias was because they would have to recoup any money they 
overpaid, we intend to design a program that put more emphasis 
on not making overpayments. And I think that has resulted in 
setting up situations that result in the litigation we are 
dealing with.
    So my direction was pretty straightforward as soon as I 
became aware of this. If we owe money, pay it. If we think it 
is fraud, refer that for further investigation with the IG 
[inspector general] or Justice. If we are going into the 
litigation, and litigation costs are going to be, you know, 
such that it is going to be more than what we are talking, 
because these policies are capped at $250,000, then I said, 
move to settle.
    If there is no fraud there and we have honest 
disagreements, and sometimes, looking at these policies, we 
have set ourselves up in looking at what we are trying to 
exclude as eligible damages and what isn't, it is very 
difficult to get to those answers. So if we owe money, pay.
    That is, I think, the hard thing for me to understand: why 
we got in this situation. But I think it is because we weren't 
putting our customer at the same level we were the fund, and 
this goes back to being what we say survivor-centric. If we are 
going to sell a policy, we need to service that policy and we 
need to treat the policyholders in the same weight to their 
eligibility as we do to making sure we are eliminating any 
fraudulent claims.
    But I think we spent too much time focusing on not making 
overpayments than we were making sure we fully serviced those 
policies.
    Mr. Frelinghuysen. So the shift has been made to that 
degree?
    Thank you, Mr. Chairman.
    Mr. Fugate. The shift has been made. The leadership has 
been made. We are changing that program.
    Mr. Frelinghuysen. Thank you.
    Mr. Carter. They just sent a notice that our next vote is 
about 5 minutes after 11:00, so we are going to try to get 
through this round anyway. So we are going to hold it to 5 
minutes.
    Mr. Price.

                            LESSONS LEARNED

    Mr. Price. Thank you, Mr. Chairman.
    Welcome, Administrator. I was just observing you are 
approaching your 6-year anniversary as the administrator of 
FEMA. And you have heard many plaudits this morning on your 
service, and I would like to add to those. You inherited an 
agency that was in great need of attention, in great need of 
reform, and by all accounts, you have had a lot of success in 
shaping up the agency after a very difficult period.
    I have appreciated personally your cooperation with this 
committee and with our emergency planners and responders in 
North Carolina. So I want to maybe ask a bigger-picture 
question, the sort of thing you were getting at in your opening 
statement, maybe elaborate that a bit. Your time as 
administrator, what are some of the lessons we might derive 
from that?
    What kind of problems and challenges have required the most 
of your time and energy? To what extent is the job done in 
terms of shaping up the Agency's various components and 
functions? What are the greatest challenges remaining? And to 
give a little specificity to this, maybe you could relate this 
to the strategic plan and the strategic planning process. To 
whatever extent you can, give your answer in relation to the 
objectives that you referred to in your opening statement, the 
objectives that the agency has set out for itself.
    Mr. Fugate. Well, with the management reforms and building 
that foundation, I think, we are moving in the right direction, 
but we are not going to be there quickly. And we are asking for 
some resources in grants modernization, other things to get 
there. But we have got to do a better job. We can't spend all 
our time fixing problems we are creating because we can't even 
hire people.
    Our IT systems are out of date and not secure; our 
procurement process was broken. We brought in new leaders. We 
have been making changes, but we have also made and held all of 
the senior leadership at FEMA accountable for management 
changes; there is an ownership issue here. You just can't tell 
your chief human capital officer to fix something if the rest 
of the department always works around them or games the system.
    Resiliency, this is probably one that I have the greatest 
potential to annoy the most people on, and that is, whether you 
think climate change is real or not. I have a bigger question 
to ask: Why are we paying out billions and billions of dollars 
on what anybody in the private sector would have insurance on?
    I am not talking about debris, roads, or things like that, 
but let's talk about fire stations, community centers, water 
treatment plants, schools, a whole host of public 
infrastructure that we only pay when there is no insurance. We 
are paying a lot of money, because in many cases, insurance 
isn't available. It is not affordable.
    And we have oftentimes used mitigation dollars to rebuild, 
but we always look at narrow slices of data in the last 100 
years, and we still find it is not insurable. And so I think, 
again, as we look at the disaster criteria, I want to look at 
the threshold for disasters.
    Right now, we go back to the first dollars if you hit the 
threshold for the President-declared disaster. Tell me any 
other insurance policy that goes back to your first dollar. You 
always have a deductible. There is no deductible in this. It is 
a 75/25 percent cost share. So we spend a lot of time on small 
disasters that, quite honestly, are traumatic for local 
communities, but much of the cost borne with that, outside of 
the emergency response cost is what the uninsured losses are.
    So we are trying to change that and go, if we rebuild 
something--and we are doing this in New Jersey and New York--we 
are trying to look at mitigation not just because of the past 
data we have, but actually put enough into that to say, let's 
build it to where it is insurable, and affordable, and have the 
private sector manage future risk. We have not done a good job 
in this Nation of setting the paying point for risk and making 
sure that, as we make investments, we are not transferring risk 
to the taxpayer that exceeds what we benefit from that.
    I am not saying this is a zero-sum game. There will be some 
things that make sense for the public to absorb that risk. But 
in other cases, you look at how many times we go out to a 
structure that we are rebuilding or spending significant sums 
on that was not insured, and the rules say it should be insured 
after we have done that; yet, we go back later and the answer 
that we are getting is it was not affordable, it was not 
available, and you pay again.
    As a good steward, I think, yeah, that we should pay for 
the first time. We should rebuild it, but then we should be 
more stern and hold the accountability to ensure that risk 
going forward, but that means we have to build it in a way that 
it is insurable, that the insurance companies can make it 
available, or it is going to price local governments out of 
being able to do their basic function.
    Mr. Price. Thank you.
    Thank you, Mr. Chairman.
    Mr. Carter. Dr. Harris.

                 FEDERAL FLOOD RISK MANAGEMENT STANDARD

    Mr. Harris. Thank you very much. And, you know, before I 
start, I do want to thank FEMA for obviously the extensive help 
they have in my district, the eastern shore of Maryland, which 
you are from Florida, driving through the lower shore of 
Maryland looks like you are driving through the lower part of 
Florida.
    And that brings up one of the questions I have, which is 
this new Federal Flood Risk Management Standard that was 
promulgated by executive order in January. It is a little 
troubling because the--you know, our bill last year 
specifically said that none of the funds available in this act 
or any other act should be used to implement, you know, a 
Federal Flood Risk Management standard until the administration 
is soliciting considered inputs from governments, mayors, and 
other stakeholders.
    As you know, that was passed late in the year. And on 
January 30, the executive order was issued saying, ``The views 
of governors, mayors, and other stakeholders were solicited and 
considered as efforts were made to establish a new flood risk 
reduction standard.'' Were you involved in that, in the 
development of that standard for the executive order?
    Mr. Fugate. Yes, from the standpoint of the mitigation, 
senior leadership group that is part of the national response 
framework.
    Mr. Harris. And what were the mechanisms by which you 
solicited? Because I am still trying to find a mayor in my 
district whose input was solicited. And believe me, they have a 
vested interest in what the FFRMS looks like because so much of 
my district has now had an expanded definition because of the 
BFE plus 2 or plus 3 definition. So how was that input 
solicited?
    Mr. Fugate. I would not be able to tell you, sir, because I 
was involved--my staff was basically involved in what the 
standard would be, not the outreach at that point. We have been 
heavily involved since the executive order of doing outreach--
--
    Mr. Harris. Let me just interrupt you for a second. From 
the time the bill was passed until January 30, was your staff 
paid to develop the FFRMS despite Congress' pretty clear 
language that says no funds shall be spent without soliciting 
input. So did your staff develop this without soliciting input? 
It is a simple----
    Mr. Fugate. I understand it is a simple question. Our staff 
were working on the standard itself. There are other agencies 
involved. We have been charged by the administration to go out 
before this rule is finally implemented and do outreach, which 
we have been doing across the Nation.
    Mr. Harris. However, the executive order actually sets up a 
timeline for implementation, so one could interpret the 
executive order itself as implementation of the FFRMS, because 
it specifically says FEMA, for instance, before implementation 
is supposed to go and do this solicitation. So it sets up kind 
of a circular argument. I mean, the executive order itself sets 
up implementation. One could view that as implementation of the 
new FFRMS. So this is simple because, you know, the 
Antideficiency Act is pretty clear. When Congress says no funds 
shall be used, it really means no funds shall be used.
    And this administration has kind of a record on this. You 
know, you are just one in a series of people to come before 
this committee to address an issue of whether the 
administration is adhering to the will of Congress spelled out 
clearly in an appropriations bill.
    So I am just going to ask it one more time. To your 
knowledge, did anyone in FEMA spend money--and I will take it a 
little bit further because right now----
    Mr. Fugate. Sir, the answer is yes, we were committing 
staff time at the direction of the administration to work on 
this as part of our assigned duties.
    Mr. Harris. Are your employees aware that this applies to 
everyone not just--the Antideficiency Act applies to every 
employee of the Federal Government, not just leadership? You 
know, excuse can't be, well, my boss told me to, if you know 
about this. Because my understanding is the section 404 is 
covered, section 203 is covered, the flood mitigation 
assistance program would be covered by changes to the FFRMS, so 
I am going to ask you an additional question.
    Are any of your employees in those sections, who handle 
those sections, at this point in time, spending any money to 
implement the new standard? That is, any planning, writing any 
projected plans of what the effect would be on these programs? 
Because this is the essence of what we do in an appropriation 
limitation riders to say you can't spend a dime.
    Are your employees in those programs, section 404, 203, and 
the Flood Mitigation Assistance Program--because that is what 
CRS has said, those are the FEMA programs that would come under 
this new mitigation rule--are they spending money in any way, 
shape, or form to develop a response to this new executive 
order?
    Mr. Fugate. Specifically, I cannot say yes or no. I would 
have to go back to research that. I can tell you we are using 
our funds to do the outreach and listening sessions across the 
country. As far as what staff had taken steps on any 
implementation, I would have to respectfully get back to you on 
that, by those programs that you have listed.
    [The information follows:]

    Representative Harris: Are your employees in those programs, 
section 404, 203, and the Flood Mitigation Assistance Program--because 
that is what CRS has said, those are the FEMA programs that would come 
under this new mitigation rule--are they spending money in any way, 
shape, or form to develop a response to this new executive order?
    RESPONSE: Consistent with the requirements set forth in section 749 
of the Consolidate and Further Continuing Appropriations Act, 2015, 
FEMA has solicited and is currently considering input received from 
stakeholders during the public comment period for the revised 
guidelines pertaining to the Federal Flood Risk Management Standard.

    Mr. Harris. Well, I would appreciate that, that you get 
back to me, because, again, section 749 in H.R. 83 is very, 
very clear. It says no funds. So please get back to me if, in 
fact, FEMA is, you know, coming before this committee to ask 
for funds for next year and actually disregarding the intent of 
the Appropriations Committee in this year's appropriations.
    Thank you, Mr. Chairman. I yield back.
    Mr. Carter. Mr. Cuellar.

                      GRANTS: PERFORMANCE MEASURES

    Mr. Cuellar. Mr. Chairman, thank you so much.
    Administrator Fugate, I appreciate you bringing your 
training from the State level, and I think you have been doing 
a good job, and I appreciate the good work that you and your 
folks have been doing.
    Members, one thing I would like to point out is, back in 
2010, we passed a law that called for more strategic planning 
on how we spend our dollars and make sure that we have 
performance measures to look at that. And, in fact, if you look 
at the Administrator's testimony, you will see a break down 
where it has strategy No. 1, strategy No. 2 following that law, 
so I appreciate the work that you are all doing.
    My question is, for many years, I had--if we give grant 
money to local communities, how do you measure the work that--
and we have been talking about this, I guess, almost for 5, 6 
years. But how do you measure the work that if you give money 
to somebody that they are following the measures or the 
performance that we should instead of just giving money out? 
Because we have given out billions of dollars over the years. 
So what do we get for that bang of a dollar when we give them 
to local communities?
    Mr. Fugate. Thirteen lives saved just in one program. That 
has happened this year through some of the fire grants that 
were given to the Red Cross to place smoke detectors in 
targeted areas using big data that we derived from our National 
Fire Reporting Information System. It targeted our communities 
that had underrepresentation, did not have fire and smoke 
detectors, and have an unfortunately higher loss of life. We 
tied that together, and Red Cross reported back there has been 
13 saved since we have done that.
    We use our fire or our threat hazard reduction reviews as 
they report up, as well as our State preparedness reports, and 
we can now show where States have built capacity in areas that 
they identify were their shortfalls and are now shifting those 
resources to the other areas of the 31 areas of categories that 
we look at to build resiliency and preparedness across the 
Nation.
    We have, in a lot of cases, anecdotal cases where we can 
show you because of investments in funds. One example, the 
mudslide in Oso, Washington State, where the people that were 
saved were saved with a helicopter that was equipped with a 
hoist. And rescue equipment provided through Homeland Security 
funds were--in many cases, the only people who survived were 
those who were extracted by helicopter, that and the Coast 
Guard did the saves. If that capability had not been there, we 
would have lost more lives.
    So we can go back to both point examples of where those 
investments have been involved and responses have changed as 
outcomes, as well as showing you the trend lines of how we are 
moving and improving preparedness.
    We also do this against the threats and hazards, and we do 
this in your catastrophic planning as part of our strategic 
plan. We know that we will never be a Nation that can fund one 
agency to respond to catastrophic disasters. That has got to be 
built up with State and local capabilities. The mutual aid, as 
the Congressman from New Jersey points out about the urban 
search and rescue team, we have to look at these as national 
resources.
    Whether or not we fund them directly, they are getting 
built with these Homeland Security dollars. So it is the 
capacity as a Nation, as we build local capabilities that are 
shared through mutual aid, in what we do; we are seeing these 
outcomes change.

       UNACCOMPANIED CHILDREN: REIMBURSEMENT TO LOCAL COMMUNITIES

    Mr. Cuellar. Well, I appreciate, because I think you are 
one of the few folks that come before our appropriations and 
follows that strategy-type of thinking, makes sure that we are 
driven on performance. So thank you.
    Second thing is, I certainly want to thank the chairman, 
the ranking members, and the committee, because we added in 
this current homeland appropriation bill that we just passed 
just recently, language dealing with the unaccompanied kids, 
what we would reimburse poor communities on the border that had 
to deal with the kids coming in. There is some language there 
that calls for reimbursements to local communities. We have got 
to work with the State.
    I know the State of Texas--and I am going by memory--has 
from 2013, 2014 about $25 million. They haven't been drawn out 
but they are saying it is all obligated, which I do question, 
because it is 2013, 2014. 2015, I think--or the recent--the 
last one that you all just announced, you sent another $22 
million. I would ask you to please work with the State of 
Texas, my colleagues there, to make sure that they understand 
about talking about enforcing the law, that the law does say 
that these moneys are to be used for reimbursement purposes for 
the communities, the poor communities on the border that have 
to deal with thousands of kids coming in.
    Mr. Fugate. We will take that work with our grants folks, 
and I will work back with your staff to make sure we are 
getting the appropriate language when we are talking with our 
State partners.
    Mr. Cuellar. Yeah. And your folks have been fantastic. They 
really have. I just want to make sure that the State of Texas, 
when we talk about border security, that it also includes this 
reimbursement on that. So thank you, Mr. Administrator, for the 
good job that you are doing.
    Mr. Carter. Thank you.
    Mr. Fleischmann.

                EMERGENCY MANAGEMENT PERFORMANCE GRANTS

    Mr. Fleischmann. Thank you, Mr. Chairman.
    Mr. Administrator, it is good to see you this morning. 
Before I begin my questions, I do want to harken back to a time 
when I was a freshman Congressman in 2011 and 2012. We had 
tornadoes come through east Tennessee, my district; in fact, I 
had been in office less than 4 years. And I want to commend and 
thank you all at FEMA for the way that you responded. In the 
first round of storms that were actually fatalities, and it was 
a disaster like nothing I had ever personally experienced. And 
FEMA was there and worked hard over the next several months to 
reimburse the communities. So thank you. I really appreciate 
your-all's efforts at that difficult time.
    I wanted to ask you some questions this morning. Your 
budget, sir, proposes level funding for the Emergency 
Management Performance Grant Program, which is incredibly 
popular among States, and has been crucial in my home State of 
Tennessee. Your budget also proposes a number of funding 
increases, sir, including a re-proposal of a new national 
prepared grant program.
    Given the current fiscal situations and the many needs 
facing your agency, wouldn't it make sense for you to focus 
resources on proven efficient programs like EMPG, which employs 
a 50/50 cost share structure, and areas of highest need and 
risk? And do you have any plans to eliminate the EMPG program 
or any other current grant programs in an effort to shift 
resources to these newer perhaps unproven programs, sir?
    Mr. Fugate. The simple answer to your last question is no. 
And probably what makes the Emergency Management Performance 
Grants, I think, one of the best bargains for the Federal 
taxpayer is, unlike a lot of other grants, there is a 50/50 
cost share. So it is a shared responsibility to build 
capability at State and local level.
    It has been increased by this Congress over time to levels 
that it had not been before. And, again, as we were dealing 
with sequestration and other budgets, we have been working 
hard. And I appreciate the staff here. This has been a grant 
that has been shielded against some of the other reductions. 
But, again, it is, as you point out, a good value. It has a 
cost share match at the State and local level. So it is a 
shared responsibility. And we have no intention of recommending 
that grant losing its identity or being consolidated.

           DISASTER WORKFORCE READINESS: PERFORMANCE MEASURES

    Mr. Fleischmann. Thank you.
    This past year, you implemented a system to measure the 
readiness of your disaster workforce.
    Mr. Fugate. Yes, sir.
    Mr. Fleischmann. It is very similar to how DOD measures 
readiness and capability to deploy. What led you to develop 
this process, and how will it change how you train your staff, 
equip disaster personnel in the future?
    Mr. Fugate. We needed to target the drive, our investments 
and justifications of budget. I just couldn't say, well, I need 
25,000 people. Well, what kind of people do I need? Who do I 
need? Do I really need 25,000? So we went back and did the data 
analytics and responded to a large catastrophic disaster, or a 
lot of other types of events. You know, we looked at 2011. We 
looked at what it took to respond to Katrina, what it took to 
respond to Sandy, and said, if you are going to build this, who 
do you need, and how many people do you need in each category, 
and what training do they need?
    So we are now driving this by an events-driven scenario; we 
are not just coming up with a number. We are also showing where 
we have progress, where we have gaps, and where we need to make 
investments both in training, equipment, and recruitment. And 
it is based upon the idea that disasters don't come one at a 
time, and we have to have the capability to begin that initial 
response.
    We can always add staff once we are in a response, but we 
have to have core staff there to deal with the initial 
response, and so this is what this number represents. It 
represents being able to respond to a catastrophic event with 
associated other activities that will be occurring to ensure 
that we can provide that initial response coordination.
    And it gives us very specifically, by category, a type of 
person and numbers that we need to achieve that. Then it gives 
us the measurement to say what progress we are making, and how 
much we need to invest to get there so that we can come back, 
as the appropriation staffer is saying, what is your 
justification? I can show them what the justification is. And, 
again, as part of this negotiated process, if I can't defend my 
numbers or back them up, I don't deserve the funds.

                  DISASTER WORKFORCE READINESS: LEVELS

    Mr. Fleischmann. Okay, sir. As a follow-up to that 
question, then, we are currently at D-3 levels of readiness, 
which means you can meet moderate to single significant 
disaster staffing needs. When will you reach D-1, and will you 
need additional funds to get up to a D-1 level of readiness?
    Mr. Fugate. Well, D-1 would be optimized, and I am not sure 
that it is both possible, just because of the nature of the 
workforce, that we would get and maintain D-1. We will strive 
for each category, but what I think is more practical is 
getting us across the board to a D-2 category so we have that 
overall ability to deal with it.
    D-1, it is going to be hard to maintain that, but that is 
what we shoot for. But I think more realistically, with the 
resources we have and the time frames, our first goal is to 
move us into a D-2 category by bringing up enough of those 
scores to give us that capability.
    Mr. Fleischmann. Thank you.
    Mr. Chairman, I will yield back.
    Mr. Carter. Mr. Culberson.

                 FEDERAL FLOOD RISK MANAGEMENT STANDARD

    Mr. Culberson. Okay. Thank you.
    Mr. Administrator, I appreciate you being here today. I 
want to confirm my understanding is that FEMA did not consult 
with the governors or mayors; the White House did that 
consultation?
    Mr. Fugate. I would not be able to speak on the White 
House. I know what my staff were working on. My staff were 
working on the technical pieces of working what degree of 
elevation based upon elevation and how would we calculate that.
    Mr. Culberson. And the executive order is, as Dr. Harris 
said, does contain the implementation to language. And I also 
wanted to make sure to bring this to the subcommittee's 
attention, and you in particular, Mr. Chairman, that the way I 
read this, Mr. Administrator, that the previous executive order 
on the Federal Flood Risk Management standard was that those 
areas that are subject to a 1 percent or greater chance of 
flooding in any given year, it is essentially a 100-year flood?
    Mr. Fugate. Yes.
    Mr. Culberson. And as in a case with BlueCross, when--
excuse me, whatever the Medicare reimbursement rate is on a 
particular service provided by a doctor, that tends to become 
the benchmark by which BlueCross, Aetna, and private insurance 
carriers then set their rates for what they are going to cover, 
and how much they are going to charge for it.
    Similarly, when FEMA does this and says this is what we 
believe the area that we are going to classify as under, you 
know, the Federal flood risk, that area then becomes subject to 
insurance premiums that are set according to your standard, the 
building codes, everything else, right?
    Mr. Fugate. Yes, sir.
    Mr. Culberson. And by this change, what they have done is 
gone from 1 percent or greater chance of flooding, you have 
changed that to .2 tenths of 1 percent. And is that a 1,000-
year flood or a 500? I think it is 500.
    Mr. Fugate. It probably is 500. But the intention here is, 
and, as my understanding is, and what we had agreed to in this, 
this is only implying to Federal investment.
    Mr. Culberson. Well, Federally-funded projects, however 
just like I said with Medicare, when Medicaid reimburses at a 
particular rate that makes the insurance----
    Mr. Fugate. We made a firewall between distant flood 
insurance. We are keeping this separate from flood insurance. 
We are not changing that.
    Mr. Culberson. Right. But----
    Mr. Fugate. What we are saying is, if we are going to go 
build a critical infrastructure and rebuild it, a lot of times 
my cost-benefit analysis would not allow me to get to 2 to 3 
feet, even if the locals wanted to, and we have had them flood 
out time and time again. Because that 1 percent risk in a 
coastal community in a storm surge usually gets wiped out.
    So this was focused on where we make investments in 
building with Federal dollars, Federal infrastructure or 
Federal grants to bring them up to a higher standard. And in 
some communities they already had this. In the city of New 
Orleans, you have to build 3-feet above that even though your 1 
percent risk is below that.
    Mr. Culberson. Sure.
    Mr. Fugate. They were having to fight Federal agencies to 
comply with their own ordinances.
    So this focus is, if we are going to spend Federal dollars, 
we have got to build for the future. If we only do it 1 foot 
above base flood elevation, that is a significant investment. 
And if we get hit again, we are coming back for more money. We 
are just trying to make an investment that is an incremental 
cost increase in Federal dollars on Federal projects and 
constructions to not have to come back when it floods the next 
time. It is not tied to local ordinances. It is not tied to the 
flood insurance. Those maps are tied to a different program.
    Mr. Culberson. That may have been your intent, but I have 
already met with homebuilders in Houston and they are very 
alarmed by this, because it has already had the effect of 
having their insurance carriers contact them about driving up 
their insurance premiums, that it is going to drive up 
insurance premiums for homeowners. I am just telling you this 
is a fact.
    Mr. Fugate. Because the only company that is writing flood 
insurance for most of the country is the Federal Flood 
Insurance Program----
    Mr. Culberson. This is already happening.
    Mr. Fugate [continuing]. We have not made--the notices they 
are getting for flood insurance are a different program not 
tied to this.
    Mr. Culberson. This is already the conversations. These are 
already happening right now, on the ground, right now. I can 
tell you, the homebuilders are up in arms over there, and you 
all are going to be hearing about it all over the country. And 
their buildings codes are going to have to--they are already 
being told you are going to probably have to change the way in 
which you--you may have intended it only apply to Federally-
funded projects, but you are going to have to be 
extraordinarily careful.
    You have got two problems here: One, the administration 
appears to be, Mr. Chairman, in violation of the specific 
prohibition, as Dr. Harris pointed out; and then number two, 
the way you have designed this is that you have just now--the 
homebuilders just sat down with me on this and they are very 
alarmed because they are going to have--they said essentially 
what this does is put all of Texas south of I-10 and east of I-
35 in the floodplain. And it is going to drive up dramatically 
the cost of building, of insurance. Homebuilders are absolutely 
apoplectic over this, with good reason. And it doesn't appear 
you followed what the appropriations bill and law requires you 
to do.
    And this is a dramatic change, Mr. Chairman.
    And I notice also that it appears to be based on the 
climate action plan prepared by the President's National 
Security Council, which, of course to me, I wish he would pay 
as much attention to ISIS and what is happening in the Middle 
East as he has got his national security staff worrying about 
climate action. But that, I digress.
    But you have got two big problems here, and at least 
important, Mr. Chairman, and the subcommittee, that you have 
created a lot of problems that you say it may not have been 
your intent, but you have created a lot of problems and I think 
we are going to have to deal with, Mr. Chairman, to help 
alleviate concern and costs among our homebuilders in the 
private sector and, frankly, the State of Texas for that 
matter.
    Thank you, sir.
    Mr. Carter. Thank you, Mr. Culberson.
    And I am as concerned as Mr. Culberson about this issue. My 
folks in my State are very concerned about it.
    We have got a vote called. We have made it through a round 
of questioning, and now we are going to adjourn this meeting. 
Thank you for coming. As always, you do an excellent job of 
communicating with this committee. Please continue to do that.
    Mr. Fugate. Mr. Chairman, and, again, on the basis of the 
concerns raised by several members about the Federal floodplain 
management standard, I will have staff prepare briefings, and 
we will sit down and have staff meet with members to go over 
the concerns.
    [The information follows:]

    Representative Carter. And I am as concerned as Mr. Culberson about 
this issue. My folks in my State are very concerned about it.
    Administrator Fugate. Mr. Chairman, and, again, based upon the 
concerns raised by several members about the Federal floodplain 
management standard, I will have staff prepare briefings, and we will 
sit down and have staff meet with members to go over the concerns.
    RESPONSE. Deputy Associate Administrator Wright met with HAC staff 
and Chairman Carter's staff on April 28, 2015.

    I have already got one extension I have built into the 
system, so I am trying to make sure we get everybody--
    Mr. Carter. Well, floodplains really affect building in our 
State. Thank you.
    Mr. Fugate. Yes, sir.
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
  

                           W I T N E S S E S

                              ----------                              
                                                                   Page
Fugate, W. C.....................................................   189
Kerlikowske, R. G................................................    81
Saldana, S. R....................................................     1







                               I N D E X

                              ----------                           
                                                                   Page
U.S. CUSTOMS AND BORDER PROTECTION (CBP).........................    81
Apprehensions:
    Counterterrorism Capabilities................................   114
    Numbers......................................................   124
    Process......................................................   132
Automated Export System: Weapons.................................   118
Bed Space........................................................   125
Biometric Entry/Exit Program.....................................   123
Body-Worn Cameras................................................   131
Border Patrol Agents: Attrition..................................   101
Border Security:
    Definition...................................................   129
    Illegal Entrants Who Got Away................................   120
    Southern Border Crossings....................................   123
Cargo Screening..................................................   116
Counter-Network Operations.......................................   135
Criminal Misconduct Allegations..................................   130
Customs and Border Protection Officers: Hiring...................   100
Directives.......................................................   107
Firearms Registry................................................   119
Funding Requests, Prioritizing...................................   126
Migrant Deaths: Reducing and Preventing..........................   136
Notices to Appear................................................   125
Opening Statement: Commissioner Kerlikowske......................    86
Polygraph Operators..............................................   100
Preclearance:
    New Locations................................................   128
    Security Aspects.............................................   133
Professionalism Campaign and Fences..............................   109
Sequestration Contingency Planning...............................   134
Sugar Cane.......................................................   108
Terrorist Activities, Fueling....................................   115
Tunnel Detection Technology....................................108, 115
Unaccompanied Children:
    Mexican......................................................   103
    Preparedness.................................................   103
Unity of Effort..................................................   137
Unmanned Aerial Vehicles.........................................   107
Federal Emergency Management Agency (FEMA).......................   189
Disaster Declaration Process.....................................   209
Disaster Requirements Funding....................................   207
Disaster Workforce Readiness:
    Levels.......................................................   221
    Performance Measures.........................................   221
Emergency Food and Shelter Program...............................   211
Emergency Management Performance Grants..........................   220
Federal Flood Risk Management Standard.........................216, 222
Grants: Performance Measures.....................................   218
Hazard Mitigation Grants.........................................   210
Hurricane Katrina Projects.......................................   208
Lessions Learned.................................................   214
National Flood Insurance Program.................................   213
Opening Statement: Administrator Fugate..........................   194
Unaccompanied Children: Reimbursement to Local Communities.......   219
Urban Search and Rescue Program..................................   212
Wildfires........................................................   208

                                  [all]

</pre></body></html>
